APPENDIX

1a

APPENDIX A
In the

United States Court of Appeals
For the Seventh Circuit
_________________
No. 19-2596
RICO SANDERS,
Petitioner-Appellant,
v.
SCOTT ECKSTEIN,
Respondent-Appellee.
_________________
Appeal from the United States District Court for the
Eastern District of Wisconsin.
No. 2:11-cv-868 — Lynn Adelman, Judge.
_________________
ARGUED SEPTEMBER 23, 2020 —
DECIDED NOVEMBER 30, 2020
_________________
Before HAMILTON, SCUDDER, and ST. EVE, Circuit
Judges.
SCUDDER, Circuit Judge. Rico Sanders received a
140-year sentence for raping four women. He was 15
at the time of the sexual assaults, and his offense
conduct was heinous and cruel in the extreme. Now
40 years old, Sanders will first become eligible for
parole under Wisconsin law in 2030. He sought post-

2a
conviction relief in state court, arguing that
Wisconsin’s precluding him from any meaningful
opportunity of parole before 2030 offends the Supreme
Court’s holding in Graham v. Florida, 560 U.S. 48
(2010).
Sanders later added a claim that the
sentencing court’s failure to meaningfully consider his
youth and prospect of rehabilitation when imposing
the 140-year sentence runs afoul Miller v. Alabama,
567 U.S. 460 (2012). After the Wisconsin courts
rejected these claims, Sanders invoked 28 U.S.C.
§ 2254 and sought relief in federal court. The district
court denied the application, and we now affirm.
I
A
Between May and September 1995, Rico Sanders
committed a series of sexual assaults. He forcibly
entered his victims’ homes while they slept, suffocated
and raped them, and then robbed them of cash, food
stamps, or whatever else he could find. The youngest
victim was living in a foster home. Another victim had
given birth only a few weeks prior to Sanders’s assault.
Sanders admitted that he committed his crimes near
the first of the month on the belief the victims would
have just received public assistance checks.
Fingerprints recovered from three homes led the
police to Sanders. Wisconsin authorities then charged
him as an adult with five counts of sexual assault and
one count of armed robbery. Rather than proceed to
trial, Sanders entered an Alford plea in the Milwaukee
County Circuit Court. See North Carolina v. Alford,
400 U.S. 25, 38 (1970) (allowing the defendant to plead
guilty while maintaining his innocence). Sentencing
ensued and the state recommended 50 to 70 years.

3a
The Milwaukee court concluded that the
recommended sentence was insufficient to protect the
community and to punish Sanders, and instead
imposed consecutive terms of imprisonment
amounting to 140 years’ incarceration.
The
sentencing judge noted that, while he had handled
“hundreds of sexual assaults over the last three years,”
Sanders’s crimes were “some of the most horrific and
horrible sexual assaults that [he had] seen,”—“just
beyond belief.” The judge also remarked that he did
not “even know if [Sanders was] grown up [enough], to
commit crimes so violent at the age of 17.” (Sanders
was 17 at the time of sentencing but only 15 at the
time of the offenses.)
Sanders challenged his plea without success on
direct appeal in the Wisconsin courts. Wisconsin
circuit and appellate courts rejected the argument
that his Alford plea was not knowing, intelligent, and
voluntary, and the Wisconsin Supreme Court denied
his petition for review. Sanders then sought postconviction relief in the Wisconsin courts, alleging that
his counsel on direct appeal was ineffective. After the
circuit court denied his motion and the court of appeals
affirmed, the Wisconsin Supreme Court again declined
review.
In 2011, Sanders turned to federal court, invoking
28 U.S.C. § 2254 and seeking relief in the Eastern
District of Wisconsin. Beyond reviving his challenge
to his Alford plea, Sanders claimed that his sentence
did not conform with the Supreme Court’s holding in
Graham v. Florida, which requires that states give
juvenile nonhomicide offenders “some meaningful
opportunity to obtain release based on demonstrated
maturity and rehabilitation.” 560 U.S. 48, 75 (2010).

4a
The district court stayed Sanders’s proceeding to give
him an opportunity to exhaust this Graham-related
claim in state court, as required by 28 U.S.C.
§ 2254(b)(1)(A). With his federal proceeding stayed,
Sanders amended his petition to include a claim for
relief under Miller v. Alabama, contending that the
Wisconsin sentencing court violated his Eighth
Amendment rights by not considering his youth in
sentencing him to 140 years. See 567 U.S. 460, 479
(2012) (holding that “the Eighth Amendment forbids a
sentencing scheme that mandates life in prison
without possibility of parole for juvenile offenders”).
B
With these two claims in hand—one Grahamrelated and the other Miller-related—Sanders
returned to the Wisconsin courts. The Milwaukee
County Circuit Court denied relief, and the Wisconsin
Court of Appeals affirmed. The court of appeals
assumed that both Graham and Miller applied
retroactively to Sanders’s case but nonetheless
concluded that he was not entitled to sentencing relief.
In the face of competing evidence, the court accepted
Sanders’s assertion that his projected life expectancy
was 63.2 years. The court then reasoned that the rule
announced in Graham did not apply because Sanders
is serving a term of years and not a life sentence
without the possibility of parole. Reading Graham to
afford a juvenile offender (not convicted of homicide) a
“meaningful opportunity to obtain release” before his
natural life expectancy, the court noted that Sanders
is first eligible for parole in his early 50s—well before
his asserted life expectancy of 63.2 years.

5a
From there the Wisconsin Court of Appeals did not
provide an extended analysis of Miller, observing only
that it was “not directly on point, as it concerned
juveniles who committed homicides and were given
mandatory sentences of life without parole.” Sanders
was a nonhomicide juvenile offender who would have
the opportunity for parole under Wisconsin law, and
therefore Miller did not entitle him to any sentencing
relief. The Wisconsin Supreme Court again declined
review.
C
Following these proceedings in state court, the
federal district court in Wisconsin lifted the stay on
Sanders’s § 2254 petition. Sanders then renewed not
only his challenge to his Alford plea, but also his
contentions that his sentence neither affords him a
meaningful opportunity to obtain release as required
by Graham nor complies with Miller’s directive that
the sentencing court consider his youth.
The district court denied relief. The court concluded
that the state court did not act unreasonably in
concluding that Sanders’s Alford plea was valid. The
district court declined to grant a certificate of
appealability on this question, and the issue forms no
part of Sanders’s appeal.
The district court also determined that the
Wisconsin Court of Appeals’ decision that Sanders’s
sentence affords him a meaningful opportunity to
obtain release because he will be eligible for parole at
age 51 with a life expectancy of 63.2 years did not
reflect an unreasonable application of Graham. In
reaching this conclusion, the district court declined to
consider statistics Sanders presented from an

6a
American Civil Liberties Union analysis showing that
the average life expectancy for a juvenile sentenced to
life in prison is 50.6 years. Having never presented
the statistics to the Wisconsin courts, Sanders could
not rely upon the information as a basis for obtaining
federal habeas relief.
Finally, the district court read Miller to bar only
“mandatory life without parole sentences for juvenile
offenders.” Because Sanders did not receive a life
sentence, the district court determined that the
Wisconsin Court of Appeals reasonably concluded that
the principles espoused in Miller do not apply to
Sanders’s sentence.
In denying relief, the district court granted Sanders
a certificate of appealability on two questions:
whether his sentence affords him a meaningful
opportunity for parole in accordance with Graham,
and, separately, whether the sentencing court failed to
consider his youth as a mitigating factor under Miller.
II
A
The Supreme Court’s decisions in Graham and
Miller frame the issues before us on appeal. The Court
decided Graham five years after Roper v. Simmons,
543 U.S. 551, 578 (2005). In Roper, the Court held that
the Eighth Amendment prohibits the imposition of the
death penalty upon offenders who were under the age
of 18 when they committed their crimes. See 543 U.S.
at 578. Capital punishment is disproportionate for
this class, the Court reasoned, because “neither
retribution nor deterrence provides adequate
justification for imposing the death penalty on juvenile
offenders.” Id. at 572. The Court’s holding was

7a
categorical: the execution of a juvenile is repugnant to
the Eighth Amendment regardless of the offense the
juvenile committed. Id. at 578.
Graham followed in 2010 and presented the
question whether the principles animating Roper
apply to juvenile offenders sentenced to life
imprisonment without the possibility of parole for a
crime other than a homicide. See 560 U.S. at 52.
Terrance Jamar Graham received a life sentence for
an armed burglary he committed as a juvenile in
Florida—a state that had abolished parole. See id. at
57. Graham’s only chance for release was through the
distant possibility of executive clemency. See id. The
Court concluded that “penological theory is not
adequate to justify life without parole for juvenile
nonhomicide offenders.” Id. at 74. To be sure, a state
need not promise early release to this class of
offenders. Id. at 75. But the Eighth Amendment
compels the lesser measure of affording “some
meaningful opportunity to obtain release based on
demonstrated maturity and rehabilitation.” Id. at 75.
Two years later, in Miller v. Alabama, the Court
held that mandatory life-without-parole sentences for
juvenile offenders convicted of homicide violate the
Eighth Amendment. See 567 U.S. at 489. States are
not prohibited from sentencing “the rare juvenile
offender whose crime reflects irreparable corruption”
to life in prison. Id. at 479–80 (quoting Roper, 543 U.S.
at 573). But before imposing a life sentence for
homicide, the sentencing court must “take into
account how children are different, and how those
differences counsel against irrevocably sentencing
them to a lifetime in prison.” Id. at 480.

8a
The Court has continued to underscore Miller’s
direction that life sentences should be imposed
sparingly. Even in cases where a court considers the
child’s age before sentencing him to a lifetime in
prison, “that sentence still violates the Eighth
Amendment for a child whose crime reflects
‘unfortunate yet transient immaturity.’” Montgomery
v. Louisiana, 136 S. Ct. 718, 734 (2016) (quoting
Miller, 567 U.S. at 479). Applying the teachings of
Miller, we have held that the Eighth Amendment
prohibits not only de jure life sentences, but also de
facto life sentences—a term of years so long as to
equate for all practical purposes to a life sentence. See
McKinley v. Butler, 809 F.3d 908, 911 (7th Cir. 2016).
Roper, Graham, Miller, and Montgomery will not be
the Supreme Court’s last word on the Eighth
Amendment’s application to juvenile sentencing.
Indeed, this term the Court will consider whether the
Eighth Amendment requires the sentencing authority
to make a finding that a juvenile is permanently
incorrigible before imposing a sentence of life without
parole. See Jones v. State, No. 2015-CT-00899-SCT,
2018 WL 10700848 (Miss. Nov. 29, 2018), cert. granted
sub nom. Jones v. Mississippi, 140 S. Ct. 1293 (2020)
(No. 18-1259). That Graham and Miller do not purport
to answer every question sure to arise in their wake is
the legal reality that defeats Sanders’s request for
federal habeas relief.
B
We begin as we must with the decision of the last
state court to consider Sanders’s claim on the merits:
the Wisconsin Court of Appeals. See Williams v.
Jackson, 964 F.3d 621, 628 (7th Cir. 2020). That court

9a
concluded that Sanders, who was assumed to have a
life expectancy of 63.2 years and will be eligible for
parole in his early 50s, has not been denied a
meaningful opportunity for release under the rule
announced by the Supreme Court in Graham.
Our review proceeds under 28 U.S.C. § 2254. Relief
is proper only if the state court decision “was contrary
to, or involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States” or “was based on
an unreasonable determination of the facts.” 28
U.S.C. § 2254(d)(1)–(2). The Supreme Court has
instructed that under § 2254(d)(1), “an unreasonable
application of federal law is different from an incorrect
application of federal law.” Harrington v. Richter, 562
U.S. 86, 101 (2011) (quoting Williams v. Taylor, 529
U.S. 362, 410 (2000)). To prevail, Sanders must show
that the state court’s ruling “was so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Id. at 103.
“If this standard is difficult to meet, that is because it
was meant to be.” Id. at 102.
Sanders invokes § 2254(d)(2) and contends that the
Wisconsin court’s determination that his life
expectancy was 63.2 years was based on an
unreasonable determination of fact. He grounds this
contention in an ACLU report indicating that his life
expectancy is only 50.6 years. See ACLU of MICHIGAN,
MICHIGAN LIFE EXPECTANCY DATA FOR YOUTH
SERVING NATURAL LIFE SENTENCES, at 2, available at
http://www.lb7.uscourts.gov/documents/17-12441.pdf.
Because his first and earliest hope of parole will arrive
at age 51, Sanders contends that his sentence equates

10a
to life without a meaningful opportunity to obtain
release in violation of Graham’s core holding. See 560
U.S. at 75.
The district court was right to conclude that
Sanders waived this argument by not presenting it to
the Wisconsin courts. The only information Sanders
presented in state court about his life expectancy came
in his reply brief in support of his petition for postconviction relief, where he asserted that his life
expectancy is 63.2 years—a figure he said came from
the United States Department of Health and Human
Services. The state court reasonably accepted this
assertion.
Sanders cannot base a request for federal habeas
relief on information not presented to the state court
in the first instance. Indeed, evidence introduced for
the first time in federal court “has no bearing” on
review under § 2254(d)(1). Cullen v. Pinholster, 563
U.S. 170, 185 (2011).
As the Supreme Court
emphasized in Pinholster, “[i]t would be strange to ask
federal courts to analyze whether a state court’s
adjudication resulted in a decision that unreasonably
applied federal law to facts not before the state court.”
Id. at 182–83. The ACLU report accordingly cannot
aid Sanders in his pursuit of federal habeas relief.
With our review limited to the record before the
Wisconsin Court of Appeals, we consider whether that
court’s denial of relief constituted an unreasonable
application of the Supreme Court’s holding in
Graham.
We cannot answer that question in
Sanders’s favor.
The Wisconsin Court of Appeals determined
Sanders’s chance of parole at age 51—twelve years

11a
before his expected end of life at 63—respects
Graham’s requirement of a “meaningful opportunity
to obtain release based on demonstrated maturity and
rehabilitation.” 560 U.S. at 75. Nothing about that
conclusion reflects an unreasonable application of
Graham. In time the Supreme Court may give more
definition to what constitutes a “meaningful
opportunity” for early release. For now, however, the
Wisconsin court’s conclusion that Sanders will have
his first chance at parole at the age of 51 is by no
means unreasonable.
C
Sanders fares no better by rooting his request for
relief in Miller. Recall that in Miller the Supreme
Court held that it is unconstitutional to subject a
juvenile offender convicted of homicide to “a
sentencing scheme that mandates life in prison
without possibility of parole.” 567 U.S. at 479. But,
as the Wisconsin Court of Appeals recognized, Sanders
neither committed a homicide nor received a
mandatory life sentence.
He was convicted of
nonhomicide offenses, his 140-year sentence was
discretionary rather than mandatory, and his
sentence provides for the possibility of parole.
Our holding in McKinley v. Butler does not compel a
different conclusion. See 809 F.3d 908 (7th Cir. 2016).
Benard McKinley committed murder at the age of 16
and was sentenced to 100 years’ imprisonment with no
good time credit or chance for early release. See id. at
909. We recognized that Miller plays a role where
juveniles are subject to “discretionary life sentences
and de facto life sentences,” and we noted that the
“children are different” language of Miller “implies

12a
that the sentencing court must always consider the
age of the defendant in deciding what sentence (within
the statutory limits) to impose on a juvenile.” Id. at
911, 914.
Importantly, though, we made this statement in the
context of McKinley’s sentence, which provided no
possibility for parole and was therefore effectively a
life sentence. Sanders’s sentence does not fall within
that category. Absent controlling Supreme Court
authority that Miller requires a sentencing judge to
consider a juvenile offender’s youth and its attendant
circumstances before imposing a sentence other than
a de jure or de facto life-without-parole sentence, we
cannot say that the Wisconsin court’s decision resulted
in an unreasonable application of federal law. See 28
U.S.C. § 2254(d)(1).
III
We close with two interrelated observations. No
doubt the law will continue to evolve in this area.
Future cases will likely test what it means for a person
to have a meaningful opportunity for release under the
teachings of Graham. So, too, may future cases make
clear the outer limits of a sentencing judge’s discretion
to punish juvenile offenders under Miller. But lower
federal courts do not enjoy the benefit of foresight—
particularly so within § 2254 review. We decide this
appeal strictly within the confines of today’s clearly
established federal law as determined by the Supreme
Court.
In doing so, we offer a brief reaction to Sanders’s
belief that Wisconsin is certain to deny his request for
parole in 2030. He anchors that view in an analysis of
outcomes of initial parole eligibility determinations for

13a
offenders serving life sentences. Put most simply,
Sanders is convinced the deck is stacked against his
receiving parole in 2030. Now is not the time for
Sanders to advance this argument, however, as any
assessment of the point would immerse us in
Wisconsin’s parole standards, procedures, past
results, and projected outcomes—a task well beyond
deciding whether the Wisconsin Court of Appeals
unreasonably applied Graham and Miller in denying
Sanders post-conviction relief.
To its credit, and with appreciated candor, the
Warden’s counsel, on behalf of Wisconsin’s Attorney
General, acknowledged during oral argument that
Sanders, if he is denied parole in 2030, will have a
future opportunity to challenge that outcome in state
court, including by raising claims grounded in
Graham, Miller, or another Supreme Court precedent
that may enter the U.S. Reports in the intervening
years.
For these reasons, we AFFIRM.

14a

APPENDIX B

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
RICO SANDERS,
Petitioner,
v.

Case No. 11-CV-868

SCOTT ECKSTEIN,
Respondent.
ORDER
On August 8, 2019, I denied Rico Sanders’ petition
for a writ of habeas corpus. On August 19, 2019,
petitioner filed a notice of appeal of such denial.
Before a habeas petitioner may take an appeal to
the Seventh Circuit, I must consider whether to grant
him a certificate of appealability pursuant to 28 U.S.C.
§ 2253(c). Fed. R. App. P. 22(b). The certificate of
appealability may issue only if the applicant makes a
substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2). The standard for
making a “substantial showing” is whether
“reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been
resolved in a different manner or that the issues
presented were adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473, 484
(2000) (internal quotation marks omitted) (citing
Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). If

15a
the court issues a certificate of appealability it must
indicate on which specific issue or issues the petitioner
has satisfied the “substantial showing” requirement.
See 28 U.S.C. § 2253(c)(3).
Where a district court has rejected a petitioner’s
constitutional claims on the merits, as in petitioner’s
case, “the showing required to satisfy § 2253(c) is
straightforward: The petitioner must demonstrate
that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Slack, 529 U.S. at 484.
In denying the present petition, I found that the
state court had reasonably determined that
petitioner’s Alford plea was knowing and voluntary.
Further, I found that the state court of appeals
reasonably applied Supreme Court law when it found
that petitioner’s sentence afforded him a meaningful
opportunity for parole. Finally, I found that the state
court of appeals reasonably applied Supreme Court
law when it concluded that the trial court had not
erred by failing to consider petitioner’s youth as a
mitigating factor at sentencing. While the first of
these conclusions could not be reasonably debated, the
second and third conclusions could be debated. Both
involve interpretations of the Supreme Court’s holding
in Graham v. Florida, 560 U.S. 48 (2010). Regarding
the second conclusion, reasonable jurists could
conclude that Graham’s requirement that a juvenile
non-homicide offender be sentenced in a manner that
affords him a “meaningful opportunity to obtain
release based on demonstrated maturity and
rehabilitation” is not satisfied when the offender will
become eligible for parole just a few years before his
natural life expectancy. A jurist who so concludes

16a
might then reasonably conclude with respect to the
third conclusion that the principle from Graham that
youth is to be considered as a mitigating factor before
a court applies particularly severe sentence properly
applies to the petitioner’s case, such that the trial
court erred in not treating petitioner’s youth as a
mitigator. I will certify these two issues for appeal.
Therefore, IT IS ORDERED that a certificate of
appealability is GRANTED.
Dated at Milwaukee, Wisconsin, this 2nd day of
October, 2019.
s/Lynn Adelman
LYNN ADELMAN
District Judge

17a

APPENDIX C

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
RICO SANDERS,
Petitioner,
v.

Case No. 11-CV-868

SCOTT ECKSTEIN, Warden,
Green Bay Correctional Institution,
Respondent.
ORDER
Rico Sanders petitions for a writ of habeas corpus
under 28 U.S.C. § 2254.
I.
A.

BACKGROUND

Charges, Plea and Sentencing

The charges against Sanders stemmed from four
incidents, dating between May and September, 1995,
when he broke into homes and sexually assaulted the
women who lived there. After his arrest, he confessed
to the crimes and provided police with details that
corroborated the victims’ statements. Sanders was 15
years old at the time of the assaults.
After a waiver from juvenile court, Sanders was
charged in adult court in Milwaukee County with
several counts of sexual assault, armed robbery, and
burglary. While the case was pending, his defense
attorneys repeatedly raised the question of Sanders’

18a
competency to stand trial. He was evaluated by two
psychiatrists and spent time at the Mendota Mental
Health Institute for evaluation. Ultimately, the trial
court found him competent but below average
intelligence.
Eventually, pursuant to a negotiated plea
agreement, Sanders entered Alford pleas in
Milwaukee Circuit Court to five counts of sexual
assault and one of armed robbery, with the burglary
charges dismissed and read in. Prior to the plea
colloquy, Sanders reviewed a plea questionnaire with
his attorney and signed it. At the plea colloquy, the
court recited the elements of the offenses and Sanders
pled guilty to each under the Alford decision. The
court then asked Sanders several questions about his
age, his level of education, the fact that he’d been
psychologically evaluated, whether he understood that
by entering his plea he was giving up certain
constitutional rights, and whether anyone had made
threats or promises to him to get him to enter the plea
agreement.
Sanders generally gave one-word
responses to these questions. For example, the court
asked the following questions:
THE COURT: Okay. So do you understand, and
I just discussed with you what you’re charged
with and I read it to you, what the penalties are,
your attorney told you that, we’ll go through that,
why you’ve been charged and the elements of each
of these offenses. Is that correct?
DEFENDANT: Right.
THE COURT: And counsel, you discussed with
him what the elements would be, what the state

19a
would have to prove in each count in order to
convict him?
MR. LOVE: I did, Your Honor.
Id. at 13–14. The court also asked Sanders whether
he understood that the court would not be bound by
the prosecutor’s sentencing recommendations and
Sanders responded that he did understand. Id. at 15.
Sanders was 17 years old at the time of the plea
hearing.
The court held a sentencing hearing several weeks
after Sanders entered his pleas. Based on the counts
to which Sanders had pleaded, his maximum exposure
was 210 years.
However, consistent with the
negotiated plea agreement, the state recommended a
sentence of 50 to 70 years total on the sexual assault
charges; with regard to the armed robbery charge, the
state recommended that Sanders be sentenced, that
the prison portion of the sentence be stayed, and that
he receive a lengthy consecutive period of probation.
ECF # 20-31 at 12.
Despite the state’s recommendation, the court
determined that a longer prison term was warranted
and imposed consecutive sentences totaling 140 years:
30 for each of the four first-degree sexual assaults, and
10 each for the second degree sexual assault and the
armed robbery. Id. at 58–59. The court discussed
various factors influencing its sentencing decision,
including the violent nature of the crimes, Sanders’
prior criminal record, and the need to protect the
community. The court also included the following
statements in its analysis:
And counsel again argues that [Sanders is] a
product of his environment. There are hundreds

20a
if not thousands of children who have the same
problems in the inner city, but hundreds and not
thousands of children grow up to be 17, I don’t
even know if he’s grown up, to commit crimes so
violent at the age of 17. If that’s true, we would
have thousands of 17-year-olds in here. So I don’t
think his background makes him a serial rapist,
and that’s what he is, a serial rapist.
Id. at 56–57. This was the court’s only mention of
Sanders’s age during its discussion of the sentencing
factors.
As noted, Sanders was 17 at the time of his
sentencing. Based on his sentence and the application
of Wis. Stat. § 304.06(1)(b), Sanders will be eligible for
parole after serving 35 years in prison, when he is
roughly 51 years old.
B.

Appellate Litigation Re Adequacy of Plea
Colloquy.

Sanders did not immediately challenge his
conviction or sentence. However, nine years later, in
2006, he filed a petition for habeas corpus in state
court challenging the effectiveness of his appellate
counsel, which resulted in the state court of appeals
reinstating his appellate rights.
Sanders then filed a postconviction motion seeking
to withdraw his Alford pleas on grounds that his plea
was not entered knowingly, intelligently and
voluntarily. He pointed out that at the time of his
sentencing he was a 17-year-old who had not
completed eighth grade, had been in special education
for a learning disability, read and wrote at an
elementary school level, and had mental health issues.
He alleged that the trial court “never summarized the

21a
elements of the crimes by reading from jury
instructions, did not ask counsel to summarize the
extent of his explanation of the charges, and did not
ask Rico whether he understood the nature of the
charge based upon the criminal complaint.” ECF # 203 at 12. He further alleged that, “[a]t the time he
entered his pleas, Rico did not understand the nature
of the charges against him. He did not understand the
elements of the multiple charges against him. The
types of words used to describe the crimes were beyond
his vocabulary, including such concepts as ‘first
degree’ and ‘article used or fashioned in a manner to
lead the victim to reasonably believe it’s a dangerous
weapon.’” Id. at 12–13.
On the basis of these allegations, Sanders argued
that the plea colloquy did not meet the standards of
Wis. Stat. § 971.08, which requires a trial court to
address a defendant personally and determine that his
plea is voluntary before accepting it, and State v.
Bangert, 131 Wis.2d 246, 266–72 (1986), which
imposes on the trial court a duty to inform the
defendant of the charges against him before accepting
his plea. The trial court found that Sanders had not
made out a prima facie case that the plea colloquy was
defective, and thus summarily denied his petition
without holding an evidentiary hearing. See Bangert,
131 Wis. 2d at 274 (holding that a defendant seeking
to withdraw a plea based on an inadequate plea
colloquy “must make a prima facie showing that his
plea was accepted without the trial court’s
conformance with § 971.08 or other mandatory
procedures”).
Sanders appealed this decision, the question on
appeal being whether the trial court had erred in

22a
denying Sanders an evidentiary hearing. In a decision
dated September 9, 2008, the court of appeals affirmed
the trial court’s conclusion that the plea colloquy had
been adequate. In support of this conclusion, the court
of appeals noted that for the first three of the four firstdegree sexual assault charges, the trial court recited
each charge individually, stating the date and address
where each assault occurred, and included language
descriptive of each of the elements necessary to prove
first-degree sexual assault. The court acknowledged
that the trial court did not complete its recitation of all
the elements of the fourth assault, but concluded that
this did not render the colloquy inadequate because
the court had recited those elements for each of the
other first-degree sexual assaults. The court of
appeals similarly found that the trial court had
identified the other charged offenses by date, location,
and name of victim, and had adequately recited the
elements of each charge. The court of appeals also
noted that the trial court had explained the
implications of an Alford plea, and had confirmed with
defense counsel that there was no question about
Sanders’s competency on that day. The court of
appeals concluded that Sanders had not made a prima
facie case that the colloquy had failed to meet the
standards of § 971.08 and Bangert; therefore, the court
declined to consider Sanders’ allegations that he did
not understand the charges to which he’d pled.
Sanders petitioned the Wisconsin Supreme Court
for review of the Court of Appeals’ decision. On
December 15, 2008, the Supreme Court summarily
denied his petition.
On December 7, 2009, Sanders filed a pro se motion
for postconviction relief under Wis. Stat. § 974.06,

23a
alleging that his post-conviction counsel had provided
ineffective assistance by failing to raise on direct
appeal the question of the plea hearing’s adequacy—
specifically, whether the court had sufficiently
informed Sanders of the constitutional rights his plea
would waive, and whether it had ascertained that he
understood those rights. The circuit court summarily
denied the motion. On March 15, 2011, the Wisconsin
Court of Appeals summarily affirmed the circuit
court’s decision, on grounds that the colloquy had been
adequate on the face of the transcript, that Sanders
had not alleged what counsel did wrong, and Sanders
had not alleged that he had told post-conviction
counsel that he did not understand his rights. In June
15, 2011, the Wisconsin Supreme Court summarily
denied Sanders’ petition for review of this decision.
C.

Appellate Litigation Re Sentencing

In May, 2012, Sanders filed another pro se Wis.
Stat. § 974.06 motion, raising two issues. First, he
asserted that because he would not be eligible for
parole until he was fifty years old, his sentence was
contrary to the United States Supreme Court’s holding
in Graham v. Florida, 560 U.S. 48 (2010), that states
must afford juvenile offenders convicted of
nonhomicide crimes “some meaningful opportunity to
obtain release based on demonstrated maturity and
rehabilitation.” Id. at 75. Second, he argued that his
sentence was “unduly harsh and excessive” and that,
consistent with the principles underlying Graham, the
trial court should have taken Sanders’s youth into
consideration as a mitigating factor at sentencing.
The trial court concluded that Sanders’s motion was
procedurally barred under State v. Escalona-Naranjo,
185 Wis.2d 168 (1994), because Sanders failed to raise

24a
the issues in his previous § 974.06 motion. Sanders
moved to reconsider, and the trial court denied his
motion.
Sanders appealed. For purposes of resolving his
appeal, the Court of Appeals made two assumptions:
first, that Sanders’s motion was not procedurally
barred by Escalona-Naranjo; and, second, that the
Supreme Court’s decisions in Graham and Miller v.
Alabama, 567 U.S. 460 (2012), applied retroactively
and could form the basis for Sanders challenge to his
sentence. ECF # 20-19 at 5. The court further
recognized that some courts had extended Graham to
bar consecutive sentences for juvenile offenders under
which the first eligibility for parole would arise after
the offender’s natural life expectancy. Id. at 7. Still,
the court concluded that Sanders was not entitled to
relief on this theory, because Sanders would first
become eligible for parole in his early 50s and his life
expectancy, as he had acknowledged in his reply brief,
was 63. Id. at 7. On these grounds, the Court of
Appeals affirmed the circuit court’s denial of Sanders’
postconviction motion. The Court of Appeals did not
directly address Sanders’ argument that because the
sentencing court had not considered his age and
reduced culpability as mitigating factors, his sentence
violated a policy of rehabilitative sentencing for
juveniles underlying Graham and Miller.
Sanders petitioned the Wisconsin Supreme Court
for review of this decision. The Wisconsin Supreme
Court summarily denied his petition.
II.

STANDARD OF REVIEW

Sanders’s petition presents three potential grounds
for habeas relief. First, he argues that he entered his

25a
plea without fully understanding the charges against
him, and that the trial court failed to adequately
ascertain that his plea was knowing and knowing and
voluntary. Second, he argues that his sentence does
not provide him a meaningful opportunity for parole.
Third, he argues that his sentence violates the Eighth
Amendment because the sentencing court failed to
consider his youth as a mitigating factor.
The parties agree that Sanders has exhausted each
of these claims in state court. To the extent that the
state courts resolved these claims on the merits, the
standard of review in 28 U.S.C. § 2254 applies. At first
blush, it’s not obvious that the state court resolved
each of these three claims on the merits, because in
resolving Sanders’s 2012 postconviction motion the
Wisconsin Court of Appeals focused on the claim that
Sanders’s sentence did not allow him a meaningful
opportunity for parole, and did not directly address
Sander’s claim that he was entitled to have his youth
considered as a mitigating factor at sentencing.
However, the Seventh Circuit has explained that
AEDPA’s “adjudication on the merits requirement”
sets a very low bar: it requires only that the state
court’s disposition of the case was substantive as
opposed to procedural, without regard to whether the
disposition was well-reasoned, correct, or even
supported by any explicit reasoning at all. Muth v.
Frank, 412 F.3d 808, 815–16 (2005)(“In fact, several
circuits have held that a state court need not offer any
reasons and summarily dispose of a petitioners claim
and that summary disposition would be an
adjudication on the merits.”). Though the Court of
Appeals provided no reasoning directly addressed to
Sanders’s claimed entitlement to mitigation on the

26a
basis of youth, it did acknowledge that Sanders’s
motion had raised the claim, and its disposition of the
claim was not on procedural grounds.
Thus I’m satisfied that each of the three claims was
adjudicated on the merits in state court within the
meaning of AEDPA, such that the standard of review
set forth in 28 U.S.C. § 2254(d) applies. Under this
standard, I may grant relief only if the state court’s
decision was contrary to, or involved an unreasonable
application of, clearly established federal law as
determined by the Supreme Court of the United
States, or was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceeding.
A state court’s decision is “contrary to . . . clearly
established Federal law as established by the United
State Supreme Court” if it is “substantially different
from relevant [Supreme Court] precedent.” Williams
v. Taylor, 529 U.S. 362, 405 (2000). The Seventh
Circuit has recognized the narrow application of the
“contrary to” clause: “Under the ‘contrary to’ clause of
§ 2254(d)(1), [a district court] could grant a writ of
habeas corpus . . . where the state court applied a rule
that contradicts the governing law as expounded in
Supreme Court cases or where the state court
confronts facts materially indistinguishable from a
Supreme Court case and nevertheless arrives at a
different result.” Washington v. Smith, 219 F.3d 620,
628 (7th Cir. 2000).
In contrast, the “unreasonable application of” clause
is somewhat broader and “allows a federal habeas
court to grant habeas relief whenever the state court
‘unreasonably applied [a clearly established] principle

27a
to the facts of the prisoner’s case.” Id. To be
unreasonable, a state court ruling must be more than
simply “erroneous.” Hennon v. Cooper, 109 F.3d 330,
334 (7th Cir. 1997). “Unreasonableness is judged by
an objective standard, and under the unreasonable
application clause, a federal habeas court may not
issue the writ simply because that court concludes in
its independent judgment that the relevant state court
decision applied clearly established federal law
erroneously or incorrectly. Rather, that application
must also be unreasonable.” Morgan v. Krenke, 232
F.3d 562, 565–66 (7th Cir. 2000). Thus, before I may
issue a writ of habeas corpus, I must determine that
the state court decision was both incorrect and
unreasonable. Washington, 219 F.3d at 627.
III.
A.

DISCUSSION

Knowing, Intelligent and Voluntary Plea

Sanders first claims that his conviction is not
constitutional because his Alford pleas were not
entered knowingly, intelligently and voluntarily as
due process requires. Boykin v. Alabama, 395 U.S.
238, 243 (1969). A plea may be involuntary either
because the accused does not understand the nature of
the constitutional protections that he is waiving, or
because he has such an incomplete understanding of
the charge that his plea cannot stand as an intelligent
admission of guilt. Henderson v. Morgan, 426 U.S.
637, 645 n. 13 (1976). Wisconsin has established
certain procedural requirements for trial judges to
follow to ensure that guilty pleas conform with the
constitutional standards. See Wis. Stat. § 971.08(1)(a)
(before a court accepts a guilty plea, it must “[a]ddress
the defendant personally and determine that the plea

28a
is made voluntarily with understanding of the nature
of the charge and the potential punishment if
convicted”); State v. Bangert, 131 Wis.2d 246, 267
(1986)(trial courts have a duty to “inform a defendant
of the nature of the charge, or, alternatively, to . . .
ascertain that the defendant possesses accurate
information about the nature of a charge” before
ascertaining the knowingness and voluntariness of the
defendant’s plea).
In rejecting Sanders’s challenge to the validity of his
plea, the Wisconsin Court of Appeals relied heavily on
the plea colloquy’s conformity with the requirements
of § 971.08 and Bangert. Sanders now concedes that,
at least on its face, the transcript of his plea colloquy
does meet the state procedural requirements; he
asserts, though, that the judge should have taken into
account his limited education and cognitive ability and
required more from him than simple yes-or-no
answers in order to ascertain that he truly understood
the charges against him and the rights he was
waiving. On this basis he argues that the Court of
Appeals’ determination that the plea colloquy was
involved an unreasonable application of the rule that
a court’s inquiry into a defendant’s understanding
must take account of all relevant circumstances,
including the defendant’s mental capacity. See Brady
v. U.S., 397 U.S. 742, 749 (1970).
Sanders’s argument fails. The Wisconsin Court of
Appeals decision indicates that it did consider
Sanders’s cognitive ability but found that it was
outweighed by other factors, including the
thoroughness of the trial court’s explanations of the
charges and consequences of the plea, the fact that
Sanders had signed a plea questionnaire that he

29a
acknowledged he’d discussed with his attorney, and
Sanders’s several affirmations during the colloquy
that he understood what was being said and had no
questions of defense counsel or the trial court. ECF #
20-6 at 6–7. What Sanders now asks for is a reweighing of these factors, but AEDPA does not allow
me to undertake that sort of review. I may consider
only whether the Court of Appeals treatment of these
factors was unreasonable, and it plainly was not. I
cannot grant habeas relief to Sanders on his claim of
an invalid plea.
B.

Meaningful Opportunity for Parole

Sanders’s second claim is that his sentence violates
the holding of Graham v. Florida, 560 U.S. 48 (2010),
that under the Eighth Amendment states must afford
juveniles convicted of non-homicide offenses a
“meaningful opportunity to obtain release based on
demonstrated maturity and rehabilitation.” Id. at 75.
When Sanders first raised this issue by post-conviction
motion, he asserted that his life expectancy was 63 and
argued that his parole eligibility at roughly age 51 did
not afford him a “meaningful opportunity” for release.
The Court of Appeals rejected his argument. Though
it acknowledged that some courts had extended
Graham to bar not only actual life without parole
sentences but also consecutive term-of-years
sentences under which a juvenile would first become
eligible for parole at a date beyond his life expectancy,
it concluded that because Sanders’s parole eligibility
date fell before his alleged life expectancy, his sentence
was not the sort of de facto life sentence to which
Graham might arguably apply. ECF # 20-19 at 6–7.

30a
Sanders’s position has changed. He now presents
statistics compiled by the ACLU of Michigan which
suggest that the average life expectancy for a juvenile
sentenced to life in prison is 50.5 years, which is
almost exactly the age at which Sanders will first
become eligible for parole. These statistics might
support an argument that Sanders’s sentence is, in
fact, a de facto life sentence. However, I cannot
consider them. AEDPA deferemce requires that I
consider only evidence that was before the state court
at the time it adjudicated the claim on the merits.
Cullen v. Pinholster, 563 U.S. 170, 181–82 (2011). On
the evidence before it, the Wisconsin Court of Appeals
decision that sentence under which Sanders would
become eligible for parole at age 51 allowed him a
meaningful opportunity for release was not an
unreasonable application of federal law.
C.

Cruel and Unusual Sentence

Sanders’s final claim is that his sentence violates
the Eighth Amendment because the sentencing court
did not consider his youth as a mitigating factor when
imposing it. He argues that this violates a principle
articulated in Graham and in Miller v. Alabama, 567
U.S. 460 (2012), that because children have
diminished culpability and greater potential
rehabilitation they are entitled to differential
treatment at sentencing. Though the Wisconsin Court
of Appeals acknowledged that Sanders had made this
claim, its decision does not directly address it; as
discussed above, the decision turns on Sanders’s
sentence not being a de facto life sentence.
Nevertheless, because the issue was raised in state
court and disposed of on non-procedural grounds, I

31a
must treat the Court of Appeals decision as one on the
merits and apply AEDPA deference.
Though both Graham and Miller use expansive
statements about developmental differences between
children to justify and explain their holdings, the
holdings themselves are capable of a narrower
construction that renders them inapplicable to
Sanders’s case. Narrowly, Graham holds that the
Eighth Amendment bars life without parole sentences
for juveniles convicted of non-homicide offenses. But
Sanders’s sentence is not life without parole, nor even
(as the Court of Appeals not-unreasonably concluded)
de facto life without parole. Miller is even farther
removed. Narrowly, it bars mandatory life without
parole sentences for juvenile offenders. But, again,
Sanders’s sentence is not life without parole, let alone
mandatory life without parole. Thus, though Sanders
makes at least a colorable argument that the
sentencing judge’s treatment of his age violated a
principle that youth ought to be considered as a
mitigator, the Court of Appeals would not have been
unreasonable in finding Sanders’s case so far removed
from the facts of Graham and Miller that the
principles espoused in those cases did not apply. Cf.
McKinley v. Butler, 809 F.3d 908, 911 (7th Cir. 2016)
(reasoning that a 100-year sentence is a de facto life
sentence “and so the logic of Miller applies”).
IV.

CONCLUSION

For the foregoing reasons, IT IS ORDERED that
Rico Sanders’s petition for a writ of habeas corpus is
DENIED and this case is DISMISSED. The clerk of
court shall enter final judgment accordingly.

32a
Dated at Milwaukee, Wisconsin this 8th day of
August, 2019.
s/Lynn Adelman
LYNN ADELMAN
District Judge

33a

APPENDIX D

COURT OF APPEALS
DECISION
DATED AND FILED

NOTICE

This opinion is subject to
further
editing.
If
published, the official
August 5, 2014
version will appear in the
bound volume of the
Diane M. Fremgen
Clerk of Court of Appeals Official Reports.
A party may file with the
Supreme Court a petition
to review an adverse
decision by the Court of
Appeals. See WIS. STAT.
§ 808.10 and Rule 809.62.
Appeal No. 2012AP1517

Cir. Ct. No. 1995CF954600

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT I

STATE OF WISCONSIN,
PLAINTIFF-RESPONDENT,
V.

RICO SANDERS,
DEFENDANT-APPELLANT.

34a
APPEAL from an order of the circuit court for
Milwaukee County: DAVID A. HANSHER, Judge.
Affirmed.
Before Fine, Kessler and Brennan, JJ.
¶1 PER CURIAM. Rico Sanders, pro se, appeals
from an order denying his WIS. STAT. § 974.06 (2011–
12) motion for postconviction relief.1 He seeks relief
from his sentence based on Graham v. Florida, 560
U.S. 48 (2010), and Miller v. Alabama, ___ U.S. ___
132 S. Ct. 2455 (2012).2 We affirm.
BACKGROUND
¶2 In 1995, Sanders was charged with breaking
into the homes of four women, sexually assaulting
each woman, and taking property from the homes.
Sanders was fifteen years old when the crimes were
committed. The criminal complaint indicates that
Sanders gave an interview to the police during which
he admitted the crimes and offered details about them.
¶3 In 1997, Sanders reached a plea bargain with
the State pursuant to which he entered Alford pleas
to four counts of first-degree sexual assault, one count
of second-degree sexual assault, and one count of
armed robbery with use of force, contrary to WIS. STAT.

1

The Honorable David A. Hansher accepted Sanders’s pleas,
sentenced him, denied the 2009 WIS. STAT. § 974.06 motion, and
denied the 2012 § 974.06 motion that is at issue in this appeal.
All references to the Wisconsin Statutes are to the 2011–12
version unless otherwise noted.
2

Sanders’s motion asked the trial court to “[v]acate, modify,
or set aside [his] sentence.”

35a
§§ 940.225(1)(b) and (2)(a) and 943.32(2) (1995–96). 3
Sanders’s exposure for those six crimes was two
hundred and ten years.
The State agreed to
recommend a total sentence of fifty to seventy years of
imprisonment for the sexual assault charges, plus a
lengthy imposed and stayed sentence with probation
for the armed robbery charge. Two counts of armed
robbery and two counts of aggravated battery—which
would have subjected Sanders to an additional one
hundred years of imprisonment—were dismissed and
read in.
¶4 The trial court said that Sanders’s crimes were
“some of the most horrific and horrible sexual assaults
that [it had] seen” and concluded that the State’s
sentencing recommendation was “insufficient to
protect the community and ... punish the defendant.”
The trial court sentenced Sanders to a total of 140
years of imprisonment, with 595 days of presentence
credit. Sanders will be eligible for parole after serving
thirty-five years in prison.
¶5 Sanders did not immediately pursue a direct
appeal. His direct appeal rights were reinstated in
2006. In 2007, represented by a lawyer, he filed a
motion to withdraw his Alford pleas. The trial court
denied his motion and we affirmed. 4 See State v.
Sanders, No. 2007AP1469, unpublished slip op. (WI
App Sept. 9, 2008).
3

When a defendant enters an Alford plea, the defendant
maintains his or her innocence but accepts the consequences of
the charged offense. See North Carolina v. Alford, 400 U.S. 25
(1970).
4

The Honorable Jeffrey A. Wagner denied Sanders’s 2007
postconviction motion.

36a
¶6 In 2009, Sanders filed a pro se WIS. STAT.
§ 974.06 motion, asserting that his postconviction
lawyer had provided constitutionally deficient
representation with respect to moving for plea
withdrawal. The trial court denied the motion and we
affirmed. See State v. Sanders, No. 2009AP3190,
unpublished slip order (WI App Mar. 16, 2011).
¶7 In May 2012, Sanders filed the pro se WIS. STAT.
§ 974.06 motion that is the subject of this appeal.
Sanders’s motion raised two issues, both of which were
based on Graham, which held that the United States
“Constitution prohibits the imposition of a life without
parole sentence on a juvenile offender who did not
commit homicide.” Id., 560 U.S. at 82. Graham
explained: “A State is not required to guarantee
eventual freedom to a juvenile offender convicted of a
nonhomicide crime. What the State must do, however,
is give defendants like Graham some meaningful
opportunity to obtain release based on demonstrated
maturity and rehabilitation.” Id. at 75.
¶8 Sanders’s motion asserted that because he
would not be eligible for parole until he was fifty years
of age, he was being denied a “meaningful opportunity
for
parole,”
which
was
contrary
to
5
Sanders’s motion also argued that his
Graham.
sentence was “unduly harsh and excessive” and that,
under Graham, the trial court should have taken
Sanders’s “age and youthfulness into consideration” at
sentencing.
5

The State asserts that Sanders will be eligible for parole
when he is fifty-one or fifty-two years old. Our analysis in this
case is the same whether Sanders is eligible for parole at age fifty,
fifty-one, or fifty-two.

37a
¶9 The trial court concluded that Sanders’s motion
was procedurally barred under Escalona-Naranjo,
185 Wis. 2d 168, 517 N.W.2d 157 (1994), because
Sanders failed to raise the issues in his previous WIS.
STAT. § 974.06 motion. Sanders filed a motion for
reconsideration, arguing that he should not be
procedurally barred from raising issues based on
Graham because the case had not yet been decided
when Sanders filed his first § 974.06 motion. The trial
court denied the motion, but in doing so, it briefly
addressed the merits of Sanders’s § 974.06 motion.
The trial court concluded:
Graham is inapplicable here. The Graham
court held that the Eighth Amendment does not
permit a juvenile to be imprisoned for life without
parole. Because Florida had abolished its parole
system, [Graham] had no meaningful opportunity
for parole in that state. Wisconsin has not
abolished its parole system, and [Sanders] is
eligible for parole in September of 2030. He is not
serving a life sentence without parole as in
Graham.
(Underlining omitted; bolding and italics added.)
DISCUSSION
¶10 Sanders presents three issues on appeal. First,
he argues that the trial court erroneously exercised its
discretion when it concluded that Sanders’s motion
was procedurally barred by Escalona-Naranjo.
Second, he questions whether the structure of his
sentence “affords him a meaningful opportunity for
parole.” (Bolding and capitalization omitted.) Third,
Sanders asserts that his sentence “is cruel and
unusual [as] guided by the principles set forth in

38a
Graham and echoed in Miller.” (Bolding and italics
added.)
¶11 For purposes of this appeal, we will assume that
Sanders’s motion was not procedurally barred by
Escalona-Naranjo and will instead focus on whether
Sanders is entitled to relief based on Graham and
Miller. Even if we further assume that Graham and
Miller apply retroactively and could form the basis for
Sanders’s challenge to his sentence, we are not
convinced that those cases entitle Sanders to relief
from his sentence.
¶12 Sanders concedes that he is not serving a life
sentence without the possibility of parole and that his
case is “therefore not controlled by Graham.”
(Bolding and italics added.) Further, it is clear that
Miller, which was released after Sanders filed his
postconviction motion, is also not directly on point, as
it concerned juveniles who committed homicides and
were given mandatory sentences of life without parole.
See Miller, ___ U.S. at ___, 132 S. Ct. at 2460
(“[M]andatory life without parole for those under the
age of 18 at the time of their crimes violates the Eighth
Amendment’s prohibition on ‘cruel and unusual
punishments.’”). Nonetheless, Sanders suggests that
the principles discussed in both cases support his
claim that his sentence “is cruel and unusual.”
¶13 As noted, Graham held that a defendant must
have “some meaningful opportunity to obtain release
based on demonstrated maturity and rehabilitation.”
See id., 560 U.S. at 75. The State acknowledges that
some courts have “extended Graham to ... consecutive
sentences under which the defendant was first eligible
for parole at a date beyond his life expectancy.”

39a
(Bolding added.)
For example, in People v.
Caballero, 282 P.3d 291 (Cal. 2012), the California
Supreme Court considered the case of a juvenile who
was given consecutive sentences that did not make
him eligible for parole for “over 100 years.” See id. at
293, 295. Citing Graham, the court concluded “that
sentencing a juvenile offender for a nonhomicide
offense to a term of years with a parole eligibility date
that falls outside the juvenile offender’s natural life
expectancy constitutes cruel and unusual punishment
in violation of the Eighth Amendment.” Caballero,
282 P.3d at 295.
¶14 We need not decide whether Wisconsin would
follow Caballero’s reasoning or cases holding that
Graham prohibits only the imposition of a sentence of
life imprisonment without the possibility of parole for
a juvenile who commits a non-homicide offense,
because even under Caballero’s reasoning, Sanders is
not entitled to relief. As the State points out, “Sanders
does not assert, much less prove, that his parole
eligibility date exceeds his natural life expectancy.”
Indeed, Sanders admits in his reply brief that his
eligibility for parole is within his life expectancy,
which he asserts is 63.2 years.6
¶15 Further, Sanders has not provided any case law
holding that where a defendant is eligible for parole in
his early fifties, he is nonetheless being denied the
“meaningful opportunity to obtain release based on
demonstrated maturity and rehabilitation” that is
6

The State contends that Sanders’s life expectancy is 70.6
years. We need not determine which life expectancy figure is
accurate, because using either figure, Sanders’s life expectancy is
years beyond his parole eligibility date.

40a
referenced in Graham. See id., 560 U.S. at 75.
Sanders faults the State for not developing an
argument concerning the definition of “meaningful
opportunity,” but the burden is on Sanders to show
that he is entitled to relief. Sanders’s motion asserted
that juveniles should be eligible for parole in their late
twenties, when their minds are “fully matured,” but he
has not demonstrated that Graham or other cases
have held that the United States Constitution requires
such an early parole eligibility date for juveniles
convicted of non-homicide crimes.
¶16 In summary, Sanders has not shown that he is
entitled to relief from his sentence based on the United
States Supreme Court’s holdings in Graham and
Miller. We affirm the trial court’s order.
By the Court.—Order affirmed.
This opinion will not be published. See WIS. STAT.
RULE 809.23(1)(b)5.

41a

APPENDIX E

STATE OF
WISCONSIN

CIRCUIT COURT
BRANCH 42

MILWAUKEE
COUNTY

STATE OF WISCONSIN,
Plaintiff,
v.

Case No. F-954600

RICO SANDERS,
Defendant.
SENTENCING
April 25, 1997

Hon. David A. Hansher
Circuit Judge, Presiding

CHARGES/DISPOSITION
Ct. 1 – First Degree Sexual Assault – 30 YEARS,
WISCONSIN STATE PRISON
Ct. 3 – Armed Robbery – 10 YEARS, WISCONSIN
STATE PRISON, CONSECUTIVE TO
COUNT 1
Ct. 4 – Second degree Sexual Assault – 10 YEARS,
WISCONSIN STATE PRISON,
CONSECUTIVE TO COUNT 3
Ct. 6 – First Degree Sexual Assault – 30 YEARS,
WISCONSIN STATE PRISON,
CONSECUTIVE TO COUNT 4

42a
Ct. 8 – First Degree Sexual Assault – 30 YEARS,
WISCONSIN STATE PRISON,
CONSECUTIVE TO COUNT 6
Ct. 9 – First Degree Sexual Assault – 30 YEARS,
WISCONSIN STATE PRISON,
CONSECUTIVE TO COUNT 8
APPEARANCES:
MIRIAM FALK, Assistant District
appearing on behalf of the State.

Attorney,

MARTIN LOVE, Attorney at Law, appearing on
behalf of the Defendant.
DEFENDANT present in Court.
Beth J. Fringer – Court Reporter

43a
Page 2
TRANSCRIPT OF PROCEEDINGS
CLERK: State of Wisconsin verses Rico Sanders.
Case No. F-954600. Appearances, please.
MS. FALK: The State is appearing by Assistant
D.A. Miriam Falk.
MR. LOVE: Martin Love for and with Mr. Sanders,
Your Honor.
THE COURT: Okay, we’re here for sentencing. The
court has in front of it a presentence report. Any
additions or corrections from the state?
MS. FALK: Well yes, Your Honor, there are just a
few things that I wanted to correct or note for the
record.
THE COURT: And there’s also a social study that’s
attached also, I should add.
MS. FALK: Your Honor, there are a number of
references in the presentence report that are different
than information that I have. On page 4, underneath
“Academic and Vocational Skills,” it indicates that the
defendant is saying he was LD classes because, quote,
“They said I was slow functioning.” I would refer the
court, however, to the 2/9/96 report that is attached to
the presentence report. It’s one of the, let me see
where I have this here. Tell you exactly what it is. I
think it’s one of the competency things. Yes, it’s the
Page 3
report that was submitted to Diane Sykes on—dated
February 9th of 1996.
That was authored by
Dr. Palermo, and in getting the history at that time,
Mr. Sanders—

44a
MR. LOVE: What was, I’m sorry, counsel, what was
the date there?
MS. FALK: February 9th of 1996, it’s right on the
first page where Mr.—Dr. Palermo is talking about
the relevant history, the defendant told him that he
had attended Park Manor School in Chicago up to the
eighth grade in regular classes. And that he was
kicked out “because someone was going to kill me.”
That part, that last sentence is consistent with what
the defendant is saying.
I would also note for the record that in the public
defender prepared social study that is the last
document that is attached, at page, the third page
under the “Education” section, again it indicates that
Mr. Sanders is considered to be in the ninth grade, the
last school that he attended was Park Manor
Grammar School and that he has always been in
regular classes. In fact it goes on to indicate that
according to the principal of that school, Rico’s mother
did not want her son screened for any kind of special
classes.
So there is a dispute in the documentation itself as
to what exactly it is that Mr. Sanders was
Page 4
doing when he was in school. I would suggest to the
court that he was in regular classes based on the
plethora of information that we got before this
particular presentence was prepared.
The rest of the—the differences, Your Honor, I will
simply just raise by referring the court to various
documents in the course of my arguments. They’re
just things that people are saying now that are
different than what people had said in other places

45a
and to other people, and I will simply refer the court
to those other contradictions, but I felt that the
educational level, since it is one of the specific things
that the court needs to consider related to the
character and rehabilitative needs of the defendant,
should be pointed out to the court in advance.
THE COURT:
Counsel?
corrections or comment—

Any additions or

MR. LOVE: Yes, Your Honor. Just to comment on
that point, unfortunately the references that are—are
made here are made to third parties and they’re
hearsay representations as to Mr. Sanders’
background. Fortunately on that point, and I really
can’t personally illuminate it, his family is here.
There—his mother is here. I—I just asked Rico if in
fact he did take special classes. He told me he did. His
mother’s here,
Page 5
she can indicate whether or not Rico took special
classes, and even if that is not the case, the record is
replete with documentation of the special needs of Rico,
and—and that there is a special—there is a
circumstance of—of if not retardation, that the
impression has been—has been shared by many of the
people who have talked to Rico and who have
investigated this background, that he has some sort of
disability in that area. So that’s my comment on that.
If Miss—if Mrs. Sanders wants to, if his mother wants
to make a statement and I know that she’s—she’s—
she’s concerned about that, she’s nervous and
apprehensive, but I—we can find out from their point
of view whether or not he had those special training.

46a
Now with respect to various I think scrivener errors
in the—in the presentence, on page 3, paragraph 1,
and it’s just a typo, paragraph 1, line 12, we believe
27th Street should be 47th Street as I think it refers
to the location of a—of an act, of an incident.
On page 6, there’s a reference to Rico’s chronological
place in the family. Rico is the youngest of the children,
and the—his brother Charles is between, occurs
between Jackie and Jill.
On page 7, Paragraph 4, it should be clear
Page 6
that it’s Rico’s father who passed away. His father
died. And Rodney was the brother who was a profound
influence and to whom Rico looked up to and lived with
Rodney and his mother. Rodney was killed, was
murdered. Paragraph 5. “Brother,” I’ve got a—a
reference to and I believe that’s the next paragraph on
page 7—
MS. FALK. Right, it’s the last sentence there of the
word “offender,” should be “brother,” the second last
time it says—
MR. LOVE: Yeah, the “brother” does not believe.
Now those are the only corrections that we have,
Judge, and as a threshold matter, if—if I may, maybe
I—I have—I request to make of the court with regard
to the process of sentencing, it’s—if I could speak to it
now, I’d be happy to. If the court wants—
THE COURT: Just ask her and just report back to
me what she says. You want to go ask her?
MR. LOVE: Oh, okay.
learning disability classes.
THE COURT: Okay.

She says yes.

He took

47a
MR. LOVE: The other thing is, Judge, was the
manner in which this proceeding would take place. I
advised the court at the suggestion of—of counsel,
Mrs. Falk, that I—I wanted to have this matter
adjourned and I had spoken to Miss—Mrs. Falk about
Page 7
that and we discussed that, the propriety of doing that.
She indicated to me that there were several reasons
why she would object, and I don’t mean to speak for
her, but I understood that—
THE COURT:
closer to you?

Could you move the microphone

MR. LOVE: Sure. Is that better, Judge?
THE COURT: Yes, thank you.
MR. LOVE: I understood that Mrs. Falk anticipates
taking some leave and that this is a copious file, and
she didn’t want to be really putting that responsibility
in somebody else’s hand who weren’t adequately—who
wasn’t adequately prepared, and that she wanted
closure for the victims in this case. That they have
been living with this for a considerable period of time,
and that whatever opportunity they had to make their
positions known to the court would be consummated
and they could go about repairing their lives as best
they could, this would be behind them. And I don’t
disagree with those reasons, Judge, I think they’re
valid.
On the other hand, my request for the adjournment
was based on the needs of my client as I perceive them.
The court has a view of his history. You know,
there’s—there’s substantial—there’s

48a
Page 8
substantial data that gives you background on Rico,
and so much so that some of it’s been attached to the
presentence report. It’s his wish that family members,
even though he has some support here, there’s some
particular family members to whom he’s very attached,
would have the opportunity to be here. One is an aunt
from Tennessee, his mother’s sister, who—to whom he
has very close ties and is not able to come here today.
I would like some time to consider an element of—
of qualifying a principle that I want to enunciate to the
court in the course of my argument or my—my—my
statement to the court in his behalf. Recently we—the
court will recall that this was an Alford plea. And the
Alford—the aspect of it really centered on the sexual
assaults. The court will also recall that when we
presented that plea, that Mrs. Falk told you on that
issue where we had centered on—on DNA testing
and—and blood typing with respect to certain
specimens that were drawn, and that some of them
didn’t compare to Rico. She told you that yes, there
was a—there were incidents with some of these
victims where they had recently had sex—sexual
intercourse with—other people, people that they were
involved with, and that was an explanation for these
disparities.
Rico had taken the position that although he
Page 9
was present at each of these homes when the
burglaries occurred, that there was another actor, that
actor was named, and that it was he who had
conducted these assaults. The—it’s come to my
attention—and I don’t know if there’s any

49a
confirmation of this—but yesterday in this community
there were reported assaults of this type wherein the
actor apparently followed the same method that’s
attributed to the defendant in this case. Those are
post—those are—as far as I can tell, those are—those
are post-conviction issues.
But I would like and I would suggest to the court
that we bifurcate this proceeding today. We allow the
state to make its statement. We allow the victims if
they wish to make theirs. We allow for closure for
them, and we put this matter off for just a couple
weeks. See if I can get the brother, if I can get—and
I’m just talking about our part of it. That will relieve
Mrs. Falk of her anxiety, that will permit closure for
the victims, and certainly the disposition that the
court levels here will be communicated to the victims
anyway. So I don’t see that as—
THE COURT: The reason you want it adjourned is
again for what reason?
MR. LOVE: Well, there are members of the family—
Page 10
THE COURT: Okay, the aunt from Tennessee.
MR. LOVE: Yeah.
THE COURT: And who else?
MR. LOVE: Yeah. There’s a brother, too, who’s—
who’s presently involved in Chicago, can’t get out of
the—can’t get out of the community in Chicago right
now, but we hope that he’ll be out and available for us
within a few—within a week or so.
THE COURT: Is this the one who’s interviewed in
the presentence?
MR. LOVE: No.

50a
THE COURT: Another brother.
MR. LOVE: Yeah. And I want the opportunity to
try to present to the court some information that think
is important that I haven’t been able to get yet. And
it—it’s technical information and that’s all.
THE COURT: What information?
MR. LOVE: Well. I want to deal with—tell the
court—I want to deal with some of the issues of
Mr. Sanders’ drug experience, and I haven’t had an
opportunity to—to determine that.
THE COURT: Well I think it’s something you can
argue to the court. I’m not going to adjourn a case just
to get an aunt from Tennessee here and his brother. If
it was so important to his brother, he should have
Page 11
made arrangements to be here. I adjourned this from
last week on my own motion, and they at least had a
week’s warning and some relatives could make it, and
who knows if the brother or aunt could even make the
next date because I wouldn’t put this over for a long
period of time, he’s sitting in the County Jail which we
all know is overcrowded, and I don’t think it’s fair to
him or fair to the system or fair to the state, and the
court is going to deny your motion. Anything else as
to additions or corrections to the presentence?
MR. LOVE: Not by the defense, no.
THE COURT: State’s recommendation.
MS. FALK: Your Honor, this was a negotiated plea,
and I will restate those conditions for the record so the
court has them. Mr. Sanders entered pleas to the
following counts. Count 1, which is first degree
assault, the victim was Yolanda Washington. Count 3,

51a
armed robbery with the use of force. The victim was
also Yolanda Washington. Count 4, second degree
sexual assault, the victim in that case was Tracy
Robinson. Count 6, first degree sexual assault, the
victim in that case was a juvenile named Yvonne
Redmond. Count 8, first degree sexual assault, penis
to mouth, the victim in that case was Poincianna
Sprewell. Ana count 9, first degree sexual assault,
penis to vagina, the victim
Page 12
in that case was also Poincianna Sprewell.
The state moved to dismiss and read in count 2,
which was an armed burglary, the victim was Miss
Washington. Count 5, which was an aggravated
burglary. The victim in that case was Miss Robinson.
Count 7, which was another aggravated burglary, the
victim was Miss Redmond, and count 10, which was
an armed burglary. The victim in that case was
Poincianna Sprewell.
To the plea that was entered by Mr. Sanders, the
state was requesting a presentence and was
recommending at the option that was chosen by
Mr. Sanders that he be incarcerated for a period of 50
to 70 years on the sexual assault charges, and that
with respect to the armed robbery charge, that
Mr. Sanders be sentenced and that that sentence in
prison be stayed and that he receive a lengthy
consecutive period of probation on the armed robbery
charge. The robbery charge, Your Honor, was the
count 2 that he pled to—I’m sorry, count 3. I have
provided to the court the—
THE COURT: Wait. So it’s count 1, 3, 4, 6, 8 and 9?
MS. FALK: Yes.

52a
THE COURT: And you’re recommending 50 to 70
years total—
MS. FALK: Fifty to 70 years total.
Page 13
THE COURT: —on all the sexual assaults with an
imposed and stayed sentence on the armed robbery,
consecutive.
MS. FALK: Yes, and consecutive lengthy probation
on that charge.
THE COURT: Is that your understanding, counsel?
MR. LOVE:
I
understand
recommendation, Your Honor, yes.

that’s

their

THE COURT: And you’re free to argue for less.
MR. LOVE: I am.
THE COURT: Okay. State’s recommendation.
MS. FALK: Your Honor, I did give to the court
today the victim impact statement that had been filled
out by Miss Washington at the time that this was first
being considered in juvenile court, and I will just
highlight some of the things from that, and then I also
have notations that were made by the victims when
this case was first issued related to the impact that
this was having on them. I do this since the
presentence writer apparently did not have any
personal contact with these victims like I have had.
Miss Washington indicated that this has had a
tremendous result on her. She describes that she gets
an upset stomach thinking about it. She doesn’t sleep
Page 14
well. She tosses and turns. She sees a counselor even
though it’s very hard for her to talk about what it is

53a
that happened to her. She considered moving out of
her apartment but could not afford to do so because
she couldn’t afford—couldn’t financially afford to do it.
She says that this crime has had an effect on her
everyday life by causing her to be always fearful for
her life and her children’s lives. She doesn’t like to go
outside much anymore. She says that now she gets
sick a lot and is easily stressed She said that
knowing—because
after
she
was
assaulted
Mr. Sanders was out on the street for quite a number
of months, knowing that he was still out on the streets
gave her a huge sense of insecurity. They’re fearful
now of even doing simple things like leaving their
windows up in the heat of the summer, leaving lights
off, and they react to every unrecognized sound that
they hear.
Her friends and her relatives are outraged by this,
and I remember talking with her about how difficult it
was, even though she understood that they were very
angry for her, to talk about this with them because it
was such a disgusting and embarrassing thing for her
to have experienced.
Those kinds of sentiments were also expressed by
Miss Robinson. She spent a great deal of time
Page 15
actually living somewhere else because of what had
happened. She was able to move in with somebody
else for a short period of time. She told the victim
advocate that she was very traumatized and that the
most difficult times are between 8 o’clock in the
evening and midnight. That is when she is the most
frightened because that is when she was assaulted.
She says that it will take her a long time to recover

54a
from this, and that she was also going to be seeking
counseling, which she did.
Miss Sprewell indicated that she stayed at a
girlfriend’s home since this offense had occurred for
quite a long time, and after she had gone to the
hospital, although when she left she felt okay, by the
time she got home she began what she described as the
beginning of three very difficult days following this
assault, and that she felt almost suicidal, that she
didn’t really quite know how to cope with what had
happened to her.
Miss Robinson, Miss Washington and Miss Sprewell
also had the additional burden of having children with
them at the time that the assaults had happened, and
all three of those women indicated to me that they felt
that they needed to be strong for their children, and a
lot of their decisions and what happened
Page 16
reflected the fact that they were very concerned about
their children both during the course of the assault
and afterward, that their children not be traumatized
just because the moms were traumatized by this. And
I will talk about each of the—of the cases specifically
since this court has not had the opportunity to hear all
the facts because Mr. Sanders took advantage of the
fact that there were children in the rooms when he was
making his threats to gain compliance to what he was
asking them to do.
With respect to Miss Washington who was the first
victim, this occurred in May of 1995, so we are almost
two years now from the time that this happened. She
was at home and she was in her bed when she was
awakened because somebody was inside of her

55a
bedroom. Mr. Sanders put the covers over her face
and she was finding it very difficult to breathe because
he was pressing down. He then whispered to her, she
described it as a menacing whisper, “Give me those
rings, take them off.” She was saying she couldn’t
breathe and she was struggling with him, and that he
told her if you don’t cooperate, I’m going to shoot you.
He also repeated throughout the course of his crime
with her, “Don’t look at me, don’t look at me, don’t
look ’cause I’m going to hurt you.” He was trying to
remove the
Page 17
rings that were on her hand and he was unable to do
so, so he ordered her to take them off.
She was then feeling that he was straddling over her
and telling her not to move. And he asked her whether
she had any more property, and she was directing him
to different places in the room. He told her to keep her
face covered, and he then removed the covers and put
a pillow on to her face and she had to struggle again
because it was very hard to breathe, and he continued
to repeat to her, “Don’t look at me.”
Now this—this aspect of the crime, the fact that he
was essentially smothering these women during the
course of what was happening, also served to help
conceal his identity from them, and even though these
weren’t charged as concealing identity, clearly this is
an aspect of the crime that the court needs to consider.
He twisted Miss Washington around and told her,
“I’m going to hurt you. You don’t want me to shoot you,
do you.” And as he was saying this, she was feeling
small areas of pressure, he would move some object
that was cold and hard on different points on her head

56a
and was telling her to just be still. She said that she
continued to struggle and to wiggle as he was doing
this because she was having such a hard time
breathing.
Page 18
He then told her to open your legs, asked her if she
was a virgin, and asked her when was the last time
that she had sex. He pulled up her shirt, revealing her
breasts, took off the lower part of her clothing that she
was wearing. She said that she was not only
struggling at this point but was crying and very afraid,
and she was afraid for her life. He then had an act of
penis to vagina intercourse with her that lasted, she
said, a very short period of time, probably three
minutes, and that he was also fondling her breasts
while he was doing this.
After he was finished, he then asked her whether
she had any more jewelry around and whether she had
money. He asked whether she had got a gun, and he
told her in her—with respect to her responses that she
was telling him no, she didn’t, that she better not be
lying because if he found something, and he left that
threat dangling.
She could hear him opening her drawers, and then
he turned to her and he asked her if she was scared.
And she said yes, that she was. And she says that he
kind of chuckled at that. He continued to rummage
around the room, and then he started asking her
questions about her children, which she found very
frightening because she knew at that point that he
knew

57a
Page 19
that she had children and that they were asleep in the
house.
Mr. Sanders’ activities in Miss Washington’s house
were interrupted by the return of Miss Washington’s
boyfriend. Mr. Washington (sic) had to make a very
quick exit out of the bedroom window, and it was
during this time when he was struggling with the
window to get out that she was able to see him quite
well because the light was shining in from the street
on the window, They called 911 right away and
ultimately they were able to locate the rings that he
had stolen.
He told the police that he had given them to a person
named Ann, and they located this person named Ann
who in fact had the rings of Miss Washington, she
identified them, and Ann identified Mr. Sanders
whom she knew very well because he pawned quite a
few things to her in the past, and she knew who he was
and had agreed to buy these because Mr. Sanders
assured her that they were not his mother’s property.
Mr. Sanders made a statement—and I’ll give a copy
of Mr. Sanders’ statement to the court so that the court
can follow along if it wants to—about this. At the time
that he was arrested. Now I’m offering this to the
court because Mr. Sanders is now arguing that he did
not do the sexual assaults, that it was somebody else.
Page 20
The court will note that this is a very lengthy and
detailed statement that he made to Detective Rozinski,
and that throughout this entire statement he never
mentions any other co-actor, he never mentions a
person named Reginald Hart, and it is my belief based

58a
on all the facts in this case that I will give you that
Mr. Sanders is making this up now because he doesn’t
want to admit to the worst of the things that happened.
What he did say about the case involving Miss
Washington is that he entered the building through
the back door that was unlocked. As he proceeded
through the house, he saw a baby on a couch and then
went to a bedroom and saw the lady on the bed. When
he saw her, he felt like doing something. He covered
her mouth with his hand and told her to take her
clothes off. He then forced sex on her. He went
through the dresser drawers. From on top of the
dresser from a heart-shaped bowl he took two rings.
He heard someone coming, opened the bedroom
window, and went out. Those are the facts that Miss
Washington would also indicate.
I specifically asked her what kinds of things she
kept her jewelry in and she described, among other
things, the heart-shaped bowl which he would have
not have been able to know if he hadn’t been in the
bedroom. Which makes it absolutely incredible that
some other
Page 21
person could have been raping this woman while he
stood there and went through the heart-shaped bowl
without knowing it. He also wouldn’t have known
what he did in the room either, and I doubt that he
would have admitted that he felt like doing something
when he saw her on the bed if that in fact had not been
the case.
The next victim was Miss Robinson. Miss Robinson
was laying in the living room with her children at the
time that Mr. Sanders entered her home. He grabbed

59a
a pillow and put it on her face and told her, “Don’t look
at me, I don’t want you to see my face. I want you to
tell me where the money is at, bitch.” She told him she
didn’t have any because she had not gotten her check,
and then he told her well, then you’re going to have to
give me some pussy.
At this point the baby who was on the same couch
with Miss Robinson started to cry, and Miss Robinson
started to struggle with Mr. Sanders. They even at
one point were actually standing up, and at this point
when she was face-to-face with Mr. Sanders she saw
him quite clearly.
She said that he forced her back on to the couch
which is again where this baby was, and this child
grabbed on to Mr. Sanders’ shoulders, apparently in
this pathetic attempt to fight off this attacker of his
Page 22
mother. He pushed the baby back and the baby fell
back on to the couch, and he said to Miss Robinson,
“I’ll kill the baby if it’s not quiet. I’ll kill the little
fucker if you don’t do what I tell you.” He had
something in his hand but she couldn’t see what it was,
and he put it on the floor. He then pushed the pillow
back on to her face very hard and was telling her to lay
down and then the baby would lay down, too. “Just lay
still and I won’t have to hurt you.” Miss Robinson says
that she was absolutely terrified for her life and for her
child’s life.
Mr. Sanders then got on top of Miss Robinson and
had an act of penis to vagina intercourse while he kept
this pillow on her face. As he was getting up, she could
hear him rummaging around the room. She heard him
near the television set. She could hear him opening up

60a
her purse. She didn’t know what he was taking at that
point, and then he announced to her he was going out
the front door.
When she got up and locked the front door, she saw
that he had taken all of her food stamps which she
would have used to feed her family and the $12 in cash
that she had as well. As in the case of Miss
Washington, Miss Robinson noticed that apparently
Mr. Sanders had been throughout portions of her
house
Page 23
because the lights that they had left on were now
turned off.
Mr. Sanders talked about this incident as well, and
he said that he got into Miss Robinson’s house through
an already open back window. He went and he looked
around and he saw the woman on the couch with a
baby. He saw some food stamps on top of the TV and
he took them. His stuff got hard and he wanted some.
He went to her and put his hand over her mouth. He
asked her if she had any money, and she said she had
some food stamps. She had a nightgown and panties
on. He got on top of her and forced sex on her, and
then he left out the front door. He had to unlock the
front door in order to get out. Again, it is just not
credible to believe that Mr. Sanders was not the
person who committed this sexual assault as well.
The third victim was a child. This child was living
in a foster home because her life has already been
somewhat bad at that point. Miss Redmond, who I
met recently, is doing better now than she had been at
the time that this was happening only because I think
she is a very remarkable person. She was awakened

61a
because there was a fan, a window fan in her room that
fell on to her arm. It fell because Mr. Sanders was
crawling in through that window. He then placed a
Page 24
pillow on her head and forced her back down on the
bed. She had sat up at this point because she—
somebody was climbing into the window and she was
screaming. He said to her, “Shut up, or I’ll blow your
head off.” He finished climbing in through the window
as he was saying this and continued to hold this pillow
over her head. He told her, “If you scream or make any
noise, I’ll blow your head off,” and just like Miss
Washington, she could feel something cold and hard
pressed against the side of her head. He forced an act
of penis to vagina sexual intercourse with this 14-yearold girl and asked her if she had any money, to which
she responded no, and taking advantage of this child’s
age, and it’s very interesting to me that Mr. Sanders
used the particular threats he did with the particular
victims because I think that it evidences some pretty
sophisticated criminal thinking on his part. To this
child victim he told her, “If you tell, I’ll blow up the
house.” It was very interesting because he did not
make any kind of statement about telling or anything
like that with any of the adult victims, he only chose
to do that with this child victim. He then climbed out
of the window and she ran out of the room screaming.
Mr. Sanders remembered this incident as well. He
said he went to the side of this house and pushed the
Page 25
fan in and climbed into the window. He told Detective
Rozinski that at first he didn’t see her, but then he
came back to her room after going through the house

62a
and saw—she saw him and started to yell, so he
covered her face with a pillow. He got on top of her
and he forced sex, and after the sex he then went out
window that he had entered. He even remembered the
shoes that he was wearing when he committed that
particular assault, and I suspect that the officer was
asking him because there was a—a footprint with an
Adidas tennis shoe that had been left outside the
window.
The last victim, Miss Sprewell, had had a baby a few
weeks before the sexual assault had occurred and she
was sleeping in her bedroom with her two children,
one of whom was this infant, when she was awakened
by the defendant who was armed with some sort of a
dark handgun, although she did not get a very good
look at it. She was awakened because he told her,
“Bitch, if you scream, I’ll kill you.” And as he was
saying this to her, she was feeling this gun next to her
right temple. He then shoved a green silk shirt into
her mouth and held it over her mouth and pushed it
down her throat so that she could not scream. He told
her to get down on her knees. There was a small
mattress that was
Page 26
on the floor next to the bed, and that’s what she knelt
down on.
He then asked her what valuable things she had
and she told him to take the TV. She also told him
that all the money she had was in the top drawer.
Mr. Sanders said, “Well, I have to have something.
I’ve got to have some pussy.” Miss Sprewell begged
with him. She said don’t you see my kids, don’t you
see my newborn. And he said well then you’ve got to

63a
suck my dick. She didn’t want to do that. She was
telling him no, and he said then I’ll kill you.
He then pushed her head on to his penis saying
make me—I’m sorry, she said making me suck and
deep throat—and that he was pushing her so far down
into her throat that she gagged. She begged him
please don’t do this, you’re making me gag, and he got
very angry with her and he told her, “I got to have me
some pussy then.” He forced her to lay down, pulled
off her underpants and threw them on the floor, and
then had an act of penis to vagina intercourse with her.
During this time he had laid the gun that he had in
his hand down on the floor next to him, and once he
was finished with the sex act, he began to feel under
the mattress looking for something. She suspected it
was money. He then said to her, “Well, I guess I’ve got
Page 27
to kill you.” He continued to ask her questions like
what have you got, do you got money, do you got a
pager, and she again repeated to him that she had
some money in the top drawer. He continued to tell
her that he was going to kill her and ask her whether
she was going to call the police. And she says that she
was so very afraid because she believed that he would.
Mr. Sanders said of this particular assault that he
had seen the lights on at the back part of the house
and thought there was no one home. He tried to open
up some windows and found one that had a wooden
screen part way pushed out. Mr. Sanders had to work
very hard to get into Miss Sprewell’s apartment
because the—the police found that virtually every
window on the house had been pried or tampered with
before Mr. Sanders was eventually able to make his

64a
way in. He used an orange milk crate to get in which
he told the officers about, and in fact there was an
orange milk crate that was underneath the window
that was ultimately opened by Mr. Sanders.
He went in to a bedroom, went through that room,
looked around the rest of the house and then he went
into a room that had lot of toys in it but he didn’t see
anything that he wanted to take. He then went into a
bedroom. This is perhaps the most chilling
Page 28
statement that he makes here. And he saw a woman
on the bed sleeping. She was wearing a silk nightgown
and he could see her pubic hair. She had two children
in bed with her. He shook her and asked her if she had
anything worth money. She was going to yell, so he
put a green shirt into her mouth. He—she told him to
take the TV and was struggling with her. He then told
her that he would shoot her. She asked him not to hurt
her baby. There was a small mattress on the floor and
he told her to get on it. He did not want to wake the
baby. He told her he wanted to have sex with her, and
she told him that she could not have sex because she
had just had a baby. She then did oral sex on him.
She was not doing it right and he pulled out of her. He
then got on top of her and forced sex. She told him she
had seven dollars. He asked her where, and she then
described that—where it was. He left out the window,
and he referred to “sex,” what he means by sex as penis
to vagina intercourse.
Mr. Sanders was caught because he was becoming
more careless. He had left his fingerprints on the
inside and outside of the windows at Miss Sprewell’s
house, and he had left his fingerprints on windows

65a
that were just down the street from her when he
attempted to commit two burglaries that were two
days before this
Page 29
particular sexual assault.
Mr. Sanders was positively identified as an
individual who attempted to get into the home of a
woman named Katherine Wright who described to the
victim advocates that she just felt very lucky knowing
what else he had done that she was not victimized by
him in the way that these other women had.
Mr. Sanders apparently abandoned that burglary
when he was unable to get in, and went next door and
he was able to get in there. Again, not only leaving his
screwdriver behind, but also leaving his fingerprints
behind, and so the police were able to match up his
fingerprints with those of this particular burglary.
The victims, some of them were able to also
positively identify Mr. Sanders, and of course Mr.
Sanders agreed that he was in fact the culprit in all of
these crimes.
I don’t think that I need to point out to the court in
great detail that these are horrific crimes. These were
planned, premeditated crimes that are the worst kind
of crimes people can commit short of homicide. They
are the kind of crimes that will visit these women over
and over again throughout their lives. Everybody
would like to feel safe inside of their own home, and
Mr. Sanders repeatedly and routinely for him
Page 30
terrorized people inside the sanctity of their own home
and used against them the kinds of things that

66a
normally bring joy to a person’s life, like the lives of
their children. I will be surprised if these women ever
completely recover from this because in my experience
and in the studying that I have done, this is the kind
of crime that stays with you pretty much forever.
The things that Miss Washington and Miss
Sprewell and Miss Robinson described as to how they
felt during and after these assaults are very typical
and classic kinds of reactions. The security that you
felt in your own home is completely robbed from you,
and you are vulnerable forever with those feelings that
you are never completely safe anywhere.
You also have to deal with the fact that you were
violated in a humiliating way. It is very clear here
that Mr. Sanders made a quick decision in each
occasion to sexually assault these women, and the way
that he describes it is so frightening because to them
he was—to him, they were merely receptacles for his
need that apparently arose in a flash. He victimized a
juvenile as part—as one of his victims here, and he did
these horrible crimes in front of the children of these
other women.
Mr. Sanders started out each of these cases
Page 31
what he claims as a burglary, that he was planning
specifically to do these kinds of crimes around the 1st
of the month because he knew that people got their
checks then, and he was trying to support his drug
habit. So he needed to get money.
That—this is ruthless.
He is just absolutely
ruthless, and he is the kind of person that people look
at and would describe very accurately as a predator.
He’s the kind of person from whom the community has

67a
a great fear. There is absolutely no empathy for the
victims that is described in his statement that the
court has in front of it, and there is no empathy for the
victims that appears in his presentence investigation
either.
Now he is hiding behind this Alford plea and this
foolish story that somebody else did it, which makes
him a continued gigantic risk in this community in
terms of his character and his rehabilitative needs.
Now Mr. Sanders has what can only fairly be
described as a pretty bleak life. He has experienced
much violence in his own life, both at the hands of his
father and also because of what he has seen within his
family in terms of his brother being killed. The reason
that he came here to Milwaukee was supposedly to
escape the violence of Chicago. He had gotten involved
with
Page 32
people and now his life was at risk. That’s why he had
to leave that school at this young age of 14 so that he
could come up here and perhaps live out a better life.
But when Mr. Jennings was talking with the police,
he said that—he confirmed that that was in fact the
reason or one of the reasons that he had moved here.
He said that Rico moved here in January of 1995. Well
as the court can see, it took him less than five months
to get hooked up with the bad kinds of activities that
he was hooked up with in Chicago, and he was
committing heinous, heinous crimes.
The court should know that I did contact the city of
Chicago department that is responsible for this report
that was generated regarding all of these 1994 and
1995 contacts that he has with their juvenile justice

68a
system. Every single one of those is in a bench
warrant status. These are not convictions, only
because Mr. Sanders has never appeared in court with
respect to being held accountable. These were not
dismissed, they are all still open cases in the city of
Chicago. And as the court can see, his behaviors there
were already related to a lot of the same kinds of
behavior that he was doing up here within the few
short months that he was here. He was using drugs,
he was stealing things, he was going into houses and
places where he had no
Page 33
business going, and he was even dealing drugs. All of
those things are very serious for a person as young as
Mr. Sanders, and I find it disingenuous to believe that
he had any intention of changing his ways.
Mr. Jennings also indicated that he kicked
Mr. Sanders out when he was talking with the police.
Because Mr. Sanders was hanging out with bad guys,
that he was hanging out with gang members in this
first five months when he was here. Now I understand
that Mr. Jennings has a good deal of feeling for his
brother, and that’s quite obvious. I think it takes a lot
to—to bring a teenager into your house with the
expectation that you’re going to be the supervisor,
you’re going to be the person who is going to be
responsible for a kid who’s pretty much of a handful.
I think that Mr. Jennings’ statements to the police
when he was talking with them as they were looking
for Mr. Sanders in August of 19—or September of 1995
are—are interestingly different from the statements
that he makes now. The family members in their
statements to, even—even to the reporters that are

69a
contained in the back of this report are very different
from the picture that they’re trying to paint of
Mr. Sanders now. They do say that he was a very
confused kid, and they attribute that to the problems
Page 34
that he had with his brother being killed and with the
issues related to his father.
I would take issue with the characterization,
however, that he’s close to his mother. The woman
who was living with Mr. Jennings, I don’t know if she
still is or not, says they didn’t even know how to get in
touch with Miss Sanders once Rico get—excuse me,
began living here. And that he was staying with them
because the mom had her own drug and alcohol
problems to deal with. Mr. Sanders made comments
to people at Children’s Court that he actually kind of
enjoyed living with his mom because when she would
become drunk or high, then he could steal money from
her more easily. So that’s really a rather callous
attitude that he takes, and it belies the statement that
he—he’s so close to his mom or that his mom is able to
really control him.
Miss Bush (sic) also indicated that during the time
period that Mr. Sanders was living with them, she was
unsure of when he would come and go, so it appears
that Mr. Sanders was sort of doing what he wanted to
do no matter where it is that he lived.
He—he did hang around with the gang members
that were called Gangster Disciples. There are some
other references in the juvenile records also to his

70a
Page 35
gang affiliations, and I would agree with the agent’s
assessment here as well that when we look at all the
different documents that we have regarding
Mr. Sanders, he does show very little emotion or affect
about any of these things that he has done. He even
denies sexually assaulting these people, and it’s
frightening that a person of Mr. Sanders’ age could be
so cold. What that indicates to me is that it will be
very unlikely that he will positively respond to
treatment. We can hope that he will.
He also has what can only be described as a very
substantial drug and alcohol problem. This young
man is heavily involved not only into using but in
selling so that he can support his own habit, and in
addition to doing that he has chosen this very criminal
lifestyle and this—criminal people when he has had
other options.
His brother strikes me as a person who was very
interested in helping his little brother out. His brother
seems to be a more stable person, has a job, has—has
opened or had opened his home to his little brother,
and what he got in return was Mr. Sanders abusing
that privilege and instead roaming the streets,
climbing into people’s homes at night, stealing things
from them and using drugs.
Page 36
THE COURT: I’d ask you to please summarize.
MS. FALK: Uh-huh. Finally there are the interests
of the community in protection and punishment. This
is—this is the kind of crime that people are just
completely outraged about, and these are the people
that the community is very scared of. Mr. Sanders

71a
represents the face of—of what everybody would
consider to be a menace to this community.
Mr. Sanders’ treatment needs are huge, and his
motivation, his insight into this seem to be very
minimal. One of the things that I would want to
remind the court of is that Mr. Sanders, I believe,
based on everything that we have about Mr. Sanders
including his behavior over the course of all these
various competency hearings, is actually a very clever
person who plays the game really well.
Mr. Sanders successfully escaped from Children’s
Court when he was there on these charges.
Mr. Sanders, I believe, played a game with the courts
about his competency issues. The court can see that
while he was trying to persuade people that he was a
very stupid individual who could do just about nothing,
didn’t really know what his game was or what his age
was or money or anything like that, when in the living
circumstances where apparently he was unaware that
he
Page 37
was being very carefully watched was exactly the
opposite of that.
Mr. Sanders is a dangerous person because of that.
He is willing to manipulate and to change and to play
these kinds of games for his own ends. I consider his
statements now that there was this other person, this
other actor as part of this, to be again an effort on his
part to try to deflect the attention for the really bad
things from him where the attention belongs to
somebody else. All of those things indicate that
Mr. Sanders is a very dangerous man and he needs to
be incarcerated for a long period of time. That is why

72a
the state is recommending this range of 50 to 70 years.
Mr. Sanders has so many treatment needs and he is
such a dangerous person that the community deserves
to have the assurance that Mr. Sanders will not be
available as a menace to this community for a very
long period of time. This also will enable Mr. Sanders
within the prison system to obtain the help that he
very, very much needs.
I’m not even sure where they’re going to start with
Mr. Sanders. He has his substance abuse needs, he
has vocational needs. He has sex offender needs. He
has criminal thinking needs. Mr. Sanders has many,
many needs, and it will take a very long time to
address those needs.
Page 38
I also feel that due to his age, there is the need to
have extra protection for the community once he will
be paroled, and that will be in the form of a very
lengthy period of probation so that he can be very
closely supervised, and if he does not succeed in the
community, that there is a heavy hammer hanging
over his head such that he would go back to the state
of incarceration should he not follow through with the
demands of his parole and his probation officer. I
think that is the only way to protect this community
from somebody like Mr. Sanders and the only
assurance that we have that he will not offend in the
future.
THE COURT: Okay. Mr. Love.
MR. LOVE: Thank you, Your Honor. Judge, I’m
going to ask you to make certain assumptions. In this
case. Assume that the people who make reports and
submit them to you do not provide you with precise

73a
and consistently accurate information because that
information is filtered through their perceptions and
through their analysis, through their disciplines and
through their biases. I’ve seen that in this case.
Some of those things that were addressed by
Mrs. Falk I think are valid.
Some of the
representations that she makes to you I think are
accurate. I take exception to some of them as well.
Wasn’t too many
Page 39
months ago that this court had to sentence a young
man for murder, for an execution type murder, and
that young man went away for a long, long time. That
man that this court imposed that sentence on had a
background that was 180 degrees different than that
of Mr. Sanders. He had opportunity. He had support
and family. And he had personal resources that were
strong, and his performance in the community had up
until that time been almost exemplary, and this court
had to interpose a harsh and severe sentence.
While Mr. Sanders is accused and has pled to lesser
crimes in the scale of offenses that are promulgated in
this state, I agree with Mrs. Falk that they are
horrendous. The question I think is, I think simply
what is to be done to Mr. Sanders. Is this a knee jerk
reflex that we’re—we’re all engaging in here when we
have a young man with this history and these offenses.
Are we simply crossing the “T”s and dotting the “I”s
when we know that no matter what I say, no matter
what his family says, that in view of the facts of these
offenses, that there’s no hope for him, that he’s going
to be warehoused for the rest of his practical life, just

74a
on the basis of these offenses and facts. I would hope
not. I can’t tell you what my expectation is.
Page 40
I noted when I received this case, I am the third
lawyer in this case, Judge. That Mr. Sanders was
waived from juvenile or from Children’s Court. The
Mental Health Complex on June 7th, 1996, submitted
a report to Judge Sykes and listed date of birth for Rico
Sanders as November 10th, 1978. His family tells me
that that’s not his date of birth. His date of birth is
11/10/79. That meant that when he was waived, he
was waived on the assumption that he was 17-and-ahalf when he was 16-and-a-half. I don’t know and I
suspect that it doesn’t have any jurisdictional
significance with respect to the waiver. It may
factually in that had that been raised, the court would
have taken that into account in its determination for
waiver. That is a post-conviction issue. But I want
you to know that the young man that sits before you
today was 16 and a few months when these crimes
were committed—
MS. FALK: Excuse me, I hate to interrupt. I just
want the court to know we did get a certified copy of
his birth certificate before we did the waiver hearing
and I did have a copy of it, so the court was aware of
that at the time was November 10th, 1979.
THE COURT:
microphone closer.

Thank you, just move the

MR. LOVE: That’s information I did not have.
Page 41
THE COURT: Okay.
MR. LOVE: All right.

75a
THE COURT: Let’s move on, past that.
MR. LOVE: All right, Judge, I’ll move on. The point
is, Judge, for the majority of Rico Sanders’ life, he has
been assaulted by his environment. We live in
Milwaukee that is a microcosm of what’s going on in
Chicago. I don’t think anybody here in this courtroom
who has not lived in the ghetto has any idea, has any
idea of what Rico Sanders experienced as a child and
how that affects the person and how that has created
the person that sits next to me.
These victims of these cases experienced
horrendous events, horrendous.
But they were
isolated.
Rico Sanders had to live with an
environment like that continually. It wasn’t—they
weren’t isolated incidents. He bears the scars on his
head now of being beaten brutally near death when he
was a child. He was shot several times when he was a
child. And that was in his environment. That was in
his community. That was a day-by-day atmosphere
that he had to deal with.
If we’re to believe that his family had problems, that
they were dysfunctional, that was his environment. If
we’re to believe that in fact that he had disabilities,
mental disabilities, that was his
Page 42
environment. That’s the—the—the—the basic clay
that was presented to be molded in this environment.
It was flawed. It needed expensive and consistent
and—and—and in-depth attention. It was unrealistic
to ever expect something like that to happen for Rico.
He had made attachments in his family and they
were taken away from him. Now how does—how does
a young man and a boy, if you will, respond to the

76a
murder of his brother, the death of his father, being
attacked by his peers in his community, beaten and
shot, and then uprooted and coming to a community
where all he really knows is to survive, and he’s
reduced to a fairly low creature. He has been. To
disregard those factors is to turn a blind eye to reality.
Nothing that I’m trying to—I’m saying here in any
way is—is—is to suggest that there’s an excuse and an
enablement, a license, for Rico to act as it is claimed
that he has acted. I have seen the statements that are
attributed to Rico Sanders in the discovery material
provided me by the state. As it was recited to this
court, it is interspersed with other facts. These
statements were embellished by other data that the
district attorney had and incorporated into the
account of what happened. These statements were not
the written product of Rico Sanders. These are the
Page 43
statements that had been provided by the police
officers after his investigation or her investigation of
the facts in this case and her confron—their
confrontation of Rico in custody. Those issues about
the reliability of those statements are—gone for us at
this hearing. We can’t deal with those. Rico has
elected to enter his pleas.
One of the things that I’ve been primarily concerned
with, Judge, is the degree to which Rico I believe has
been affected by the drugs that he’s ingested. Taking
hallucinogen, LSD, which is an insidious drug, and as
I understand it can affect a person long after the initial
intake.
It’s not uncommon for people to have
flashbacks and disabilities and hallucinations far into
the future after using these drugs.

77a
If you take a look at the account given in this case
by the report of the Probation Department, Rico had,
and it’s acknowledged by the state, tremendous
substance abuse problems. I would submit to the court
that those—those problems—those needs were so
substantial that they affected Rico who committed
these crimes in the course of satisfying those needs.
Nobody disputes that.
What happened to these women, to these
Page 44
children, is unconscionable. If the only thing that we
can do here is warehouse Rico for the rest of his
practical natural life, then there’s very little hope for
this system in my view, and there’s very little meaning
to these sentencing procedures.
What I would ask the court to do here is to fashion
a sentence that will give Rico the chance to have some
of his life left when he gets out of—when he gets out of
an institution. I believe he has abilities.
I think that it’s impressive and significant that the
presentence writer when he encountered Rico in the
jail encountered a person he didn’t expect to meet.
Based on everything that that person had read, he
believed
that
Rico
would
be
withdrawn,
uncommunicative, perhaps act in bizarre fashion.
That wasn’t the case. And I can tell you that hasn’t
been my experience either. I think that Rico has
finally become clean. I think that Rico no longer is
disabled or affected by the drugs that he’s been taking.
I think that those drugs would affect him and I think
they phased. I think that there were times when he
was more affected than not. I think they were in his

78a
system and intermittently they would surface and
make things difficult for him.
Now notwithstanding those statements that are
Page 45
attributed to Rico, it is my understanding that there is
a history in this case that does reflect on another
individual. That that individual was named to the
prosecution by previous counsel, and that a request or
at least an inquiry was made as to whether or not
there was any interest in pursuing that. As I
understand it, the state was not interested and maybe
for good reason. I don’t know what the dynamics were
of that transaction, but I just—it’s my understanding,
at my late entry into this case, that that was some of
the history.
Nevertheless, Mr. Sanders is here to be sentenced.
He’s going to be gone for a long time no matter what
kind of sentence the court imposes. I’m just asking
that if this clay can be remolded, if there’s that
possibility that somebody imprint on it something
positive and that—that the man that comes out of this
prison is not the risk that we all fear, is not the same
person that we’re putting in, that that chance be given
to him.
I don’t know how long it will take for him to be
rehabilitated or that if he can be rehabilitated.
Sometimes just the passage of time provides for that.
I hope and pray that it will happen for Rico. He was
16 years old when these crimes happened. They are
terrible. But the man who is 30 will not be the boy
who

79a
Page 46
was 16 who committed these crimes, just by virtue of
the passage of time. If we can overlay that passage of
time with some positive treatment—I don’t know if it’s
realistic to expect that in the institution—but if it’s
there and Rico’s motivated to make use of it, then I
would hope that that could combine with his freedom.
I’m asking the court to consider some concurrency
in these sentences. I’m asking the court not to
warehouse him for 50 years. I’m asking the court for
a sentence that it must objectively fashion that will
give this person a chance to realize a positive and—
and hopefully a chance to—to be a rehabilitated or at
least a person who has—has paid his price and allow
him to do that with some life left for him. Something
positive, and something at least meaningful.
He has family here today who are deeply concerned,
but they live in the same—the mother lies in that
environment that—that war zone in Chicago. In
speaking to me, they can articulate their feelings and
their surprise. They don’t believe that Rico did these
things. They don’t want to believe that he did these
things. But they know the hard life that he’s had, they
know how he’s been impacted, they know he’ been near
death on two occasions, and they’re here in the hope
that there will be some mercy shown to their
Page 47
son and to their brother. And I think that can be done.
And I’m asking the court to do that without
diminishing the seriousness of these offenses, without
disregarding the needs and—and the impact of these
victims. I’m just asking the court to at least consider
the youth of this young man, his background, and the

80a
fact that whatever sentence that is imposed is an
opportunity for him, to give him that chance even
though we don’t know that the quality of—of
treatment and care is going to effectuate that, at least
give him that chance.
Now I have a letter that I’ve shown to counsel. It’s—
it’s a brief letter from a pastor in Chicago, the family
asked me to give that to you. I concluded my remarks.
It may be that members of the family would like to say
something on Mr. Sanders’ behalf. Anybody here
would like to say something for Rico? His mother
would. If that’s all right with the court.
THE COURT: Yeah, I’ll permit up to two members
of the family to make a statement. They’ll step
forward here. One at a time. Okay, I’ll limit it to two.
CLERK: Would you state your name, please.
MS. SANDERS: My name is Pearline Mahomes
Page 48
Sanders.
CLERK: Pearlie is spelled how?
MS. SANDERS: P-e-a-r-l-i-n-e.
CLERK: Okay.
MS. SANDERS: L-i-n-e. Mahomes spelled M-a-ho-m-e-s. Sanders is S-a-n-d-e-r-s.
CLERK: Thank you.
THE COURT: You’re the mother of the defendant?
MS. SANDERS: Yes, sir.
THE COURT: And what do you want to say
regarding his sentence?

81a
MS. SANDERS: It’s kind of hard for me to say
anything. Your Honor, I’ve had—I’ve lost one—one
son in death. And look like to me I’ll lose another one.
I don’t know whether you’re a parent or not, but this
have been really, really hard on me. I will make it very
short. Just want my child to have a second chance at
life because he didn’t have any kind of—he haven’t had
any kind of life. I didn’t get him the help he needed
when he lost his brother. His brother was a father
figure for him, and it’s just been a really bad, bad life
for my child. So I’m asking you to have mercy on him,
please. I just don’t want to lose another son. That’s
all I needed to say.
Page 49
THE COURT: Thank you.
MS. SANDERS: And if he did these crimes, I
apologize to the ladies that it happened to. I thank
you.
CLERK: Would you tell us your name, please.
MS. RHYMES: Good morning, Your Honor. My
name is Eloise Rhymes. E-l-o-i-s-e. R-h-y-m-e-s.
CLERK: Thank you.
THE COURT: How are you related to the defendant?
MS. RHYMES: I’m Rico’s aunt.
THE COURT: And what do you want to say on his
behalf.
MS. RHYMES: First of all, I would like to say that
I’m sorry to the families of the victims and to the
victims. I’ve known Rico all his life. There is no excuse
for any kind of crime. I know Rico has been into some
trouble, but never, none of the trouble that some of this
is I’ve heard, and I’ve heard quite a lot and read quite

82a
a lot. But Rico is a young man that has had problems,
and I know sentences must be imposed, and on behalf
of my family, we’re asking for a little mercy and little
leniency.
THE COURT: Thank you.
MS. RHYMES: And we are also asking that Rico
Page 50
get some counseling because he does need counseling.
And I truly hope that he did not commit most of these
acts. I’m sorry if he committed any, but some of these
acts I’m—I was just truly surprised to hear. And I
thank you, Your Honor.
THE COURT: Thank you very much. Mr. Sanders,
is there anything you want to say prior to sentencing?
DEFENDANT: Sorry for the victims. I apologize to
the victims. That’s about it.
THE COURT: Okay. Well for sentencing, I have to
consider the nature of these crimes, and I’ve been
assigned to the Homicide/Sexual Assault Unit on two
occasions, which means I’ve handled hundreds of
sexual assaults over the last three years, in the high
hundreds. So nothing should shock me nowadays, but
comparing these sexual assaults with others, these are
some of the most horrific and horrible sexual assaults
that I’ve seen, and I think maybe that word is
sometimes overused, “horrific,” but I’m not sitting here
seeing my fourth and fifth sexual assault sentencing.
I’m seeing, as I indicated, one of several hundred. So
I can compare each, and these sexual assaults are just
beyond belief.
The state has gone into detail as to each one. I’m
going to briefly summarize them because I have to

83a
Page 51
consider the nature of the offense. I will take in
consideration the specific facts as set forth by the state
and the specific facts set forth in the criminal
complaint including the defendant’s admission as to
count 1, the sexual assault of Yolanda Washington,
which was on May 1st, 1995. And as the state pointed
out, was shortly after he moved to Milwaukee and was
wanted on warrants in Chicago.
He broke into a home, and I’m going to consider
these are home invasions which I think is an
aggravating factor. Got jewelry, and the court will
consider the armed—burglaries and armed burglaries
that were dismissed and read in for sentencing
purposes, and the court will consider the burglaries
also only for sentencing purposes. Obviously he can’t
be sentenced on each count.
But as to Miss Washington, he threatened to kill her
by putting a gun to her head. You can imagine what
she thought at that point even prior to the sexual
assault, put a pillow on her face and forced her to have
sex.
On August 2nd as to Tracy Robinson, which is count
4, and I should add I have to consider that—going back
to Yolanda Washington, there is an armed burglary
which he is to be sentenced for. He threatened
Page 52
the imminent use of force against her and robbed her
of her valuables, and the state—specifically her
jewelry.
As to count 4, as to Tracy Robinson, as the
presentence said, he followed the same modus

84a
operandi with the above victim breaking into the home.
This was even—this one was even more aggravating
than the first one in the sense there was a baby there,
pushed the baby off and told the victim, keep the baby
quiet or he’d kill the baby. And then went along
with—and he also robbed the offender of $551 in food
stamps.
As to count 6, the first degree sexual assault of
Yvonne Redmond, that happened on August 2nd, 1995,
and she’s the one who state pointed out suddenly felt
a fan fall on top of her and she observed offender
coming through the window, another home invasion.
He put a pillow on the victim’s face as he did in the
first incident, threatened to kill her and blow up the
house. The defendant sexually assaulted her.
CLERK: Was that August 9th, Your Honor?
THE COURT: The presentence says August 2nd,
the criminal complaint says August 9th. Which date
is correct? I assume the criminal complaint.
MS. FALK: August 9th is the date.
THE COURT: Okay, the presentence then is
Page 53
wrong. It would be August 9th.
As to count 8, September 5th, 1995, sexual assault
of Miss Sprewell and again this is another home
invasion. 3:00 a.m. he had a gun—he put a gun to her
head and the victim screamed, he threatened to kill
her. He shoved her shirt in her mouth. The offender
ordered the victim to give him her valuables and
demanded to have sex. And again the state went into
details how she said she just had a baby, she couldn’t
have sex. He forced her to have oral sex. When that

85a
wasn’t satisfying, he proceeded to sexually assault her,
penis to vagina, which was count 9. So all these sexual
assaults were violent.
The armed burglary as to count 3 were violent
involving guns, some involving close to the head, two
involving threatening to kill young children. As I
indicated, compared to hundreds of others I’ve seen,
this is one of the worst if not the worst sexual assault
I’ve seen.
I also should—counsel brought up the fact that
defendant is a product of the inner city and has been
traumatized. The victims in this case were living, I
will say in the inner city. They weren’t suburbanites.
This happened at 50th and Center, almost in the same
area, every single one, an area where I grew
Page 54
up in. So this is someone who, violence begets violence,
he committed upon his fellow members of the inner
city.
As to the defendant’s prior record and character, as
we discussed, he was arrested in Illinois, Chicago.
Possession of stolen autos on January 5th, 1994.
Juvenile arrest warrant issued, JAW, which is still out.
April 15th, ’95, possession of controlled substance,
juvenile arrest warrant. August 9th, 1994, possession
of stolen auto. Criminal trespass to vehicle. Ethnic
intimidation, whatever that means. Theft of auto
again, a juvenile arrest warrant issued. Burglary to
auto, attempted theft of auto, criminal trespass to
vehicle. Criminal damage to property on November
29th, 1994, again a juvenile arrest warrant. December
20th, ’94, possession of controlled substance and

86a
delivery of controlled substance.
arrest warrant.

Again a juvenile

One could argue that he came to Milwaukee not to
escape Chicago, that can be a reasonable inference, or
the violence of Chicago, because we have our own
violence here, but to avoid prosecution in Illinois,
specifically Chicago.
I have to consider the
defendant’s character, and one of the things I can
consider for character is the fact he was an absconder
Page 55
from Illinois.
I also can consider the violent nature of these
offenses. It shows someone who’s willing and might
have killed these women if they didn’t consent. It’s
also frightening when you consider character when in
the presentence report as pointed out by defense
counsel, the presentence writer expected to see
someone who would act more bizarre, but she was
struck or he was struck—it’s a male—that he expected
to be—the offender to behave in a bizarre fashion.
“Quite frankly, this agent was surprised the offender
behaved like any other offender this agent has
interviewed. As a matter of fact, had the agent not
read the psychological reports, this agent would have
thought the offender was like any other offender this
agent had interviewed.” Defense saying well, this
indicates the fact he’s off drugs and alcohol, and this
is the type of individual he is.
I think I might feel more comfortable if I know there
was an underlying psychological problem that could be
handled, but if this is the type of individual he is,
someone who appears normal when interviewed, it’s
frightening what he could do when released back into

87a
the community, and that’s why the state made its
recommendation.
Page 56
I have to consider the community’s needs and his
needs. The community’s needs basically is to be
protected. We—the community holds the courts up to
the standard of protecting them from violent offenders.
And also I have to consider the defendant’s needs and
he has needs, be it—and the court will accept the fact
he has learning disability problems. I will accept the
defense version, it’s probably consistent, and there
might be drug and alcohol problems. There is delivery
and possession in his past in juvenile record. But even
assuming he was taking drugs or alcohol when he
committed these offenses, it shows a complete lack of
self-control. And again, we don’t know if he committed
these offenses while under the influence of alcohol or
drugs. So I have to weigh all these factors in here.
The victims in this case have been traumatized. The
state says outside of homicide this is—these are the
most shocking cases, the most traumatizing. Some of
these women I think are going to be traumatized
themselves, I know it will affect them the rest of their
lives, and I think some sexual assaults can be equated
to homicide cases because you rob people of their souls,
of their self-respect, and I think this is what happened
in this case.
And counsel again argues that he’s a product
Page 57
of his environment. There are hundreds if not
thousands of children who have the same problems in
the inner city, but hundreds and not thousands of
children grow up to be 17, I don’t even know if he’s

88a
grown up, to commit crimes so violent at the age of 17.
If that’s true, we would have thousands of 17-year-olds
in here. So I don’t think his background makes him a
serial rapist, and that’s what he is, a serial rapist.
So what we have here is violent offenses, violent
sexual assaults, home invasions, threats to kill victims
and their babies, pillows used on faces, all this
indicates to me that the defendant is a great risk to
this community if not other communities if released
after a short period of time.
The state has made a recommendation, the defense
has countered. I believe the state’s recommendation
is insufficient, and I try to give great deference to the
state recommendation, but it’s insufficient to protect
the community and is insufficient to punish the
defendant.
He has pled or entered Alford pleas so there’s
somewhat an acceptance of responsibility. And he has
avoided forcing the victims to testify, and I will take
that in consideration. When given the chance to speak
today, he just said he feels sorry for the victims.
Page 58
Again, very little if any acceptance of responsibility if
one wants to interpret that. But the violence of the
offenses and the defendant’s prior record is more
aggravating and is more of a consideration than the
fact that he barely accepts responsibility.
Based upon all these facts and circumstances, the
court’s going to impose the following sentences. As to
count 1, the court is to sentence the defendant to 30
years in Wisconsin State Prison. As to count—that’s
the first degree sexual assault.

89a
As to count 2, the armed robbery—
MS. FALK: That’s count 3.
THE COURT: I’m sorry, count 3, just a second here.
The court’s going to sentence the defendant to ten
years in Wisconsin State Prison, consecutive.
As to count 4, the court’s going to sentence the
defendant, that is a second degree sexual assault and
that’s a Class B felony, too?
MS. FALK: No, Your Honor, that would be a class,
I think it’s a class C. I’m just going to pull my file and
make sure. It should be a 10 year felony. I think it’s
a 10 year felony, but let me just make sure. Yes, it is
a ten year felony.
THE COURT: The court’s going to sentence the
defendant to ten years in the Wisconsin State Prison,
Page 59
consecutive to count 3.
As to count 6, the court’s going to sentence the
defendant to 30 years, again a first degree sexual
assault, in Wisconsin State Prison, consecutive to
count 4.
As to count 8, the court’s going to sentence the
defendant to 30 years in Wisconsin State Prison,
consecutive to count 6.
As to count 9, the court’s going to sentence the
defendant to 30 years in the Wisconsin State Prison,
consecutive to count 8.
The court feels a longer prison sentence than the
state’s recommending is needed to protect the
community. That probation at the end is not needed
due to the length of the court’s sentence. I feel that he

90a
needs, counsel says to be warehoused. I think—I view
it to be put in prison to protect the community. If it’s
warehousing, so be it.
Every sentence, as I indicated, to be consecutive.
The defendant is a convicted felon, he cannot possess
a firearm. He has 20 days to appeal this decision.
What are your calculations? That would be,
consecutive, would be a total—
MR. LOVE: It’s 140 years.
THE COURT: One hundred forty years. That’s
Page 60
mine. He has 20 days to appeal this decision. What’s
the sentencing credit?
MR. LOVE: He’s been in since—
CLERK:
The delinquency petition is dated
September 8th. If we compute from September 8th of
1995 to today’s date, it’s 594 days, but I don’t know
how long he was in custody before that.
MS. FALK: Before the delinquency petition?
CLERK: Yes.
MS. FALK: Let me see if I can find the date of arrest.
MR. LOVE: The date of the—
MS. FALK: Your Honor, also I think that there are
requirements with respect to submitting a blood
sample.
THE COURT: The defendant will, it’s DNA—he’ll
commit—submit a sample of saliva, I don’t think it’s
blood, for the DNA bank. It says saliva rather than
blood. Also as a convicted felon of first degree sexual
assault, if he’s ever paroled, he cannot be employed in

91a
any job where children are present or be a volunteer
where children are present.
MS. FALK: His arrest date was September 7th of
1995.
THE COURT: Okay, I’ll give him credit from
Page 61
September 7th.
CLERK: That’s 595 days.
THE COURT: I’ll award 595 days.
CLERK: As to count 1.
THE COURT: And he has 20 days to appeal this
decision.
CLERK:
And the mandatory surcharges are
ordered imposed?
THE COURT: Seventy dollars as to each count.
CLERK: Thank you.
*

*

*

*

*

92a
Page 62
STATE OF WISCONSIN )
) ss
MILWAUKEE COUNTY )
I, Beth J. Fringer, Official Reporter, certify that I
reported the foregoing proceedings and this transcript
is true and correct in accordance with my original
machine shorthand notes taken in said proceedings.
Dated: May 19, 1997
s/ Beth J. Fringer,

93a

APPENDIX F

STATE OF : CIRCUIT COURT : MILWAUKEE
WISCONSIN
BRANCH 43
COUNTY
STATE OF WISCONSIN,
Plaintiff,
v.

Case No. F-954600

RICO SANDERS,
Defendant.
TRANSCRIPT OF PROCEEDINGS
CHARGES: First Degree Sexual Assault (4 Counts)
Armed Burglary (2 Counts)
Armed Robbery
Second Degree Sexual Assault
Aggravated Burglary (2 Counts)
ADJOURNMENT
June 11, 1996 THE HONORABLE DIANE S. SYKES
Circuit Judge, Presiding

94a
APPEARANCES
MIRIAM FALK, Assistant District
appearing on behalf of the state.

Attorney,

EDWARD LITTLE, Attorney at Law, appearing on
behalf of the defendant.
E. DUKE McNEIL, Attorney at Law, appearing on
behalf of the defendant.
Defendant present in court.
MARY K. POVLICK – Official Reporter
Page 2
PROCEEDINGS
THE CLERK: State of Wisconsin versus Rico
Sanders, F-954600, first degree sexual assault four
counts, armed burglary, two counts, armed robbery,
second degree sexual assault and aggravated burglary,
two counts.
MS. FALK: The state is appearing by assistant D.A.
Miriam Falk.
MR. LITTLE: Edward Little along with E. Duke
McNeil appears on behalf of Rico Sanders who is now
present.
THE COURT: All right. The case is scheduled for
trial today. At the last court appearance, however, due
to some bizarre behavior the defendant was exhibiting
in court, I ordered a competency reevaluation be
conducted by Dr. Palermo who did an initial
competency evaluation of the defendant sometime ago
and found him at that time competent to proceed.
Dr. Palermo has returned to me a report based on
his reevaluation of the defendant which occurred on

95a
June 6 of this year and has indicated in that report his
opinion that the defendant is not now competent to
stand trial to a reasonable degree of medical certainty.
He cannot offer a specific diagnosis that underlies that
opinion that he is offering to the court. He said it
Page 3
could be one of a number of different things, including
Ganser’s syndrome which he indicates is prison
psychosis.
It could also include schizophrenia,
catatonic type, and he says it could also be malingering.
So based on his opinion that he is offering that the
defendant is not now competent to stand trial but the
diagnosis at this time being uncertain due to the
limitations of the evaluation that he performed, he
recommends that the defendant be transferred to the
Winnebago Mental Health Institute for further
observation for at least about a month for diagnostic
purposes to further diagnose whether the defendant is
competent or not and arrive at a specific psychological
or psychiatric diagnosis and possible treatment to
competency based upon the results of the inpatient
evaluation.
The doctor does not offer an opinion about
competence to refuse medications at this point, I
suppose based on the fact that he can’t really offer an
opinion about what the explicit diagnosis is at this
point. In any event, that’s a summary of the doctor’s
report at this time.
What’s the state’s position for the record on
Dr. Palermo’s new report?

96a
Page 4
MS. FALK: Your Honor, the state would be
challenging the finding or the conclusion of
competence, and I would be requesting that the court
appoint Dr. Stephen Emiley to do an evaluation and
return that report within the next week and a half.
THE COURT:
position?

All right.

And the defendant’s

MR. LITTLE: The defense’s position is trying to
understand. As I understand the scenario, there was
an evaluation. There is a subsequent evaluation
ordered by the state and the court. That evaluation
comes in, and is the state taking the position—can
they just willy-nilly say we don’t want to accept that
one? I don’t know where they are.
THE COURT: Well, either party has the option of
challenging a psychiatric report on the issue of
competency, and then there is a certain burden of
proof that goes along with that if we get to the point of
having to have a hearing on this, and so the state as
well as the defense would have a right to ask for the
appointment of an additional doctor if there is
disagreement with the conclusions of the doctor who
was originally appointed. And at this point the state
is indicating that challenge or objection to the doctor’s
conclusions and is asking for another expert to be
Page 5
appointed.
We were in basically the opposite situation with
Dr. Palermo’s first report. He was reporting that the
defendant was competent because he perceived his
behavior to be characteristic of malingering, and then

97a
there was a request for a defense expert which you
were gonna hire rather than have the court appoint,
as I recall the scenario, and then we ultimately came
back with Dr. Palermo’s report being the one that
stood as far as the defendant’s competence was
concerned.
Now we’re in the opposite position. Dr. Palermo has
revised his opinion, and as I summarized previously,
the state has a right to have their doctor appointed for
a second opinion, and depending upon the results of
that opinion, will either withdraw its objection or
persist in its objection and we’d have a hearing, and
the parties can take whatever position they are going
to take at that point in time. Go ahead.
MR. LITTLE:
Is the court disposed toward
following any of the, quote, recommendations of
Dr. Palermo, to wit, that he go to Winnebago for a
period and have inpatient evaluation?
THE COURT: Well, at this point that’s the only
opinion that I’m being offered at this time, so I would
be inclined to following his recommendation in the
Page 6
absence of any objection or countervailing opinion.
The state has asked for an opportunity to have another
doctor appointed to have a second opinion and further
develop the record on this issue, and they have a right
to do that, so I’m not going to send him off to
Winnebago anticipatorily.
That would not be
appropriate.
So at this point I will permit the state to maintain
its objection. It has a right to do that. I will at the
state’s request appoint Dr. Emiley to perform a second
evaluation of the defendant and will schedule the

98a
matter for a hearing. He said he could do it in the next
week and a half?
MS. FALK: Yes.
THE COURT: Let’s schedule a hearing for early
next week then, and if you would like to subpoena
Dr. Palermo to court for that hearing to have him come
to court and testify and flesh out his report a little bit,
you are certainly free to do that in anticipation of what
Dr. Emiley’s position might or might not be, we’ll see.
MS. FALK: I could do it next week Wednesday.
MR. McNEIL: Judge, a week and a half, you’re
talking next Wednesday. How is that week and a half
for preparing a report?
Page 7
THE COURT: Is that how much time he was
requesting? He was going to go do some testing.
MS. FALK: Right. He felt he would do the testing
this week. And I said I would be willing to convey
those results back. I think we can do it on Wednesday.
THE COURT: All right. Is there a problem with
that date?
MR. McNEIL: What number date is that?
THE CLERK: That’s June 19th.
THE COURT: You’re here on Wednesday?
MS. FALK: I’m here on Wednesday. I don’t leave
until Wednesday after work.
MR. McNEIL: Because we were preparing for trial,
we didn’t bring our schedules.
MR. LITTLE: We were committed here for the week.

99a
THE COURT:
Needless to say, the trial is
suspended and the proceedings will remain on
suspended status pending the outcome of this
evaluation and hearing. Why don’t we set the hearing
on Wednesday. If there is a problem with it, you can
get back to me.
MR. LITTLE: All right.
THE COURT: I hope there isn’t because the
prosecutor is then out of town on Thursday and Friday,
Page 8
so hopefully that date will be acceptable.
MR. McNEIL: When is she back?
MS. FALK: I could do it again on Monday, the 24th.
MR. McNEIL: So those are our two options, the
19th or 24th.
THE COURT: I would rather do it sooner than later.
The defendant has been sitting a long time on this case.
This case is getting very old. I would like a closure to
this case one way or another as soon as possible. Let’s
set it for the 19th and hope that that date works out
for everyone.
MR. LITTLE: For my own edification, what’s the
name of the new psychologist being appointed?
THE COURT: Dr. Stephen Emiley. He is not in the
present forensic unit. He is a private doctor. Dr.
Emiley.
MR. LITTLE: Stephen Emiley.
THE COURT: Correct.
MR. LITTLE: Counsel, you will provide us with a
curriculum vitae and that type of thing?

100a
MS. FALK: Sure.
THE COURT: Anything else at this point?
MS. FALK: Not from the state.
THE COURT: All right.
Page 9
MR. LITTLE: Is that at 8:30?
THE COURT: 8:30. Thank you. This is pursuant
to section 971.14 sub. (2)(a).
(End of Proceedings)

101a
Page 10
STATE OF WISCONSIN )
) ss

CERTIFICATE

MILWAUKEE COUNTY )
I, Mary K. Povlick, Registered Professional Reporter,
do hereby certify that I reported the foregoing matter
and that the foregoing transcript, consisting of 10
pages, has been carefully compared by me with my
stenographic notes as taken by me in machine
shorthand and by me thereafter transcribed and that
it is a true and correct transcript of the proceedings
had in said matter to the best of my knowledge.
Dated at Milwaukee, Wisconsin, this 30th day July,
1997.
s/Mary K. Povlick
Mary K. Povlick
Registered Professional Reporter

102a

APPENDIX G

DEPARTMENT OF
CORRECTIONS
Division of Adult Institutions
DOC-3473 (Rev. 6/04)

WISCONSIN

PSYCHOLOGICAL SERVICES
CLINICAL CONTACT
OFFENDER NAME
Sanders, Rico
DOC NUMBER
331049
INSTITUTION
GBCI
DATE
10/5/04

SOURCES OF
INFORMATION
☒ Clinical Interview
☒ PSU file
☒ Social Services File
☐ HSU chart
☐ Psychological Testing
☐ Other

REASON FOR CONTACT
Inmate request, indicating Mr. Sanders has been
double celled, is not “getting along” with his cellmate,
and that Mr. Sanders believes his cellmate is
“continuously spying on me and making fun of me to
his friends.”
RELEVANT HISTORY
The inmate is serving a total sentence of 140 years on
a 1997 conviction for 1st Degree Sexual Assault,
Armed Robbery, and 2nd Degree Sexual Assault. He
has a PED of 9/7/2030 and MR of 2089. He began

103a
reporting auditory hallucinations in May 1997. He
has received a variety of mental health diagnoses,
including History of Schizophrenia (Chronic,
Undifferentiated), History of Hallucinogen-Induced
Persistent Perceptual Disorder, and PTSD, and has
been treated with antipsychotic and sleep-enhancing
medications.
OFFENDER’S REPORT
Mr. Sanders complained of being unable to sleep or
defecate in the presence of his cellmate, feels
“uncomfortable” and “uneasy,” and worries that his
cellmate may “come after me” if he is on the toilet. He
described himself as “not trusting” and “fearful.” Mr.
Sanders requested that he be placed again in a single
cell. At that point, I suggested that his continued
reports of paranoia, auditory hallucinations, and
aggressive impulses stronly indicate that he is in need
of more treatment than is available to him here at
GBCI. He initially objected to this strongly, stating “I
don’t think I’m crazy...I’m misunderstood...I’m just a
regular person.” After a lengthy discussion of his
symptoms, treatment needs and treatment history
(especially his perception of the treatment he received
at Mendota Mental Health Institute in 1996), Mr.
Sanders expressed agreement with a recommendation
of a referral to WRC for assessment and programming
that would be aimed at helping him cope more
effectively with his problems and with the stresses of
incarceration.

104a

MENTAL STATUS
Alert, oriented, no unusual psychomotor behavior
observed. Affect was limited in scope range and
continues to reflect dysphoric/irritable mood. No
thought disorder characteristics were observed. Mr.
Sanders continues to report distress associated with
the “voices” that he hears. He denied active intent or
plan to harm himself or others.
DIAGNOSES
Axis I

PTSD, by History; Substance-Induced
Persistent Hallucinosis, by History

Axis II Antisocial PD, by history
Axis III (If Relevant) Deferred to HSU
TREATMENT PLAN/FOLLOW-UP
I will recommend Mr. Sanders be placed again on Red
Tag status and will complete a referral for WRC. In
the interim, he will be followed to assess stability and
acceptance of this referral.
☐ MH code has changed ☒ MH code has not changed
☐ MH-0
No MH need

☐ MH-1
MH need (not *SMI)

☒ MH-2
Diagnostic SMI or
Functional SMI

☐ MH-3
Mental Retardation

CLINICIAN SIGNATURE
Steven Schmidt, Ph.D.
s/ Steven Schmidt, Ph.D.

DATE SIGNED
10/6/04

105a
DEPARTMENT OF
CORRECTIONS
Division of Adult Institutions
DOC-3473 (Rev. 6/04)

WISCONSIN

PSYCHOLOGICAL SERVICES
CLINICAL CONTACT
OFFENDER NAME
Sanders, Rico
DOC NUMBER
331049
INSTITUTION
GBCI
DATE
10/5/04

SOURCES OF
INFORMATION
☒ Clinical Interview
☒ PSU file
☒ Social Services File
☐ HSU chart
☐ Psychological Testing
☐ Other

SUPERVISOR’S SIGNATURE
(If Needed)

DATE SIGNED

* SMI – Serious Mental Illness
DISTRIBUTION: Original – PSU Record (DOC3370A); Copy – HSU (file in DOC-3370); Copy – Social
Services File Confidential Section; Copy – CRU

106a

APPENDIX H

CONFIDENTIAL
FOR PROFESSIONAL
USE ONLY

FURTHER
DISTRIBUTION
PROHIBITED
WITHOUT CONSENT
OF BUREAU OF
HEALTH SERVICES

PSYCHIATRIC REPORT
SANDERS, RICO
07-21-97

331049-A

GBCI

IDENTIFYING INFORMATION: This patient is an
18-year-old Afro-American male who is serving
140-year sentence. He had been at Dodge Correctional
Institution for two months and has been here at GB
Correctional Institute since July 1, 1997.
PRESENTING PROBLEM: He had been hearing
auditory hallucinations. He would hear voices which
would tell him something with reference to all the
people in the world. He also had delusions he felt that
people were talking about him. He also, in the past
when he took LSD, would see trees moving and snipers
shooting at him. He has had many suicidal thoughts
in the past but not at present. When he was 14 years
old, he attempted suicide by hanging himself from a
tree. Presently, he does not feel depressed.
PAST PSYCHIATRIC HISTORY: He had been in
Mendota Mental Health Institute for a period of onehalf year; that was when he was 17 years old. When

107a
he was discharged from there, he was on Navane,
Artane and Ritalin. At one time, he was diagnosed as
having attention deficit/hyperactivity disorder but
does not have those symptoms at this time.
He used LSD on a daily basis from the ages of 14 to 16
years of age. He would have hallucinations as
mentioned above; that is seeing trees move and
snipers shooting at him. He occasionally has had
flashbacks of this. He does have a startle response.
He used cannabis from the age of 12 until the age of
16 on a daily basis. He would become intoxicated with
some alcoholic beverage approximately three times a
week from the age of 12.
He would smoke
approximately a package of cigarettes daily. He began
smoking at the age of 13 years.
FAMILY HISTORY: He was the youngest of seven
children. When asked about his formative years, he
relates his mother was good to him. He felt close to
her emotionally and could talk to her. When asked
about his father, he relates his father sexually
molested him when he was 5 or 6 years old. To his
knowledge, it was never reported. His father died
when the patient
***

108a
CONFIDENTIAL
FOR PROFESSIONAL
USE ONLY

FURTHER
DISTRIBUTION
PROHIBITED
WITHOUT CONSENT
OF BUREAU OF
HEALTH SERVICES

PSYCHIATRIC REPORT
SANDERS, RICO
07-21-97
Page 3

331049-A

DIAGNOSIS:
AXIS I.

Schizophrenia, chronic undifferentiated
type.
Post-hallucinogenic perceptive disorder
(LSD).
Past history of cannabis abuse.
Past history of depressive disorder, at
times major, presently not depressed.
Past
history
of
attention
deficit/hyperactivity
disorder,
now
asymptomatic.

AXIS II.

None identified.

AXIS III. Apparent good physical health.
AXIS IV.

Psychosocial
stressors
and
environmental conditions have been
rather severe, being sexually molested
when he was very young, no real father
figure throughout the years and now a
long incarceration.

109a
AXIS V.

Global assessment of functioning the
past year has been in the realm of Code
40.

TREATMENT PLAN:
He will be
approximately one month for follow-up.
s/John Gehring, M.D.
John Gehring, M.D.
Consulting Psychiatrist
Bureau of Health Services
JG/cls, T: 7/27/97, cc: CS, SS, Agent
OM/VKaj025.N/27

seen

in

110a

APPENDIX I
TYRONE CARTER, Ph.D.
CONSULTING PSYCHOLOGIST
NATIONALLY LISTED HEALTH
SERVICE PROVIDER IN PSYCHOLOGY
1840 N. FARWELL AVENUE
SUITE 300

MILWAUKEE,
WISCONSIN
53202

TELEPHONE 276-8381
FACSIMILE 276-8386
PSYCHOLOGICAL EVALUATION
October 2, 1995
To:

Attorney Pat Devitt,
Assistant State Public Defender
10930 Potter Road, Suite D
Wauwatosa, Wisconsin 53226-3424

Re:

Rico Sanders
Court Case #: 03270180

INTRODUCTION
Rico Sanders is a fifteen year old male who was
referred for psychological evaluation subsequent being
charged with eleven counts of illegal transgression
which relates to sexual assault and burglary charges.
Because of the seriousness of those charges, the

111a
Milwaukee County District Attorney’s Office is
petitioning that the client’s jurisdiction be waived
from the Children’s Division of Circuit Court to the
Adult Division of Circuit Court.
Psychological
evaluation was requested in order to assist in
determining the most appropriate venue and
disposition of the case. Thus, the young man was
initially seen and subsequently evaluated by this
psychologist on September 19, 1995.
BACKGROUND INFORMATION
Rico Sanders has been detained at the Milwaukee
County Children’s Court Center since September 7,
1995. Prior to that time, he had resided in Milwaukee
with a brother, the brother’s girlfriend, and several
other relatives, but Rico actually ran-away from his
brother’s home in August 1995. Thus, he was basically
transient at the time of his detainment.
Information provided to this psychologist by Ms. Mary
Webber, Client Service Specialist, includes extensive
background information regarding this client’s family,
educational, and social background. Included are
records which indicate that this client has been
historically subjected to extremely traumatic and
dysfunctional family circumstances, including the
tragic death of his older brother Rodney. It is also
indicated that Rodney was “a very stable force in the
family. He especially looked out for Rico and Tonya.”
Further, it is indicated that the older brother served
as a positive adult role model, and that Rico’s problems
intensified subsequent to his brother’s death. The
client had also been previously devastated subsequent
to the death of his biological father as well. It is also
indicated that Rico himself, had been subjected to

112a
death threats and severe assaults from rival gang
members.
The information provided also includes an interview
with the client’s mother, Ms. Pearline Sanders.
Ms. Sanders’ interview revealed the fact that Rico has
a long history of suicidal attempts; indicating that
“Rico tried to kill himself every summer since he was
about eight years old.” It is also indicated that the
young man is claustrophobic; has historically engaged
in negative attention-seeking behaviors; has
attempted to mutilate other siblings; has a history of
chronic alcohol/substance dependency; and a history of
chronic runaway behaviors. However, in spite of this
record of dysfunctionality, the client has never
participated in any structured rehabilitative
treatment programs.
The information provided also revealed that Rico had
sustained a gunshot wound through gang-related
activity. The mother also states that he has a history
of severe learning difficulties, but has never
participated in special education programming. She
apparently feels that Chicago Public Schools and the
criminal justice system in that city, had failed to
provide adequate services for her son. Because of this
apparent history of depravity, Ms. Sanders is said to
have described her son as “the kind of kid that talked
about his own funeral since he was eight years old.”
Additional information reveals that Rico last attended
the Park Manor Grammar School in Chicago, Illinois.
That information describes Rico as “a troubled child”
with a history of behavior problems, absenteeism, and
poor scholastic performance. It is also indicated that
Rico was frequently involved in gang-related activity

113a
as well. Reportedly, gang members had severely
beaten him on the occasion of his grammar school
graduation, he was “beat-up so bad that he was not
able to walk across the stage to receive his diploma.”
Death threats from gang members reportedly
prompted Rico to move to Milwaukee.
Information provided by the girlfriend of the brother
with whom he most recently resided, indicated that
Rico “does not seem to know right from wrong.” That
person also agrees that Rico and his whole family have
been quite devastated and traumatized because of the
death of their brother. She also feels that Ms. Sanders
has “done her best” to care for her son, but feels that
“Rico needs real serious help.” It is also indicated that
he has needed help for a long-time, and that he has
had a hard time adjusting to the city of Milwaukee.
She also indicates that he is prone to temper-tantrums
and pouting.
Finally, the girlfriend reportedly
intimated the following irrational behaviors; “he
washed his face with household bleach one day
because that is how he thought you bleach your skin,
he also ate hair grease thinking it was jam, …he
dangled her nine month baby out of a window two
stories up.”
Finally, the information provided reveals a history of
prior illegal transgressions while the young man
resided in Chicago, Illinois. Specifically, between
January 5, 1994 and August 3, 1994, he was involved
in five offenses which related to vehicle and substance
possession violations.

114a
MENTAL STATUS EXAMINATION AND CLINICAL
INTERVIEW
Rico Sanders presents as a quite slim AfricanAmerican male of average height and medium-brown
complexion, who appears his stated age of fifteen
years. Although, slightly unkempt in appearance, he
was
nonetheless
adequately
groomed
and
appropriately dressed in casual attire. No visual or
audiological impairment was evident. Further, Rico’s
speech appeared fluent, coherent and appropriate in
content. He did appear quite dysphoric in mood,
although he exhibited no psychotic symptoms and
appeared oriented in all spheres.
The client proceeded to verbalize in a clear and
unrestricted manner as he responded to all questions
that were presented to him.
Specifically, Rico
confirmed the current allegations against him. Rico
states that he burglarized his victims because of the
fact that he was destitute and had no place to live since
he had runaway from his brother’s home. He states
that he ran-away subsequent to violating the family
curfew, which he suspected would result in severe
punishment. During this time, Rico states that he
often slept in cars, vacant buildings, or with “friends if
I could.”
The young man proceeded to admit that he had
committed the sexual assaults after the initial breakins. He states that he usually became sexually
aroused after observing his victims in bed or partially
clothed. That stimuli, in turn, triggered his sexual
urges and resulted in the subsequent assaults. Rico
appeared extremely remorseful because of his
misdeeds, and especially because of his sexual

115a
misconduct.
He also willingly accepted full
responsibility for his behaviors, but indicated “every
time I did it I was drunk.”
The client continued to confirm a history of chronic
alcohol and marijuana use. He states that he began
using marijuana and alcohol about three years ago
and that he used extensive amounts on a regular basis
until his detainment. He states, in fact, that the
motivation for his burglaries was to provide himself
with the money to obtain marijuana.
Previous information provided to this psychologist had
indicated that Rico smoked “ten to twenty blunts” a
day. It is also indicated that he drank alcohol every
three days and usually drank a pint at a time. He also
drank alcohol just before his detainment as well.
Further, information reveals that the young boy had
frequently been experienced blackouts, tremors,
excessive perspiration and had developed an increased
tolerance for alcohol and marijuana through the years.
He also is said to have exhibited hallucinations,
memory loss, paranoia, and severe cravings when he
does not have access to alcohol or marijuana. The
young boy confirmed the accuracy of these statements
and also volunteered, that he “definitely feels out of
control when using.”
This client continued to admit to an asthmatic
disorder which requires occasional “over-the-counter”
medication. He also admitted that he had sustained a
gunshot wound to his right leg which resulted from
gang involvement. At this time, Rico confirmed that
he had indeed moved to Milwaukee in an effort to
escape gang threats to his life. The client also
intimated a history of suicidal ideations and attempts,

116a
including one suicidal attempt since his recent
detainment. He also admitted to a history of severe
learning difficulties as well. However, in spite of these
multiple problems, the young man confirmed that he
had never participated in any structured
rehabilitative treatment programs. When granted
three hypothetical wishes, the client responded as
follows:
1.
2.
3.

I wish for forgiveness.
I wish I could get up out of here.
I wish my life could be better.

DIAGNOSTIC ASSESSMENT
In order to determine Rico’s current intellectual
functioning, the Revised Edition of the Wechsler
Intelligence Scale for Children was administered.
Results generated by that instrument are as follows:

117a
WISCH-R
VERBAL
PERFORMANCE
IQ
SUBTESTS
SUBTESTS
PRODUCTIONS
Information
6 Picture
8 Verbal IQ
65
Completion
Vocabulary

5 Picture
9 Performance 84
Arrangement
IQ

Arithmetic

4 Block Design

8 Full Scale
IQ

Comprehension 4 Object
Assembly

7

Similarities

6

3 Coding

72

Thus Rico Sanders obtained a full scale quotient of 72
on the Wechsler Intelligence Scale for Children. That
production was based on a verbal quotient of 65 and a
performance quotient of 84. This particular profile is
indicative of one who may present with specific
learning disabilities. However, similar profiles are
also quite prevalent among those who may have been
culturally isolated or who have significantly higher
potential within mechanical areas as opposed to
social/cultural areas. An analysis of Rico’s subtest
patterns indicates that he exhibited highest ability on
a task requiring skill in ascertaining and sizing up a
total social relationship. That particular subtest
measured in the low-average range. His lowest
measured subtest fell in the mental deficient range,
and involved a task requiring verbal concept
formation. All other measured subtests were in the
borderline or low-average ranges as well.
The Revised Edition of the Wide Range Achievement
Test was also administered in order to determine this

118a
client’s current academic capabilities. Those results
are as follows:
WRAT-R

SUBJECT
Reading
Spelling
Arithmetic

STANDARD
SCORE
59
64
70

PERCENTILE
.7%
1%
2%

GRADE
EQUIVALENT
-3
-3
5E

This client’s current academic skills are drastically
low and his reading/spelling deficiencies would
categorize him as extremely illiterate. It is suggested
that specific learning disabilities, as well as,
environmental and emotional factors account for the
client’s severe academic deficiencies.
It is also
suggested that he might improve his skills somewhat,
if he is properly motivated, controlled, and instructed.
The Bender Visual-Motor Gestalt Test was also
administered in an effort to determine if Rico might
present with significant visual/perceptual or other
organic impairment. His performance resulted in
several angulation errors and thus, substantiates the
possibility of such difficulty.
In an effort to determine this client’s current
personality profile, the Incomplete Sentences Blank,
House-Tree-Person Projective, Bender Visual-Motor
Gestalt Test, the MMPI-A, social/court records, and
clinical interview were utilized. That assessment
reveals a quite despondent and extremely ineffectual
person with a long history of dysfunctional family
circumstances, highlighted by traumatic family
experiences. It is also suggested that Rico has been
historically exposed to extremely negative social,

119a
environmental, and peer influences as well.
Additionally, he presents with a history of severe
learning deficiencies and behavioral disorders. In his
futile effort to escape negative aspects of this reality,
this young man may have resorted to fantasy and
other escapist behaviors which contributed to
subsequent alcohol/marijuana dependency.
This
young man also appears quite emotionally fragile,
impulsive, and seems to have many unfulfilled
affectional needs. Subsequently, it is suggested that
he is quite vulnerable, and may have frequently
engaged in illegal/asocial activity in his effort to earn
respect and esteem from others.
However, his
attitudes failed to accomplish that objective; rather
contributing to even more severe despondency which
has resulted in apparent suicidal ideations and
attempts.
The administration of the MMPI-A proved invalid
because of the young man’s tendency to itemize items
as true regardless to their content. Nonetheless, that
administration revealed significant critical items
which would strongly substantiate the possibility of
alcohol/substance dependence, suicidal behaviors, and
family problems. All of these factors, in turn, appears
to have contributed to a very substantial degree of
generalized depression.
Throughout the diagnostic evaluation, Rico continued
cooperative and seemed interested in all tasks that
were administered to him. Because he appears to have
made a good effort to complete all tasks to the best of
his ability, all results are considered valid.

120a
SUMMARY,
DIAGNOSIS,
RECOMMENDATIONS

AND

Rico Sanders is a fifteen year old adolescent male who
is currently functioning within the borderline range of
intelligence. However, it is strongly suspected that his
overall intellectual/academic performance may have
been adversely effected by specific learning disabilities
as well as environmental and emotional factors.
Visual/perceptual functioning appears immature as
well.
Personality assessment suggests a quite
despondent and dysphoric person with strong feelings
of rejection, dysfunctional family circumstances,
negative environmental/peer influences, family
trauma, learning problems and depression.
Diagnosis DSM III-R Classification
Axis I

312.90
304.30
303.90
296.3

Axis II

V40.00
315.50

Conduct Disorder,
Undifferentiated Type
Cannabis Dependence;
Alcohol Dependence;
Major Depression, Recurrent
Borderline Intellectual
Functioning
Mixed Specific Development
Disorder
(DSM III Classification)

Axis III

Asthma; Gunshot Injury to Right
Leg

Axis IV

Psychosocial Stressors:
Dysfunctional Family
Circumstances; Family Trauma;
Negative Environmental/Peer
Influences; Drug-Cravings;
Learning Problems

121a
Severity 4: Severe
(Predominately Enduring
Circumstances)
Axis V

Current GAF:
40
Highest GAF Past Year: 45

Thus, in summary, Rico Sanders presents as a young
man with severe intellectual, academic, emotional and
substance abuse difficulties which relates primarily to
dysfunctional
family
circumstances,
negative
environmental/peer influences, and possible organic
learning difficulties.
It is suggested that these
difficulties, in symphony, have accounted for severe
attitudinal and behavior disorders; including the
illegal transgressions for which he is presently
charged. This psychologist considers it amazing that
he has never participated in rehabilitative treatment
programs to address any of his numerous needs.
Nonetheless, this young man might prove quite
responsive to positive treatment programs which are
available to the Children’s Division of Circuit Court.
It is also suggested that sufficient time remains within
that venue to effect positive attitudinal and behavior
change. Thus, the preceding recommendations are
suggested:
Because of the extremely heinous nature of the alleged
transgressions, it is suggested that incarceration is
necessary in order to assure the safety and well-being
of others, and also to provide a punitive aspect to the
client’s overall rehabilitation program. However, that
facility should provide for inpatient psychiatric care
and alcohol/substance abuse treatment as well. Rico
appears to have chronic severe needs in these areas,
and appears quite amenable to participating in

122a
appropriate treatment programs.
His particular
disorders have also proven to be quite treatable as
well. Because of this fact, his motivation, and the lack
of previous treatment, this psychologist speculates
that treatment might prove quite successful at this
time.
It is also suggested that the receiving institution
provide for the client’s educational needs as well. As
previously stated, he presents with severe
intellectual/academic deficiencies including specific
learning disabilities within the areas of reading and
spelling. Thus, it is suggested that his educational
program and curriculum be adjusted in such a manner
as to accommodate his apparent disabilities.
Improved academic facility may also serve to further
enhance his self-concept as well.
This young man also appears in dire need of positive
adult and peer role models and may prove receptive to
any educational, recreational, or social service
programs providing such figures. Thus, all such
programs available to his receiving correctional
facility should be considered as well.
Finally, it should be reiterated that this psychologist
feels that sufficient time remains for rehabilitation
during the time that this client is eligible for juvenile
incarceration. This opinion is based primarily on the
fact that the client appears quite motivated for change
at this time, and there is no record of previous
treatments which would suggest non-compliance. It
should also be mentioned that this client’s affective
and dependency disorders can be successfully treated
within a relatively short period of time. However, if
significant positive attitudinal and behavior change

123a
has not been evidenced by the time the client has
reached the age of eighteen, any necessary extensions
should be employed in order to assure continued
incarceration and extended treatment.
Such a
safeguard appears quite imperative in order to assure
that other people will not be subjected to similar
threat and danger.
If I may be of any further assistance regarding this
client, please do not hesitate to contact me.
Very truly yours,
s/ Tyrone Carter, Ph.D.
Tyrone Carter, Ph.D.
Consulting Psychologist
msm

124a

APPENDIX J

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
WISCONSIN
RICO SANDERS,
Petitioner,
v.

Case No. 11-cv-868

SCOTT ECKSTEIN,
Respondent.
BRIEF IN SUPPORT OF PETITION

Rico Sanders,
Pro se’
s/ Rico Sanders
Rico Sanders 331049
P.O. BOX 19033
Green Bay, WI 54307-9033

125a
JURISDICTION, VENUE, AND PARTIES
Rico Sanders files this brief in support of his petition
for writ of habeas corpus pursuant to 28 U.S.C. §2241
and §2254. Mr. Sanders is currently in the custody of
the respondent, the warden of Green Bay Correctional
Institution in Green Bay, Wisconsin, “in violation of
the constitution or laws or treaties of the United
States.” Id. §2241(c)(a), §2254(a). Venue is proper in
this Court as Mr. Sanders was convicted in the circuit
court of Milwaukee County, within this federal
district. Id. §2241.
PROCEDURAL POSTURE AND EXHAUSTION
Following a waiver from juvenile court, fifteen year old
Rico Sanders was charged in adult court with three
counts of First Degree Sexual Assault, three counts of
Armed Burglary, one count of Armed Robbery (use of
force), one count of Second Degree Sexual Assault, and
two counts of Aggravated burglary. While the case was
pending, the petitioner’s competence was questioned
multiple times, resulting in a stay for the petitioner
diagnosis at the Mendota Mental Health Institute.
See Respondent’s answer Ex. BB and CC. Ultimately,
the trial court, the Honorable David A. Hansher
presiding, found the petitioner competent. Id.
On March 11, 1997, the petitioner, represented by
Martin Love, entered Alford pleas before the
Honorable David A. Hansher of the Milwaukee County
trial court, to 4 counts of First Degree Sexual Assault,
1 count of Second Sexual Assault, and 1 count of
Armed Robbery (use of force). The trial court,
Honorable David A. Hansher, sentenced the petitioner
to an aggregated sentence of 140 years in prison.

126a
On March 15, 2006, the petitioner filed a Petition for
a Writ of Habeas Corpus pursuant to State v. Knight,
168 Wis.2d 509, 484 N.W.2d 540 (1992) in the
Wisconsin Court of Appeals. The petition sought
reinstatement of his appellate rights. The Wisconsin
Court of Appeals granted that petition on September
8, 2006. see Respondent’s answer Ex. B.
On February 28, 2007, the petitioner filed a
Postconviction Motion pursuant to sec. § 809.30,
stats., seeking to withdraw his Alford pleas on the
grounds that they were not knowingly, voluntarily,
and intelligently entered because he did not
understand the elements of the offense and did not
understand the terms of the agreement. On June 11,
2007, the Honorable Jeffery A. Wagner presiding,
entered an order denying the Postconviction Relief in
the circuit court for Milwaukee County.
On October 10, 2007, the petitioner appealed the
circuit court decision on the grounds that his pleas was
not knowingly, voluntarily, or intelligently entered
because he did not understand the elements of the plea
agreement, to the Wisconsin Court of Appeals. On
September 9, 2008, the Wisconsin Court of Appeals
affirmed the Circuit Courts decision.
See
Respondent’s answer Ex. C.
On September 24, 2008, the petitioner petitioned the
Wisconsin Supreme Court for review on the grounds of
whether a guilty plea is knowing, intelligent, and
voluntary is a real and significant question of State
and Federal constitutional law. see Respondent’s
answer Ex. G. On December 15, 2008, the Wisconsin
Supreme Court denied the petitioner’s petition for
review. See Respondent’s answer Ex. I.

127a
On December 7, 2009, the petitioner filed a Motion for
Postconviction relief pursuant to section §974.06,
stats., in Milwaukee County Circuit Court on the
grounds of ineffective assistance of postconviction
counsel for failing to raise and, or, argue a number of
constitutional issues including failing to raise and
properly argue the petitioner’s mental deficiencies
with psychological evidence that would have explained
why he lacked understanding of some of the courts
proceedings; and failing to raise and argue the
petitioner did not know or understand that he was
waiving the constitutional right to have the state
prove that he committed each element of the crimes
charged. On December 15, 2009, an order denying the
petitioner’s Motion for Postconviction Relief was
entered by the Honorable David A. Hansher.
On May 11, 2010, the petitioner appealed the circuit
court decision to the Wisconsin Court of Appeals on
grounds of Ineffective Assistance of postconviction
Counsel for failing to properly argue on direct appeal
trial courts failure to properly inform him of his
constitutional rights, and whether he understood
those rights he was waiving by entering his pleas. see
Respondent’s answer Ex. J. On March 15, 2011, an
unanimous three-panel judge affirmed the circuit
court decision. see Respondent’s answer Ex. K.
On March 21, 2011, the petitioner filed a petition for
review in Wisconsin Supreme Court on the grounds
that his Postconviction counsel was ineffective for
failing to raise and argue trial court’s failure to inform
him of his constitutional rights he was waiving and his
understanding of them. see Respondent’d answer Ex.
N. On June 15, 2011, the Wisconsin Supreme Court

128a
denied the petitioner’s petition for review.
Respondent’s answer Ex. O.

See

On September 14, 2011, the petitioner filed his
original application for Writ of Habeas Corpus under
28 U.S.C. § 2254, which was a mixed petition raising:
1). thiat his conviction and sentence were imposed in
violation of the state and federal constitution; and 2).
Requested a stay and abeyance while he raised his
unexhausted issues on the state level.
On may 1, 2012, the petitioner filed a motion for
postconviction relief pursuant to sec. 974.06, stats., in
the trial court raising: 1). Whether his current
sentence affords him a meaningful opportunity for
parole under Graham’s ruling; and 2). The petitioner
is entitled to a sentence modification on the grounds
that sentencing him to 140 years in prison as a
juvenile constitute cruel and unusual punishment in
violation of the Eigtht Amendment and Article I,
Section 6 of the Wisconsin constitution. On May 15,
2012, the honorable David A, Hansher presiding,
denied the petitioner’s motion for postconviction relief.
On March 31, 2013, the petitioner argued in the
Wisconsin Court of Appeals whether his sentence
affords him a meaningful opportunity for parole; and
that his sentence was unduly harsh and excessive in
violation of the U.S. constitution. See respondent’s
answer Ex. P. On August 5, 2014, the Court of Appeals
affirmed the trial court decision. See Respondent’s
answer Ex. S.
On October 1, 2014, the petitioner filed a petition for
review in the Wisconsin Supreme Court that he was
entitled to relief because 1). The question of whether
his current sentence affords him a meaningful

129a
opportunity for parole is a significant constitutional
question; and 2). Sentencing the petitioner to 140
years in prison as a juvenile without considering
mitigating factors such as age and culpability is
unduly harsh and excessive because (a). it was
disproportionate to his age; and (b). his sentence was
disproportionate to his individual culpability. See.
Respondent’s answer Ex. T. On November 17, 2014,
the Wisconsin Supreme Court denied the petitioner’s
petition for review. See respondent’s answer Ex. U.
On December 5, 2016, the petitioner filed an amended
petition in this court raising: 1). His Alford pleas was
unconstitutional and in violation of his fundamental
due process under the Fourteenth Amendment given
that it was not entered knowingly, intelligently, or
voluntarily because trial court failed to comply with
Wisconsin §971.08 (1)(a) and other mandatory duties
and he failed to understand the elements of the crimes
to which he was pleading guilty; 2). Whether his
current sentence afford him a meaningful opportunity
for parole under Graham’s ruling; and 3). His sentence
is unduly harsh and excessive in violation of the
Eighth Amendment of the U.S. Constitution.
FACTUAL BACKGROUND
Prior to the entry of the pleas in this case, original
defense attorneys Edward Little and E. Duke McNeil
questioned the petitioner’s competency on several
occasions. The trial court, the Honorable Diane Sykes,
held the first competency hearing on March 15, 1996.
At that hearing, George Palermo, a forensic
psychiatrist, found the petitioner to be of low average
intelligence, noted that he has been administered
medications, and further stated that he did not

130a
personally observe the petitioner’s interactions with
people at the jail. He noted that the petitioner
reported hallucinating visions of a monkey and a dog,
and that use of drugs and alcohol can sometimes
produce auditory and visual hallucinations.
Nevertheless, Dr. Palermo testified that he believed
that the petitioner was competent, and the trial court
adopted his opinion.
On June 5, 1996, at was supposed to be the final
pretrial hearing in this case, the petitioner began
getting up, whistling and snapping his fingers as
though calling a dog. See Respondent answer Ex. W.
Based upon his behavior, defense counsel requested,
and was granted a reevaluation of the petitioner’s
competency. See id. Dr. Palermo then reevaluated the
petitioner and reached the conclusion that he was not
competent. Dr. Palermo recommended transferring
the petitioner to Winnebago Mental Health Institute
for diagnostic purposes. See Respondent’s answer Ex.
X. The Prosecutor hired their own doctor to evaluate
the petitioner. The prosecutor hired Dr. Stephen
Emily, who also concluded that the petitioner was
incompetent. See id. The Court then ordered that the
petitioner be sent to Mendota Mental Health Institute.
Id.
Another competency hearing was held on December
19, 1996. See Respondent’s answer Ex. Y. Dr. Molli
Rolli, a psychiatrist, testified that she believed that
the petitioner was competent. See id. She noted that
his mother had indicated that he had been tested in
the past and had a third grade reading level. See id.
She noted that she did not test his reading and that
she believed, based upon comments from his teacher
there, that he had approximately a junior high reading

131a
level. See id. She believed that he had an average to
low average intelligence. Id. The trial court then
found the petitioner competent.
Thus, at the time of the plea, the petitioner was a
mentally ill seventeen-year-old, of low average
intelligence, who read at an elementary school level.
He had been in special education classes for a learning
disability and did not read or write well. The
petitioner had been evaluated 17 months earlier and
had been found to have an IQ of 72. See petitioner
original petition Ex. C.
On March 11, 1997, that same day the petitioner was
to enter his pleas, he met with his subsequent trial
attorney, Martin Love, in the bullpen behind the
courtroom.
See Respondent’s answer Ex. DD.
Attorney Love read the petitioner at least some
sections of the document designated as an “Alford
*Guilty Plea Questionnaire and Waiver of Rights
Form” and the petitioner signed it. See petitioner’s
original petition Ex. B. This form listed the names of
offenses to which he was pleading and incorrectly
listed the names of the offenses that were read-in. Id.
The form did not give the elements of the crimes that
were being charged and no jury instructions were
attached. See id. Subsequently to this discussion, the
petitioner was allowed to meet with his family at the
jail to discuss whether to plead guilty
See
respondent’s answer Ex. DD. Those discussions did
not focus on the elements of the charges.
At the plea hearing, the petitioner entered his guilty
pleas under North Carolina v. Alford, 400 U.S. 25
(1970). See id. The petitioner had to be prompted to
enter his pleas properly under this decision. See id.

132a
The Court then read off each charge and had the
petitioner enter his plea, except for the charge in count
9. The court never finished reading off the full charge
in count 9. Id. at 10–11. As for whether the petitioner
understood the elements of these charges, the court
asked only one confusing, multiple part question as
follows:
The Court: Okay. So do you understand, and I
just discussed with you what you’re charged with
and I read it to you, what the penalties are, your
attorney told you that, we’ll go through that, why
you’ve been charged, and the elements of each of
these offenses. Is that correct?
DEFENDANT: Right.
Id. at 13–14. The trial court then followed up with the
trial attorney by asking only one question:
THE COURT: And counsel, you discussed with
him what the elements would be, what the state
would have to prove in each count in order to
convict him?
MR. LOVE: I did, your Honor.
Id. at 14.
Subsequently, the state asked to “supplement the
record.” The state then noted that:
First of all we have—there’s a discrepancy in
the terms that defense counsel and I used. The
way that the complaint has count 5 and 10
enumerated is called aggravated burglary and it
is a burglary that is aggravated by the
committing of a battery. It is my hearing that on
that sheet he has it listed as an aggravated
battery. It doesn’t make any difference in terms

133a
of the title, but just so that Mr. Sanders
understand that count 5 and count 10 are, I’m
sorry, count 5 and count 7 are, in the criminal
complaint, are entitled “aggravated burglary” and
that that relates to his entering a dwelling in each
of those instances and then committing a battery
upon a person who was lawfully therein.
Id. at 17–18. The trial court then did not ask the
petitioner if he understood but instead asked the
attorney:
THE COURT:
counsel?

Is that your understanding

MR. LOVE: Your Honor, I have, as a matter of
fact, I have a copy that I drafted before the one
that was submitted to this court, and I have
referred to it as aggravated burglary. It’s a
misnomer if I have place the word “battery”
instead, I’m sorry. But yes, we understand the
circumstances and the elements.
Id. at 18.
The trial court never summarized the elements of the
crimes by reading from jury instructions, did not ask
counsel to summarize the extent of his explanation of
the elements of the charges, and did not ask the
petitioner whether he understood the nature of the
charges based upon the criminal complaint. See
Respondent’s answer EX. DD.
The petitioner subsequently alleged in his
postconviction motion that, at the time he entered his
pleas, he did not understand the nature of the charges
against him. See Respondent’s answer Ex. C. He did
not understand the elements of the multiple charges
against him. Id. The type of words used to describe

134a
the crimes were beyond his vocabulary, including such
concepts as “first degree” and “article used for
fashioned in a manner to lead the victim to reasonably
believe it’s a dangerous weapon” as well as the term,
although not the concept, of “sexual intercourse.” Id.
The petitioner also maintain that he was not guilty of
the charge and that “there was another individual who
was involved in these break-ins” and who is guilty of
these crimes. See Respondent’s answer Ex. DD. In
addition, there was some physical evidence that
supported his contention. Id.
The trial court, the Honorable Jeffery A. Wagner
presiding, denied the postconviction motion without
an evidentiary hearing, holding that the plea colloquy
was not deficient because the defendant had signed
the plea questionnaire, the defendant said that the
criminal complaint had been read to him, the court
read the charges to him from the information, and
counsel assured the court that he had gone over the
elements of the crimes. The trial court further held
that the petitioner’s statement to police was sufficient
to illustrate his understanding of the nature of the
charges.
On appeal to the Court of Appeals, the Court of
Appeals held that the trial court complied wit Bangert
and the statutory requisites in reciting the elements of
each offense, and describing each offense by date and
address, and identifying each victim by first and last
name. The court also held that, “Sanders has not
made that prima facie showing; consequently, we do
not consider his allegation that he did not understand
the nature and elements of the offense to which he
pled.

135a
S T A N D A R D OF R E V I E W
To obtain habeas corpus relief, the Petitioner may
allege that his confinement is the result of a violation
of the United States Constitution. The Constitutional
error must have had a substantial and injurious
influence on the determination of guilt made by the
jury. Brecht v. Abraham, 113, S.Ct. 1710 (1993)
Petitioner may also allege claims based on violations
of state law if they resulted in fundamental
unfairness, which consequently violated Petitioner’s
Fourteenth Amendment right to Due Process.
Under the AEDPA, habeas relief will not be granted
for any claim adjudicated on the merits in state court
unless the decision was contrary to, or involved an
unreasonable application of “federal law clearly
established by the Supreme Court”, or “based upon
unreasonable determination of facts.” 28 U.S.C. §2254
(d)(2)
A decision is “contrary to” federal law when the state
court applies a rule that “contradicts the governing
law set forth by the Supreme Court,” or when an issue
before the state court “involves a set of facts materially
indistinguishable from a Supreme Court case,” but the
state court rules in a different way. Boss v. Piere, 263
F.3d 734, 739 (7th Cir. 2001). “‘A State Court decision
that correctly identifies the governing legal rule but
applies it unreasonably to the facts of a particular
petitioner’s case qualifies as a decision involving an
unreasonable application of clearly established federal
law.” Id. (quoting Williams, 529 U.S, at 407–08). An
“unreasonable” state court decision is one that is“ well
outside the boundaries of permissible differences of

136a
opinion.” Hardaway v. Young, 302 F.3d 757, 762 (7th
Cir. 2002)
ARGUMENT
I.
PETITIONER’S
PLEAS
WAS
UNCONSTITUTIONAL IN VIOLATION OF
HIS FUNDAMENTAL DUE PROCESS UNDER
THE FOURTEENTH AMENDMENT OF THE
UNITED STATES CONSTITUTION BECAUSE
THEY
WERE
NOT
KNOWINGLY,
INTELLIGENTLY,
AND
VOLUNTARILY
ENTERED.
A plea may be involuntary either because the accused
does not understand the nature of the constitutional
protection that he is waiving...or because he has such
an incomplete understanding of the charge that his
plea cannot stand as an intelligent admission of guilt.”
Henderson v. Morgan, 426 U.S. 637, 647 n. 13, 96 S.Ct.
2253, 49 L.ed.2d 108 (1976) (citation omitted). A
guilty plea is intelligent and knowing when the
defendant is competent, aware of the charges, and
advised by competent counsel. Brady v. United States,
397 U.S, 742, 748, 90 S.Ct. 1463, 25 L.Ed.2d 747
(1970). The record must demonstrate affirmatively
that the defendant entered his plea understandably
and voluntarily. Boykins v. Alabama, 395 U.S. 238,
242, 89 S.Ct. 1709, 23 L.Ed,2d 274 (1969).
Wisconsin Court of Appeals decision resulted in an
unreasonable application of clearly established federal
law when it determined that the Petitioner’s pleas was
made voluntarily, knowingly, and intelligently as
required by federal law.
In his postconviction motion, the Petitioner invoked
State v. Bangert, 131 Wis.2d 246, 257, 389 N.W.2d 17

137a
(1986), and alleged that his pleas was not entered
knowingly, intelligently, and voluntarily because the
trial court failed to comply with Wisconsin Statutes
§971.08(1)(a) and violated his Due Process right, and
he failed to understand the elelments of the crimes to
which he was pleading guilty. See Respondent’s
answer Ex. DD.
Petitioner noted that he was
seventeen-years-old who had not completed eighth
grade, who had been in special education classes for a
learning disability, read and wrote at only an
elementary school level and had mental health issues.
He specifically alleged that
[t]he trial court never summarized the elements
of the crimes by reading from the jury
instructions, did not ask counsel to summarize
the extent of his explanation of the elements of
the charges, and he did not ask Sanders whether
he understood the nature of the charge based
upon the criminal complaint.
See Respondent’s Answer Ex. C. He further alleged
that
[a]t the time he entered his pleas, Sanders did not
understand the nature of the charges against
him. He did not understand the elements of the
multiple charges against him. The type of words
used to describe the crimes were beyond his
vocabulary, including such concepts as “first
degree” and “article used for fashioned in a
manner to lead the victim to reasonably believe
it’s a dangerous weapon” as well as the term,
although not the concept, of “sexual intercourse.”
Sanders maintains that he is not guilty of the
charges and that “there was another individual

138a
who was involved in these break-ins” and who
was guilty of these crimes. See Respondent’s
answer Ex. DD at 9. In addition, there was some
physical evidence to support his contention.
See respondent’s Answer Ex. C. Although these
allegations were sufficient to require an evidentiary
hearing, the Wisconsin Court of Appeals was wrong
when it affirmed the trial court’s denial of the
Petitioner’s motion without an evidentiary hearing.
This Court therefore should vacate the order affirming
the trial court decision to deny the Petitioner’s motion
and remand the matter with directions for the trial
court to hold an evidentiary hearing on the issue.
The voluntariness of a plea depends on all of the
relevant circumstances surrounding it. Brady v.
United States, 397 U.S. 742, 748, 90 S.Ct. 1709, 23
L.Ed.2d 274 (1969). Merely asking a young defendant
with clear mental health issues and an elementary
school reading level whether he understood long
paragraphs with high-level vocabulary in them does
not establish understanding, (quoting State v. boiling,
224 Wis.2d 621, 630–31, 593 N.W.2d 67 (Ct. App.
1999)) but knowledge cannot establish understanding.
Knowledge, for example, can be superficial and a
matter of rote memory as when a child can say that
2x2=4 or when a defendant can tell the court that he
has a right to remain silent. Understanding is a
deeper grasp of the meaning as when a child can figure
out from 2x2 that 2x3 must equal 6 or when a
defendant grasp that his right to remain silent means
that he cannot be required to testify at his trial. The
defendant must not only want to plead guilty; he must
have adequate knowledge of what that plea entails as
well as the intelligence to bring that knowledge, along

139a
with pertinent knowledge, to bear on his decision.
Stewart v. Peters, 985 F.2d 1379 (1992). In a guilty
plea hearing, the record must show an effective waiver
of rights—one that appears to be deliberate,
uncoerced, understanding, and intelligent. Id
In taking a plea, it is not enough that a defendant
merely be informed of that which he is suppose to
understand. A plea is an admission of all the elements
of a formal criminal charge, it cannot be truly
voluntary unless the defendant possesses an
understanding of the law in relation to the facts.
Henderson v. Morgan, 426 U.S. at 645.
Although the Petitioner may have been competent, he
was also mentally ill.
Although questions of
malingering had been raised, some of those questions
are answered by the Petitioner’s mental health history
after his conviction. If all of his mental health
problems were a matter of malingering, they should
have disappeared once he was convicted and they were
of no particular use to him. This mental illness, even
if not severe enough to prevent all understanding, it
reduced his understanding, especially when couple
with his low average intelligence.
Sanders is entitled to an evidentiary hearing because
he has identified deficiencies in plea colloquy, stated
what he did not understand, and connected his lack of
understanding to the deficiencies. See Respondent’s
answer Ex. C. He identified deficiencies in explaining
the elements, he said that his lack of understanding of
the elements arose in part from the vocabulary used
(See Petitioner’s original petition to this court
(psychological Evaluation) Ex. C.
In that
psychological eval. it points out the Petitioner

140a
“...lowest measured subtest fell in the mental deficient
range, and involved a task requiring ‘verbal concept
formation’.”), and he also contends that, in light of his
claims of innocence, he would not have plead guilty if
he had understood the elements. See Respondent’s
answer Ex. C. For a plea of guilty to be voluntary, the
defendant must know the value to him of the right he
is giving up, and in particular he must know what the
state would have to prove if he insisted on his right to
a trial. “...reviewing courts want to be sure that the
defendant knows what he is doing when he gives them
up. So they insist not only that the defendant made
the plea without coercion but also that he appreciated
its consequences—that is, that he understand the
options he was surrendering...” Morgan v. Israel, 735
F.2d 1033, 1036 (1984) (citation omitted).
A federal habeas corpus Petitioner who make
sufficiently credible allegations that his State guilty
plea was involuntary is entitled to a hearing as to the
truth of those allegations. Machibroda v. United
States, 368 U.S. 487, 82 S.Ct. 510, 7 L.Ed. 2d 473
(1962).
This court therefore should vacate the
Wisconsin Court of Appeals order affirming the trial
court’s order denying the Petitioner’s postconviction
motion and remand the matter to the trial court with
the instructions to hold an evidentiary hearing on the
motion.
II.
WHETHER
SANDERS
CURRENT
SENTENCE STRUCTURE AFFORDS HIM A
MEANINGFUL OPPORTUNITY FOR PAROLE
The Eighth Amendment requires that states affords
juveniles who commits nonhomicide crimes offenders
a meaningful opportunity to obtain release based on

141a
demonstrated maturity and rehabilitation. Graham v.
Florida, ___ U.S.___, 130 S.Ct. 2011, 176 L.Ed.2d. 825.
Graham analysis does not focus on the precise
sentence meted out. Instead, it holds that a state must
provide a juvenile offender “with a meaningful
opportunity to obtain release” from prison during his
or her expected lifetime. Id.
The Petitioner was sentenced to a total of 140 years in
prison. Under, then, Wisconsin sentencing scheme,
that requires that the Petitioner serve one quarter of
his sentence before he is eligible for parole. Petitioner
will become eligible for parole for the first time in
2030, at which time he will be 50.8 years of age.
Although the Petitioner is not serving a LWOP
sentence and is eligible for parole, however, the
question remains whether his sentence affords him a
meaningful opportunity to obtain release, especially in
light of new evidence.
In his brief to the Wisconsin Court of Appeals,
petitioner noted that his natural life expectancy was
63.2 years. However, in light of this new research,
which was not readily available when he initially
raised this issue in the Court of Appeals, the Petitioner
now shifts his position and argues that his sentence
does not affords him a meaningful opportunity for
parole under Graham’s ruling.
The ACLU of Michigan reports that the average life
expectancy of an inmate sentenced to life in prison is
58 years; for African Americans, like the Petitioner,
the average life expectancy is 56; and for juveniles
sentenced to life the average is 50.5. See ACLU of
Michigan, “Michigan Life Expectancy Data for Youth
Serving Natural Life Sentences,” April 2013,

142a
http://fairsentencingofyouth/wp.content/ uploads/2010
/02/Michigan-Life_Expectancy-Data-Youth-ServingLife.pdf. Kelly v. Brown, 2017 U.S. App. Lexis 4700
(Posner, Circuit Judge, dissenting).
Based on ACLU report, the Petitioner’s sentence does
not affords him a meaningful opportunity for parole.
Therefore, his sentence does denies him a meaningful
opportunity to obtain release based on demonstrated
maturity and rehabilitation, as guaranteed under
Graham’s ruling. Graham v. Florida, ___ U.S. ___, 130
S.Ct. 2011, 176 L.Ed,2d 825.
ACLU report shows that juveniles sentenced to life
sentences have a life expectancy average of 50½ years
which is exactly how old the petitioner will be when he
first becomes eligible for parole under his current
sentence.
Essentially, the Petitioner is serving a de facto life
sentence in terms of years with a sentence of 140 years
in prison (with parole). Under the analysis set out in
Graham, the Eighth Amendment to the U.S.
Constitution requires all juveniles who committed
nonhomicide crimes to be afforded a meaningful
opportunity to be considered for release. Being eligible
for release at your exact life expectancy isn’t what the
High Court had in mind when they ruled in Graham
that juvenile offenders who commit nonhomice crimes
must be afforded a meaningful opportunity for parole.
A state is not required to guarantee eventual freedom
to a juvenile offender convicted of nonhomicide crimes.
What a state must do however, is give defendants like
Graham some meaningful opportunity to be released
based on maturity and rehabilitation. Graham v.
Florida, ___ U.S. ___, 130 S.Ct. 2011, 176 L.Ed.2d.

143a
825. “It is for the state in the instances to explore the
means and mechanism for compliance.” Id.
In the State’s reply brief, in the Wisconsin Court of
Appeals, the state pointed out, “Sanders does not
assert much less prove, that his parole eligibility date
exceeds his natural life expectancy.” See Respondent’s
answer Ex. K. Again, the position that the Petitioner
argues now, in regard to his life expectancy, he was
unable to raise initially because it wasn’t in existence.
This Court should therefore,
vacate the
Petitioner’s sentence and remand it back to the trial
court for a resentencing
III. PETITIONER’S SENTENCE IS UNDULY
HARSH AND EXCESSIVE IN VIOLATION TO
THE EIGHTH AMENDMENT TO THE
UNITED STATES CONSTITUTION AND
ARTICLE I, SECTION 6 OF THE
WISCONSIN CONSTITUTION
The Eighth Amendment prohibition of cruel and
unusual punishment “guarantees individuals the
right not to be subjected to excessive sanctions.” Roper
v. Simmons, 543 U.S, 551, 560, 125 S.Ct. 1183, 161
L.Ed.2d 1. That right “flows from the basic ‘precept of
justice that punishment for crime should be graduated
and proportion’” to both the offender and the offense.
Id. The concept of proportionality is central to the
Eighth Amendment. Graham v. Florida, 560 U.S., at
___ 130 S.Ct. 2011, 176 L.Ed.2d 825.
A sentencer must have the ability to consider
mitigating qualities of youth. Youth is more than a
chronological fact.
It is a time of immaturity,
irresponsibility, impetuousness, and recklessness. It
is a moment and condition of life when a person may

144a
be most susceptible to influence and to psychological
damage.
“And its signature qualities” are all
“transient.” Just as the chronological age of a minor is
itself a relevant mitigating factor of great weight, so
must background and mental and emotional
development of a youthful defendant be duly
considered in assessing his culpability. Miller v.
Alabama, ___ U.S. ___, 132 S.Ct. 2012 L.Ed.2d
In the instant case, the trial court did not consider the
Petitioner’s age or diminished culpability at
sentencing as a mitigating factor, therefore rendering
his sentence unduly harsh and excessive because
“children are constitutionally different from adults”
and cannot be held to the same standard of culpability
as adults in criminal sentencing’.”
Petitioner was sentenced to 140 years in prison for
crimes he was convicted of when he was fifteen-yearsold. Petitioner’s sentence is cruel and unusual in
violation of the Eighth Amendment of the United
States Constitution
More specifically, Petitioner contends that his
sentence is unduly harsh and excessive because 1). It
was disproportinate to his age; and 2). It was also
disproportionate to his individual culpability.
The Wisconsin Court of Appeals decision was contrary
to clearly established federal law, as determined by
the Supreme Court of the United States when it
affirmed the trial court decision denying the
Petitioner’s motion for postconviction relief citing:
We are not convinced that those cases entitle
Sanders to relief from his sentence.
See Respondent’s answer Ex. S. The Court went on to
say:

145a
Further, it is clear that Miler, which was released
after Sanders filed his postconviction motion, is
also not on point, as it concerned juveniles who
committed homicides and were given mandatory
sentences of life without parole
Id.
Thus, the juvenile offender’s decreased culpability
plays a role in the commission of both grievous and
petty crimes. Notably even Chief Justice Robert’s
dissenting opinion sensed Miller’s reasoning applies
well beyond the context of homicide and calls into
question a number of current practices, such as trying
juveniles according to minimums. Miller, 132 S.Ct, at
2482, 183 L.Ed.2d at 437–38 (Roberts, C.J.,
dissenting) It may be natural to assume the stakes
are simply lower regarding the latter category of
crimes, but denying juveniles who commit lesser
crimes the protections afforded in Miller, Graham, and
Montgomery denies the their right under both the
Eighth Amendment and the fourteenth Amendment of
equal protection of the United States Constitution no
less than denying a juvenile who commits a
considerably more serious crime the very same
protection. (quoting State of Iowa v. Pearson, 836
N.W.2d 88 (2013))
Furthermore, limiting the teachings and protections of
these recent cases (Graham, Miller, and montgomery)
to only the harshest penalties known to life is as
illogical as it is unjust. Id. While this logic had been
applied in the context of the death penalty, and lifewithout-parole sentences, it also applies perhaps more
so, in the context of lesser penalties as well.

146a
After all as the Court declared in Miller, nothing that
Graham “said about children—about their distinctive
(and transitory) mental traits and environmental
vulnerabilities—is crime-specific.” Miller, 567 U.S, at
___, 132 S.Ct. at 2465, 183 L.Ed2d at 420. Moreover,
the 7th Circuit held that Miller applies not just to
sentences of natural life, but also to sentences so long
that, although set out as a term of years, they are in
reality a life sentence. McKinley v. Butler, 809 F.3d
908 (7th Cir. 2016). The “Children are different”
passage that we quoted earlier from Miller v. Alabama
cannot logically be limited to de jure life sentences, as
distinct from sentences denominate in number of
years yet highly likely to result in imprisonment for
life. McKinly v. Butler, 809 F.3d 908 (7th Cir. 2016)
(quoting Cf. Moore v. biter, 725 F.3d 1184, 1191–92
(9th Cir. 2013)
a. age
Petitioner’s age at the time these crimes were
committed are highly relevant to the analysis, his
youth is relevant because the harshness of the penalty
must be evaluated in relation to the particular
characteristics of the offender age.
Edmund v.
Florida, 458 U.S. 782 (1982). The age of the offender
and the nature of the crime each bears on the analysis.
Graham v. Florida ___ U.S. ___, 130 S.Ct. 2011, 176
L.Ed.2d. 825. Sentencing Court must consider all
mitigating circumstances attendant a juvenile’s crime
and life, including but not limited to his or her
chronological age at the time of the crime, whether the
juvenile was a direct perpetrator or an aide and
abettor, and his or her physical and mental
development. Id.

147a
Trial court did not use the Petitioner’s youth as a
mitigating factor, “an offender age”, we made clear in
Graham, is relevant to the Eighth Amendment, “and
so criminal procedure law that fails to take defendant
youth into consideration would be flawed.” Miller v.
Alabama, ___ U.S. ___, 132 S.Ct. 2012 L.Ed.2d 2455
(quoting Graham, 130 S.Ct. 2011 176 L.Ed.2d 825).
In deciding on a sentence for a minor “we require [the
sentencing judge] to take into account how children
are different and how those differences counsel
against irrevocably sentencing them to lifetime in
prison.” McKinley v. Butler, 809 F,3d 908 (7th Cir.
2016) (quoting Miller, supra, 132 S.Ct. at 2469
(footnote omitted)) The sentencing judge in this case,
said nothing indicating the he considered the
Petitioner’s youth to the slightest relevance to decide
how long to make the Petitioner’s sentence. McKinley
v. Butler, 809 F.3d 908 (7th Cir. 2016)
In McKinley, the 7th Circuit made clear that,
“sentencing Court must always consider the age of the
defendant in deciding what sentence (within the
statutory limits) to impose on a juvenile. Mckinley,
809 F.3d 908. The Petitioner’s age was used as a
aggravating factor rather than a mitigating factor.
See Respondent’s answer Ex. EE at 57.
b. culpability
The Petitioner culpabilty was twice diminished
because 1). his youth; and 2). he did not kill, and he
had an undeveloped moral sense.
Children are Constitutionally different from adults for
purpose of sentencing because juveniles have
diminished culpabilty and greater prospect for
reform...There are three significant gaps between

148a
juveniles and adults. First, children have a lack of
maturity and an undeveloped sense of responsibility,
leading to recklessness, impulsivity, and heedless risk
taking. Second, children are more vulnerable to
negative influences and outside pressures, including
from their family and peers; they have a limited
control over their own environment and lack the
ability to extricate themselves from horrific crime
producing setting. And third, a child’s character is not
as “well formed” as an adults, his traits are “less fixed”
and his actions less likely to be evidence of irretriable
depravity. Miller v. Alabama, ___ U.S. ___, 132 S.Ct.
2012 L.Ed.2d 2455.
The Court in the Petitioner’s case used his background
and environment as a aggravating factor. Petitioner
lived in a horrific crime-producing environment; He
bears the scars on his head from being brutally beaten
with a baseball bat when he was a child. See
Respondent’s answer Ex. EE. He was shot multiple
times when he was a child. Id. He was sexually
molested as a child. ID. And all of this was in his
environment and his background. This was the
Petitioner’s day-to-day atmosphere. The petitioner
was raised in a dysfunctional family; Both of his
parents had either, and or substance and alcohol
problems. The Petitioner had developed a tremendous
substance and alcohol dependence, id. At age eleven,
the Petitioner witnessed his Brother Rodney get gundown before his eyes. id. All of this warranted
considerable weight in assessing the Petitioner’s
culpability.
How does a child respond to the murder of his brother,
or the death of his father, or being sexually abused, or
being attacked by his peers in his community, or being

149a
beaten and shot? This was the life in which the
Petitioner grew up in, and for a court to not consider
these factors in their assessment of a juvenile offender
lessened
culpability
at
sentencing
is,
unconstitutionally disproportionate.
The Petitioner’s sentence was based primarily on him
being the worst offender and his culpability was held
to that of an adult. The State recommended that the
court sentence him to 50–70 years in prison; however,
the Court felt a longer sentence was need:
Court: The court feels that longer sentence
than the State recommendation is need to protect
the community…I feel that he need, Counsel says
warehoused. I think—I view it to be put in prison
to protect the community. If it’s warehousing, so
be it.
See Respondent’s answer Ex. EE. The trial court was
not interested in rehabilitation, but rather solely in
incapacitation and retribution. Yet under Graham,
Miller, and Montgomery rehabilitation is an important
factor and to predict that a juvenile cannot be
rehabilitated is very difficult. Miller, 567 U.S. at ___,
132 S.Ct. 2469, 183 L.Ed.2d at 424; Graham 560 U.S.
at ___, 132 S.Ct. at 2026, 2027, 176 L.Ed.2d at 841,
844; Montgomery, 2016 U.S. Lexis 862 (2016).
The trial Court emphasized the nature of the crimes to
the exclusion of the mitigating features of youth which
are required to be considered under Miller, graham,
and Montgomery.
This Court therefore, vacate the Petitioner’s sentence
and remand it back to the trial court for resentencing.

150a
CONCLUSION
The Petitioner ask this Court, on argument I, that you
remand it back down to trial court for an evidentiary
hearing on the matter of the Petitioner’s pleas; If this
court find that the Petitioner is not entitled to relief on
argument I., then the Petitioner ask that this Court
set aside his sentence and remand it back down to trial
court for resentencing on argument II.; If this Court
finds that the Petitioner is not entitled to relief on
either of the above two arguments, then the petitioner
ask that this Court grant relief on Argument III, and
remand it back down to the trial court for
resentencing.
For the reasons set forth above.
Petitioner
respectfully request that the Court vacate his plea
and/or grant him a hearing; vacate and set aside his
sentence and remand it back to the trial court for
resentencing.

Respectfully Submitted,
/S/
Rico Sanders -331049
P.O. Box 19033
Green Bay, WI 54307-9033

151a

APPENDIX K

STATE OF WISCONSIN
COURT OF APPEALS
DISTRICT I
STATE OF WISCONSIN,
Plaintiff-Respondent,
v.

Case No. 2012AP001517-CR

RICO SANDERS,
Defendant-Appellant.
ON NOTICE OF APPEAL TO REVIEW A
JUDGMENT OF CONVICTION ENTERED IN
CIRCUIT COURT FOR MILWAUKEE COUNTY,
THE HONORABLE DAVID A. HANSHER
PRESIDING, AND ORDER DENYING MOTION
FOR POSTCONVICTION RELIEF ENTERED IN
THE CIRCUIT COURT FOR MILWAUKEE
COUNTY, THE HONORABLE DAVID A.
HANSHER PRESIDING
BRIEF AND APPENDIX
OF DEFENDANT-APPELLANT
RICO SANDERS, Pro se’
GREEN BAY CORR. INST.
P.O. BOX 19033
GREEN BAY, WI 54307-9033

152a
Table of Contents
Page
Issue Presented .................................................
1
Statement on Oral
Argument and Publication ...............................
2
Statement of Case .............................................
2
Statement of Facts ............................................
7
Argument ..........................................................
10
I.
The Trial Court Erroneously Abused
Its Discretion When It Applied The
Escolona-Naranjo Procedural Bar To
Sanders Case ........................................
II. Whether Sanders Current Sentence
Affords Him A Meaningful
Opportunity For Parole .......................
III. SAnders Sentence Is Unduly
Harsh and Excessive............................
Conclusion .........................................................
23
Appendix ........................................................... 100
Cases Cited
Edmond v. Florida, 458 U.S. 782 (1982)
18
Graham v. Florida, __ U.S.__, 130 S.Ct.
2011, 176 L.Ed.2d 825 .......................... 11, 12, 13, 14,
15, 16, 18, 19, 22
J.D.V. v. North Carolina, 564 U.S. at
131 S.Ct. 2394, 180 L.Ed.2d 310 (2010)
19
Miller v. Alabama, __ U.S.__, 132 S.Ct.
2012 L.Ed.2d 2455 (2012) .................... 12, 16, 17, 18,
19, 20, 21, 22, 23
State v. Escalona-Naranjo, 185 Wis.2d
169 N.W.2d 178 (1994)................................. 11, 12, 13
State v. Harris, 119 Wis.2d 612, 622,
350 N.W.2d 633, 638 (1984)........................
17

153a
State v. Howard, 199 Wis.2d 454, 544
N.W.2d 626·(Ct. app. 1996), aff’d, 211
Wis.2d 259, 564, N.W.2d 753 (1999) .......... 10, 11,12
State v. Johnson, 150 Wis.2d, 458
(Ct. App. 1990) ............................................
17
State v. Paske,·163 Wis.2d. 52, 69,
471 N.W. 2d 55 (1991).................................
15, 16
State v. Pratt, 36 Wis.2d 312, 321–23,
153 N.W.2d 18 (1967)..................................
15, 16
Wisconsin Statutes
973 ...............................................................
22
974.06 ..........................................................
10, 11
Other Authorities
U.S. Constitution, 8th Amendment ...........
16, 19
Wisconsin Constitution, Article I,
Section 6 ......................................................
17

154a
STATE OF WISCONSIN
COURT OF APPEALS
DISTRICT I
STATE OF WISCONSIN,
Plaintiff-Respondent,
v.

Case No. 2012AP001517-CR

RICO SANDERS,
Defendant-Appellant.
ON NOTICE OF APPEAL TO REVIEW A
JUDGMENT OF CONVICTION ENTERED IN
CIRCUIT COURT FOR MILWAUKEE COUNTY,
THE HONORABLE DAVID A. HANSHER
PRESIDING, AND AN ORDER DENYING MOTION
FOR POSTCONVICTION RELIEF ENTERED IN
THE CIRCUIT COURT FOR MILWAUKEE
COUNTY, THE HONORABLE DAVID A.
HANSHER PRESIDING
BRIEF AND APPENDIX
OF DEFENDANT-APPELLANT
ISSUE PRESENTED
Did the trial court erroneously abuse its discretion
when it applied the Escalona-Naranjo procedural bar
to Sanders’s case which sought 1). To answer the
question of whether his current sentence affords him
meaningful opportunity for parole under Graham v.
Florida, __ U.S. __, 130 S.Ct. 2011, 176 L.Ed.2d 825
ruling; And 2). A sentence modification on the grounds
that sentencing him to 140 years as a juvenile

155a
constituted cruel and unusual in violation of the
Eighth Amendment of the U.S. Constitution.
The trial court denied the motion without a hearing.
STATEMENT ON ORAL ARGUMENT
AND PUBLICATION
Oral argument is requested as the arguments of the
appellant have merit and oral argument may help
develop the theories and issues on appeal. See Wis.
Stats. (Rule) 809.22. The opinion in this case should
be published because it does meet the criteria for
publishing under Rule 809.23 (1)(a).
STATEMENT OF THE CASE
Following a waiver from juvenile court, R5, Fifteen
year old Sanders was charged in adult court with three
counts of first degree sexual assault, two counts of
armed burglary, one count of armed robbery (use of
force), one count of second degree sexual assault, two
counts of aggravated burglary, and one count of armed
burglary. R6:1.
On March 11, 1997, Sanders entered Alford pleas on
six counts in this case pursuant to a plea agreement.
R39.
The trial court, the Hansher presiding,
sentenced him on April 25, 1997 to as follows: 140
years in prison on counts 1, 3, 4, 6, 8, & 9 and
dismissing counts 257, & 10. id
On March 15, 2006, Sanders filed a petition for Writ
of Habeas Corpus Pursuant to State v. Knight, 168
WIS.2d 509, 484, N.W.2d 545 (1992) in this. The
petition sought reinstatement of his appellant rights.
This Court granted his petition on August 2, 2006.
R47.

156a
On February 28, 2007, Sanders filed a
postconviction motion in which he sought to withdraw
his Alford pleas on the grounds that the trial court
failed to comply with Wisconsin Statutes §971.08
(1)(a) and he failed to understand the elements of the
crimes to which he was pleading guilty. R49. The trial
court, the honorable Jeffery A. Wagner presiding,
denied the postconviction motion without an
evidentiary hearing on June 11, 2007. R56.
On October 10, 2007, Sanders argued on appeal that
he was entitled to an evidentiary hearing because he
made a prima facie showing under Bangert, the plea
colloquy
did
not
adequately
establish
his
understanding of the nature of the charges and
because he had sufficiently alleged that he did not
understand the charges. On September 9, 2008, This
Court concluded that Sanders was not entitled to an
evidentiary hearing, because he failed to make a prima
facie showing that trial court failed to comply with
Wisconsin Statutes §971.08. R82.
On September 24, 2008, Sanders filed a petition for
review to the Wisconsin Supreme Court asking did the
trial court err in denying the defendant an evidentiary
hearing on his postconviction motion. On December 8,
2008, Sanders petition for review was denied. R83.
On December 7, 2009, Sanders filed a Motion for
Postconviction Relief pursuant to section 974.06,
stats., in the trial court on the grounds of Ineffective
Assistance of postconviction counsel for failing to raise
and properly argue the following issues: 1). Failing to
properly argue Sanders mental deficiencies with
psychological evidence that would have explained why
he lacked understanding of some of the court

157a
proceedings; 2). Failing to raise and argue on direct
appeal trial courts failure to inform him of the direct
consequence of his pleas; 3). Failing to raise and argue
Sanders did not know or understand that he was
waiving his constitutional right to face his accuser; 4).
Failing to raise and argue Sanders did not know or
understand that he was waiving his right to remain
silent and that his silence could not be used against
him; And 5). Failing to raise and argue Sanders did
not know or understand that he was waiving the
constitutional right to have the state prove that he
committed each element of the crimes charged. R86.
On December 15, 2009, the trial court, honorable
David A. Hansher presiding, denied the motion for
postconviction relief without an evidentiary hearing.
R.87.
On May 11, 2010, Sanders appealed the circuit
court’s decision to this court on the grounds of
ineffective assistance of postconviction counsel for
failing to raise and argue on direct appeal trial courts
failure to properly inform him of his constitutional
rights, and whether he understood those rights he was
waiving by entering his pleas. On March 15, 2011, this
Court in an unanimous three-panel judge summarily
order affirmed the trial court decision. R91.
On March 21, 2011, Sanders filed a petition for
review in the Wisconsin Supreme Court on the
grounds that postconviction counsel was ineffective for
failing to raise and argue trial court’s failure to inform
him of his constitutional rights he was waiving and his
understanding of them. On June 15, 2011, the
Wisconsin Supreme Court denied Sanders petition for
review. R92.

158a
On September 12, 2011, Sanders filed a petition for
Writ of Habeas Corpus pursuant to 28 U.S.C. §2254 in
the United States District Court of Wisconsin Eastern
District on the grounds 1). That Sanders Alford pleas
was unconstitutional and in violation of his
fundamental due process under the 14th amendment
given that it was not entered knowingly intelligently,
and voluntarily because trial court failed to comply
with Wisconsin Statutes §971.08 (1)(a) and he failed to
understand the elements of the crimes to which he was
pleading guilty; And 2). Sanders asked the Federal
Court to stay his appeal in abeyance while he raises
whether his sentence affords him a “meaningful
opportunity for parole” in compliance with Graham v.
Florida, __ U.S. __, 130 S.Ct. 2011, 176 L.Ed.2d 825.
On December 1, 2011, the United States District Court
of Eastern Wisconsin granted Sanders motion to stay
the proceedings while he exhaust his unexhausted
constituitional issues on the state level.
On May 1, 2012, Sanders filed a Motion for
Postconviction Relief pursuant to section 974.06,
stats., in the trial court raising 1). Whether his current
sentence affords him a meaningful opportunity for
parole under the Graham ruling; And 2). Sanders is
entitled to a sentence modification on the grounds that
sentencing him to 140 years as a juvenile constitute
cruel and unusual in violation of the eighth
amendment of the U.S. Constitution and Article I
Section 6 of Wisconsin Constitution. R95. On May 15,
2012, the trial court, Honorable David A, Hansher
presiding, denied Sanders Motion for Postconviction
Relief by procedurally barring him under State v.
Escalona-Naranjo, 185 WIS.2d 169, 517 N.W.2d 157
(1994). R96. On June 1, 2012 Sanders filed a motion

159a
for reconsideration arguing that Escalona-Naranjo
should not be applied to his motion because the issues
he now raises he was unable to raise than because the
U.S. Supreme Court had not made their ruling in the
graham case which the defendant’s current §974.06 is
based on. R97. On June 11, 2012, the Honorable
David A. Hansher Presiding, denied the motion for
reconsideration. R98.
Notice of appeal was timely filed on July 5, 2012.
R99.
STATEMENT OF FACTS
Prior to Sanders arrest, he grew up in the inner city
of Chicago, Illinois. He lived in a dysfunctional family
and environment where he witnessed crime and
violence on a daily basis. At the age of seven he was
sexually abused by his Stepfather. At age 11, he
witnesses his brother get fatally shot. At age 12,
Sanders was involved with a street gang. By age 14,
he was severely beaten with a baseball bat, kidnaped,
and shot multiple times. R75: at pg 41–42.
In January 1995, at age 15, Sanders mom and he
both thought that it would be best to leave Chicago, IL
because there was a hit on his life, and also in search
of a better life.
On September 7, 1995, at age 15, Sanders was
arrested and charged with several felonies in juvenile
Court. R3.
On September 11, 1995, A petition for wavier of
jurisdiction and notice of hearing was filed in
Milwaukee juvenile court. In preparation for the
waiver hearing a psychologist, Dr. Carter, was called
in to conduct some psychological testing. See R26. Dr.
Carter concluded through a plethora of psychological

160a
testing, that Sanders was extremely illiterate with
learning disabilities and the I.Q. of 72. id.
On October 12, 1995, Sanders waived into adult
Court. R5.
On April 25, Sanders was sentenced. At sentencing,
the trial court failed to take into account the
defendants age, youth, and culpability. The trial court
subsequently sentenced Sanders to a total of 140 years
in prison. R75.
Sanders subsequently alleged in his Motion for
Postconviction Relief that his sentence was unduly
harsh and excessive. R95:7. He specifically alleged
that his sentence is unduly harsh and excessive
because 1). The defendant age was not factored in at
sentencing as a mitigating factor. Given Sanders was
a juvenile and committed nonhomicide crimes, that
twice diminished his moral culpability, which was a
mitigating factor. id. Also, in light of the United
States Supreme Court ruling in Miller v. Alabama, __
U.S. __, 132 S.Ct. 2012 L.Ed.2d 2455, Sanders further
expand his claim of his sentence being unduly harsh
and excessive in violation of the Eighth Amendment;
And 2). Sanders also raised the question of whether
his current sentence structure affords him a
meaningful opportunity for parole.
The trial court, Honorable David A. Hansher
presiding, denied the motion for postconviction relief
without a hearing holding that the motion is barred by
State v. Escalona-Naranjo, 185 Wis.2d 169, 517
N.W.2d 178 (1994), precluding him from pursuing the
current motion for postconviction relief. R96. The
trial court further held that Sanders had every
opportunity to raise these claims previously and failed

161a
to do so. Under the circumstance, they are considered
waived. id.
Sanders filed a motion for reconsideration asking
the court to reconsider his motion for postconviction
relief, on the basis that at the time the defendant
brought forth his previous 974.06 motion, the issues
he now raises he was unable to raise than because the
U.S. Supreme Court had not made a their ruling in the
Graham case, which the defendant current 974.06 is
based on. R97: 1–2. The trial court, the Honorable
David A. Hansher presiding, denied the motion for
reconsideration and held, Graham is inapplicable
here. id. He is not serving a life sentence without
parole as in Graham. id.
ARGUMET
I. THE TRIAL COURT ERRONEOUSLY
ABUSED ITS DISCRETION WHEN IT
APPLIED THE ESCALONA-NARANJO
PROCEDURAL BAR TO SANDERS CASE
In his motion for postconviction relief pursuant to
974.06, Sanders invoked State v. Howard, 199 Wis.2d
454, 544 N.W.2d 626 (Ct. app. 1996), Aff’d, 211 Wis.2d
269, 564 N.W.2d 753 (1997), and argued “the fact that
he could not have foreseen the effect of subsequent
decision at the time of his appeal, constituted a
sufficient reason for not raising the issue in previous
974.06.” id. In his 974.06 motion, Sanders raised
whether his current sentence afforded him a
meaningful opportunity for parole in light of the
United States Supreme Court ruling in Graham v.
Florida, __ U.S. __, 130 S.Ct. 2011, 176 L.Ed.2d 825.
As well as alleged that his sentence was unduly harsh
and excessive in line with the U.S. Supreme Court

162a
analysis in Graham. He specifically stated in his
974.06:
A subsequent change in the law my be
sufficient reason for alleging a new issue to be
raised by section 974.06 motion State v. Howard,
199 Wis.2d 454, 544 N.W.2d 626 (Ct. app. 1996)
Aff’d, 211 Wis.2d 269, 564 N.W.2d 753 (1997).
On both issues raised, the defendant will rely on
Graham v. Florida, __ U.S. __, 130 S.Ct. 2011, 176
L.Ed.2d 825 to support his argument and it
precedents the United States Supreme Court
ruled on in the Graham case.
R95. On May 17, 2010, Sanders was unable to
raise the issues he now bring before this Court,
pursuant to §974.06, because he was already in
the process of going through his 974.06 on the
state level at the time of Graham ruling.
R95 at 7. Sanders then further asserted:
Therefore, he has shown “sufficient reason” to
now raise these issues, and should not be
procedurally barred under State v. EscalonaNaranjo, 185 Wis.2d 168, 181–82, 517 N.W.2d 157
(1997).
id. at 7. Although these claims were sufficient to
require an evidentiary hearing, the trial court
erroneously abused its discretion when it applied
Escalona-Naranjo.
This Court, therefore should
vacate the order denying Sanders motion for
postconviction relief and remand it back to trial court
for resentencing.
Retroactivity only applies to certain new rules. A
cases announces a new rule when it breaks new

163a
ground or impose a new obligation on the state or
federal government. New rules merit retroactive
application on collateral review only in two instance.
In the first instance, a new rule should be applied
retroactively if it places certain kinds of primary,
private individual conduct beyond the power of the
criminal law-making authority proscribe. Second, a
new rule should be applied retroactively if it requires
observance of those procedures that are implicit in the
concept and order of liberty. State v. Howard, 199
Wis.2d 454, 544 N.W.2d 626 (Ct. App. 1996) Aff’d 211
Wis.2d 269, 564 N.W.2d 753 (1997). In Graham, and
later echoed in Miller (__ U.S. __, 132 S.Ct. 2012, 176
L.Ed.2d 2455), the high court has mandated that
states and federal government sonsider mitigating
factors of juvenile’s as well as provide a meaningful
opportunity for parole for nonhomicide juvenile
offenders.
Here, however, because the trial court denied the
defendant’s motion for postconviction relief, the
question before this court is whether Sanders sentence
should be vacated. Instead, the issue is whether the
court erroneously abused its discretion when it
procedurally barred him under Escalona-Naranjo? It
did.
II.
WHETHER SANDERS CURRENT SENTENCE
STRUCTURE AFFORDS HIM A MEANINGFUL
OPPORTUNITY FOR PAROLE
In Graham, the 16 year old defendant, Terrance
Graham, committed burglary and attempted armed
robbery, was sentence to probation, and subsequently
violated the terms of his probation when he committed

164a
other crimes. Graham v. Florida, __ U.S. __, 130 S.Ct.
2011, 176 L.Ed.2d 825. The trial court revoked his
probation and sentenced him to life in prison for
burglary. id. Graham sentence amounted to a life
without parole because Florida had abolished its
parole system. id.
The high Court stated that nonhomicide crimes
differ from homicide crimes in a “moral sense,” and
that a juvenile nonhomicide offender has a “twice
diminished moral culpability” as opposed to an adult
convicted of murder—both because of his crime and of
his undeveloped moral sense. id.
The Court went on to say the Eighth Amendment
requires that State afford juvenile offenders a
meaningful opportunity to obtain release based on
demonstrated maturity and rehabilitation. (Graham,
Supra)
Graham analysis does not focus on the precise
sentence meted out. Instead, it holds that a state must
provide a juvenile offender “with a meaningful
opportunity to obtain release” from prison during his
or her expected lifetime. id.
In the instant case, Sanders was sentenced to a total
of 140 years in prison. Under Wisconsin sentencing
scheme that would require that he serve one qurter of
his sentence before he is eligible for parole. Sanders
current sentence affords him a parole eligibility 35
years from his arrest date, in which case he will be 50
years of age. Although Sanders is not serving a LWOP
sentence and is eligible for parole, however, the
question remains whether his sentence affords him a
meaningful opportunity to obtain release? Perhaps
the better question would be: Ho do you exactly define

165a
a meaningful opportunity for a juvenile? When must
this meaingful opportunity occur?
Under the analysis set out in Graham, __ U.S. __,
130 S.Ct. 2011, 176 L.Ed.2d 825, the Eighth
Amendment to the U.S. Constitution requires all
juveniles who committed nonhomicide crimes to be
afforded a meaningful opportunity to be considered for
release. “a state is not required to guarantee eventual
freedom to a juvenile offender convicted of
nonhomicide crimes. What a state must do however,
is give defendants like Graham some meaningful
opportunity to be released based on maturity and
rehabilitation.” id. “It is for the state in the instances
to explore the means and mechanisms for compliance.”
id.
III.

SANDERS SENTENCE IS UNDULY
HARSH AND EXCESSIVE
Standard of Review

To Determine whether a punishment is cruel and
unusual in a particular case is the same under both
federal and Wisconsin law. State v. Pratt, 36 Wis.2d
312, 321–23, 153 N.W.2d 18 (1967). “What constitute
adequate punishment is ordinarily left to the
discretion of the trial judge. If the sentence is within
the statutory limit, appellant courts will not interfere
unless clearly crul and unusual.” id. A sentence is
clearly cruel and unusual only if sentence is so
excessive and unusual, and so disproportionate to the
offense committed, as to shock public sentiment and
violate the judgment of reasonable people concerning
right and proper under the circumstance. State v.
Paske, 163 Wis.2d 52, 69, 471 N.W.2d 55 (1991).
(quoting Pratt, 36 Wis.2d at 322)

166a
In Graham, The United States Supreme Court held
that it’s cruel and unusual to sentence a juvenile to life
without the possibility of parole for nonhomicide
crimes. Graham v. Florida, __ U.S. __, 130 S.Ct. 2011,
176 L.Ed.2d 825. The Supreme Court based their
reasoning in Graham on 1). The limited culpability of
juvenile nonhomicide offender; 2). The severity of life
without parole; and 3). The Court’s determination that
penological theory is inadequate to justify the
punishment.
Sanders is not serving a LWOP sentence, and
therefore not controlled by Graham. Nevertheless,
Sanders claims that his sentence is cruel and unusual
is guided by the principles set forth in Graham and
echoed in Miller.
Sanders was sentenced to 140 years in prison for
crimes committed when he was 15 years old. Sanders
sentence is cruel and unusual in violation of the
Eighth Amendment of The U.S. Constitution and
Article I, Section 6 of Wisconsin Constitution. Sanders
contends that his sentence is unduly harsh and
excessive because 1). It was disproportionate to his
age; And 2). His sentence was also disproportionate to
his individual culpability.
In Wisconsin, the primary sentencing factors are
the gravity of the offense, the character of the offender,
and the need for protection of the public, (State v.
Harris, 119 Wis.2d. 612, 622, 350 N.W.2d 633, 638
(1994)), no matter who the offender is. The Court
however, in its discretion, may consider a variety of
other factors. State v. Johnson, 150 Wis.2d 458 (Ct.
App. 1990).
Then other factors may be age,
culpability, etc., and are generally secondary.

167a
However, in the wake of such U.S. Supreme Court
decisions, like Graham and Miller, those secondary
factors became primary factors when sentencing
juveniles. As the U.S. Supreme Court noted in Miller,
Of special pertinence here...A sentence MUST have
the ability to consider mitigating qualities of youth.
Youth is more than a chronological fact. It is a time of
immaturity, irresponsibility, impetuousness, and
recklessness. It is a moment and condition of life when
a person may be most susceptible to influence and to
psychological damage. And its “signature qualities”
are all “transient.” Just as the chronolgical age of a
minor is itself a relevant mitigating factor of great
weight, must the background and mental and
emotional development of a youthful defendant be
duly considered in assessing his culpability. Miller v.
Alabama, __U.S.__, 132 S.Ct. 2012 L.Ed.2d 2455.
In the present matter, the trial court did not
consider the defendant’s age or diminished culpability
at sentencing as a mitigating factor, therefore, making
his sentence unduly harsh and excessive because it is
disproportinate to his age and culpability.
a. age
SAnders age at the time he committed these crimes
are highly relevant to the analysis. His youth is
relevant because the harshness of the penalty must be
evaluated in relation to the particular characteristics
of the offender. Edmund v. Florida, 458 U.S. 782
(1982). The age of the offender and the nature of the
crime each bears on the analysis. Graham v. Florida,
__ U.S. __ 130 S.Ct. 2011, 176 L.Ed.2d 825.
Under Graham’s nonhomicide ruling, the
Sentencing Court MUST consider all mitigating

168a
circumstance attendant to juvenile’s crime and life,
including but not limited to his or her chronological
age at the time of the crime, whether the juvenile was
a direct perpetrator or an aide and abettor, and his or
her physical and mental development. Graham v.
Florida, __ U.S. __ 130 S.Ct. 2011, 176 L.Ed.2d 825.
The Court did not use Sanders youth as a mitigating
factor, “An offender age,” we made clear in Graham, is
releveant to the “Eighth Amendment,” and so criminal
procedure law that fails to take defendant youth into
consideration would be flawed. Miller v. Alabama, __
U.S. __, 132 S.Ct. 2012 L.Ed.2d 2455 (quoting
Graham, 130 S.Ct. 2011 176 L.Ed.2d 825).
Courts must look to mitigating factors that may
justify a less harsh sentence whenever a child receives
a sentence designed for an adult. A child whom would
receive the same amount of time as adult, if not more,
is cruel and unusual. Children cannot be viewed as
miniature adults. J.D.V. v. North Carolina, 564 U.S.
at __, 131 S.Ct. 2394, 180 L.Ed.2d 310 (2011). They
are essentially children in a way that constitutionally
requires that we respect their child status.
Sanders “youth is one factor, among others, that
should be considered in deciding whether his
punishment
was
unconstitutionally
excessive.
Graham v. Florida, __ U.S. __, 130 S.Ct. 2011 176,
L.Ed.2d 825.
b. Culpability
Sanders culpability was twice diminished because
1). His youth; and 2). He did not kill; and 3). His
undeveloped moral sense.
Children are constitutionally different from adults
for purpose of sentencing because juveniles have

169a
diminished culpability and greater prospect for
reform...There are three significant gaps between
juveniles and adults. First, children have a lack of
maturity and an undeveloped sense of responsibility,
leading to recklessness, implusivity, and heedless risk
taking. Second, children are more vulnerable to
negative influences and outside pressures, including
from their family and peers; they have a limited
control over their own environment and lack the
ability to extricate themselves from horrific crime
producing settings. And third, a child’s character is
not as “well formed” as an adults, his traits are “less
fixed” and his actions less likely to be evidence of
irretrivable depravity. Miller v. Alabama, __U.S.__,
132 S.Ct. 2012 L.Ed.2d 2455.
In the instant case, sanders lived in a horrific crimeproducing environment; He bears the scars on his
head now of being beaten brutally near death when he
was a child. R75. He was shot several times when he
was a child. id. He was sexually molested as a child.
And all of that was in his environment. That was his
community. That was a day-to-day atmosphere that
he had to deal with. Sanders was raised in a
dysfunctional family. His Mother and Father both had
alcohol problems, Sanders himself had a tremendous
substance and alcohol abuse problems; as well as
disabilities, mental disabilities and that was his
environment. R75. All of this warranted considerable
weight in assessing his culpability.
How does a child respond to the murder of his
brother, or the death of his father, or being sexually
abused, being attacked by his peers in his community,
or being beaten and shot? For a court to disregard
theses factors in an assessment of a juvenile offender

170a
lessened
culpability
at
sentencing
is
unconstitutionally disproportionate.
Again, it’s
necessary to reiterate the United States Supreme
Court holding in Miller, just as the chronological age
of a minor is itself a relevant mitigating factor of great
weight, so must the background and mental and
emotional development of a youthful defendant be
duly considered in assessing his culpability. id. 132
S.Ct. 2012 L.Ed.2d.
Sanders sentence was based primarily on him being
the worst offender and his culpability was held to that
of an adult. The State recommended that the Court
sentence him to 50–70 years in prison. However, the
Court felt that a longer sentence was needed:
COURT: The court feels that a longer sentence
than the state recommendation is
needed to protect the community... I feel
that he need, Counsel says warehoused.
I think—I view it to be put in prison to
protect the community.
If it’s
warehousing, so be it.
R75:55. Juveniles, having lessoned culpability as
compared to adults, are less deserving of the most
severe punishment since they lack maturity and have
an undeveloped sense of responsibility, are more
susceptible to negative influences and outside
pressures, and cannot be classified among the worst
offender as a greater possibility exist that a minor’s
character deficiencies will be reformed. Graham v.
Florida, __ U.S. __, 130 S.Ct. 2011 176, L.Ed.2d 825.
After Graham, and in light of Miller, an assessment
of traditional factors in aggravation and mitigation, as
the trial court undertook in exercising its discretion

171a
under 973.01 is not enough. Those factors, while still
relevant cannot supplant the factors deemed
paramount in Graham and later echoed in Millar. The
juvenile’s chronological age and its hallmark
features—among them immaturity, impetuousity, and
failure to appreciate risks and consequence, the family
and home environment that surrounds him—from
which he cannot usually extricate himself—no matter
how brutally or dysfunctional, the possibility of
rehabilitation. Miller v. Alabama, __ U.S. __, 132 S.Ct.
2012 LE.d. 2d 3455.
CONCLUSION
Because those and other characteristics discussed in
Graham and Miller were not at the forefront of the
factors considered by the trial court when exercising
its discretion in the present case, Sanders is entitled
to have the trial court reconsider its decision in light
and Graham and Miller, and to be resentenced
Accordingly.
This Court should therefore, remand the matter
back to trial court vacating their order and to be
resentenced.
Dated at Green Bay, Wisconsin, March 31, 2013
Respectfully Submitted,
s/ Rico Sanders
RICO SANDERS #331049
GREEN BAY CORR. INST.
P.O. BOX 19033
GREEN BAY, WI 54307-9033

